<html>
<title> - NASA AT A CROSSROADS: REASSERTING AMERICAN LEADERSHIP IN SPACE EXPLORATION</title>
<body><pre>[Senate Hearing 114-613]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-613

    NASA AT A CROSSROADS: REASSERTING AMERICAN LEADERSHIP IN SPACE 
                              EXPLORATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-172 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            GARY PETERS, Michigan, Ranking
MARCO RUBIO, Florida                 EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
CORY GARDNER, Colorado               BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2016....................................     1
Statement of Senator Cruz........................................     1
Statement of Senator Peters......................................     2
    Prepared statement...........................................     4
Statement of Senator Nelson......................................     5
    Prepared statement...........................................     5
    Prepared statement of George Whitesides, CEO, Virgin Galactic    59
    Prepared statement of Casey Dreier, Director of Space Policy, 
      The Planetary Society......................................    60
Statement of Senator Daines......................................    54

                               Witnesses

William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations, NASA...............................     7
    Prepared statement...........................................     9
Dr. Mary Lynne Dittmar, Executive Director, Coalition for Deep 
  Space Exploration..............................................    15
    Prepared statement...........................................    16
Michael Gold, Vice President, Washington Operations and Business 
  Development, Space Systems Loral...............................    30
    Prepared statement...........................................    31
Mark N. Sirangelo, Corporate Vice President, Space Systems, 
  Sierra Nevada Corporation......................................    38
    Prepared statement...........................................    41
Daniel L. Dumbacher, Professor of Engineering Practice, School of 
  Aeronautics and Astronautics, College of Engineering, Purdue 
  University.....................................................    44
    Prepared statement...........................................    46

                                Appendix

Letter dated July 13, 2016 to Senator Ted Cruz and Senator Gary 
  Peters from Scott Lehr, President, Flight Systems Group, 
  Orbital ATK....................................................   101
Response to written questions submitted to William H. 
  Gerstenmaier by:
    Hon. Marco Rubio.............................................   110
    Hon. Bill Nelson.............................................   114
    Hon. Richard Blumenthal......................................   115
    Hon. Gary Peters.............................................   115
Response to written questions submitted to Dr. Mary Lynne Dittmar 
  by:
    Hon. Marco Rubio.............................................   116
    Hon. Gary Peters.............................................   119
Response to written questions submitted to Michael Gold by:
    Hon. Marco Rubio.............................................   120
    Hon. Bill Nelson.............................................   123
    Hon. Richard Blumenthal......................................   123
Response to written questions submitted to Mark N. Sirangelo by:
    Hon. Marco Rubio.............................................   124
    Hon. Bill Nelson.............................................   126
    Hon. Richard Blumenthal......................................   127
Response to written questions submitted to Daniel L. Dumbacher 
  by:
    Hon. Marco Rubio.............................................   127

 
                         NASA AT A CROSSROADS:
          REASSERTING AMERICAN LEADERSHIP IN SPACE EXPLORATION

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                               U.S. Senate,
            Subcommittee on Space, Science, and Competitiveness,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:47 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Peters, Nelson, Daines, 
and Gardner.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    The Chairman. This hearing is called to order. Good 
afternoon and welcome. I apologize for the delay of the start 
of the hearing. We had a vote scheduled at 2:30, and so that 
delayed our beginning this hearing. But welcome. I want to 
thank each of the witnesses for coming and testifying.
    Exploration, the need to seek out the unknown, to expand 
our civilization, and to create new enterprise. Nearly 400 
years ago, some of our Nation's first pioneers, the pilgrims, 
set out across the white-tipped Atlantic Ocean in search of the 
New World. William Bradford, speaking in 1630, of the founding 
of the Plymouth Bay Colony said that all great and honorable 
actions are accompanied by great difficulties, and both must be 
enterprised and overcome with answerable courage. It is that 
same answerable courage and restless desire to seek out the 
unknown that led our country to expand westward, to create new 
industries, and eventually to look toward the heavens to chart 
out a new course for American discovery and free enterprise. 
With names like Armstrong, Aldrin, Shepard, and Lovell, we set 
off through the vistas of space and inspired a nation.
    However, this journey hasn't always been easy, and it has 
come at great cost as we remember fallen heroes like Grissom, 
Husband, and McAuliffe. Today we pay our respects to the 
achievements and lessons of history, but we also seek out a 
hopeful future that has its roots in our Nation's frontier 
history and the promise of new discovery.
    We have come together in this committee room to reassert 
American leadership in space. My priority for this subcommittee 
is to ensure that the United States remains the leader in space 
exploration in the 21st century. We began last year by 
committing our Nation to fostering the continued development of 
a strong commercial space sector through the passage and 
enactment of the U.S. Commercial Space Launch Competitiveness 
Act. Now we look to build on that foundation by focusing NASA's 
energies on continuing to make progress in exploring space and 
redoubling its partnerships with the private sector.
    Human space exploration and innovation are integral to the 
mission of NASA. That's why this subcommittee will work to 
provide NASA with the security and stability that is necessary 
as the agency transitions from one administration to the next, 
and I look forward to working with Ranking Member Peters 
throughout this process.
    We have unfortunately seen what can happen to NASA and the 
spirit of its employees when worthy missions and programs are 
clouded in uncertainty and cancellations, cancellations to 
programs such as Constellation, which sought to return 
astronauts to the Moon and beyond, or the retirement of the 
shuttle program have had lasting consequences that NASA and the 
broader space community are still grappling with today. These 
cancellations have left our country completely dependent on the 
Russians to get American astronauts to and from low Earth 
orbit, at a cost of $82 million per seat. If we can keep NASA 
on its current path, it is likely that the Commercial Crew 
Program will finally launch American astronauts from U.S. soil 
by the end of 2017. Additionally, as we set our sights on a 
Journey to Mars, it is imperative that we continue to build the 
Space Launch System and Orion, which will take NASA into deep 
space and lead us to new discoveries.
    Our path forward is not easy, but it is necessary for the 
future of our American space program. We must continue to 
expand the domain of free enterprise deeper into space, to do 
it first, and to lead the world, and to ensure that we don't 
squander the opportunity before us today.
    With that, I'll recognize Senator Peters for an opening 
statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And good afternoon. And I want to thank Chairman Cruz for 
calling this hearing today. I'm very pleased to be here to 
discuss the future of NASA, and I want to thank each of our 
distinguished panelists in advance for your testimony here 
today and your willingness to answer our questions on this very 
important topic.
    You know, being from Michigan, the epicenter of the 
automotive world, I can't help to notice but some very striking 
similarities between human space exploration and the automotive 
industry. The auto industry enjoyed a long period of growth and 
prosperity during the 1990s and early 2000s, and then in 2007, 
what has been called the ``Great Recession'' occurred, and at 
the same time, the price of gasoline skyrocketed. That led to 
factories being shut down and thousands of employees being out 
of work, and the outlook for the American auto industry at that 
time was, as you recall, particularly grim.
    But Detroit automakers responded by doing what Americans do 
best, they endured, they innovated, and they rose to the 
challenge. With U.S. auto sales now reaching a new high in 2015 
and expected to be even higher this year, the U.S. automotive 
industry is emerging as a great American comeback story.
    Similarly, we've seen highs and lows in the space business. 
We've had a hiatus in human spaceflight after the end of the 
very triumphant Apollo program. We had amazing successes with 
the iconic space shuttle program, but we also unfortunately 
endured the Challenger and Columbia tragedies.
    We have constructed a football field-sized space station 
and maintained a continuous human presence in space for over 15 
years. But following the retirement of the space shuttle and 
challenges and false starts in fielding the successor program, 
our human spaceflight program hit a low similar to what the 
auto industry hit in 2007. But now, just like the American auto 
industry, human spaceflight is making a comeback, and it's 
making a comeback in a very big way. NASA and American industry 
are working together with a common goal of leading to more 
efficient, safer, and more capable systems. We must continue to 
innovate, find new efficiencies, meet new deadlines, and 
maintain the highest standards of excellence. These are the 
same elements that helped bring the automotive industry back to 
where it is today, and I believe that these elements will 
continue to bring the U.S. human space exploration to a new 
high.
    Pushing out to the frontier of space certainly inspires the 
next generation of engineers and scientists, creates 
technologies and scientific advances that make life better here 
on Earth, and helps power the dynamo of American industry. The 
SLS and Orion programs alone engage thousands of suppliers and 
small businesses all across this great country. I've spent time 
with several of these suppliers in Michigan, including 
Futuramic, a company that has transitioned from the auto 
industry to the space industry. Investments in space don't only 
help us understand the universe, they create jobs and drive 
innovation in Michigan and communities all across the Nation.
    A great deal of progress has been made since NASA 
Authorization of 2010, and with the first commercial crew 
flights to ISS, the first launch of the massive SLS rocket, and 
the launch of the massive James Webb Space Telescope, all 
planned for the next 2 years, there are some huge milestones 
just around the corner.
    Just about anyone who was alive at the time vividly 
remembers, as I do, watching the Apollo missions on TV. 
Achieving Kennedy's goal of putting a man on the Moon by the 
end of the decade is certainly one of the most significant 
technological achievements in human history. Since we last left 
the Moon nearly 45 years ago, we are now on the cusp of 
journeying once again into deep space, and we are not going to 
just cautiously dip our toes in the water and then pull back, 
we're going to go boldly and we're going to go there to stay.
    I look forward to working with my colleagues to reauthorize 
NASA and provide the agency with the stability and consistency 
of purpose that is needed to achieve the ambitious goals that 
we have set for our space program, and this hearing is an 
important step in that direction. And once again I would like 
to thank our witnesses for your testimony and for your 
leadership on this important journey.
    Thank you.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Good afternoon. Thank you Chairman Cruz for calling this hearing. I 
am very pleased to be here to discuss the future of NASA. I'd also like 
to recognize and thank Ranking Member Nelson for his leadership on 
these issues.
    Being from Michigan, the epicenter of the automotive world, I can't 
help but notice some striking similarities between human space 
exploration and the automotive industry. The auto industry enjoyed a 
long period of growth and prosperity during the 1990s and early 2000s. 
Then, in 2007, what has been called the ``Great Recession'' occurred. 
At the same time, the price of fuel skyrocketed. This led to factories 
being shut down and thousands of employees being out of work. The 
outlook for the American auto industry was grim.
    But Detroit responded by doing what America does best--they 
endured, they innovated, they rose to the challenge. And with U.S. auto 
sales reaching a new high in 2015, the U.S. automotive industry is 
emerging as a great American comeback story.
    Similarly, we've seen highs and lows in the space business. We had 
the hiatus in human spaceflight after the end of the triumphant Apollo 
program. We had amazing successes in the iconic Space Shuttle program, 
but we also endured the Challenger and Columbia tragedies. We've 
constructed a football field size space station and maintained a 
continuous human presence in space for over fifteen years. But, 
following the retirement of the Space Shuttle and challenges and false 
starts in fielding a successor program, our human spaceflight program 
hit a low similar to what the auto industry experienced in 2007.
    Now, just like the American auto industry, human spaceflight is 
making a comeback in a very big way. NASA and American industry are 
working together with a common goal leading to more efficient, safer, 
and more capable systems. We must continue to innovate, find new 
efficiencies, meet our deadlines, and maintain the highest standards of 
excellence. These are the same elements that helped to bring the 
automotive industry back to where it is today, and I believe that these 
elements will continue to bring the U.S. human space exploration to a 
new high.
    Pushing out to the frontier of space inspires the next generation 
of engineers and scientists, creates technologies and scientific 
advances that make life better here on earth, and helps power the 
dynamo of American industry. The SLS and Orion programs alone engage 
thousands of suppliers and small business all over the country. I've 
spent time with several of these suppliers in Michigan, including 
Futuramic, a company that has transitioned from the auto industry to 
the space industry. Investments in space don't only help us understand 
the universe, they create jobs and drive innovation in Michigan and in 
communities across the Nation.
    A great deal of progress has been made since the NASA Authorization 
of 2010, and with the first commercial crew flights to ISS, the first 
launch of the massive SLS rocket, and the launch of the massive James 
Web Space Telescope all planned for the next two years, there are some 
huge milestones right around the corner.
    Just about anyone who was alive at the time vividly remembers 
watching the Apollo missions on TV. Achieving Kennedy's goal of putting 
a man on the moon by the end of the decade is one of the most 
significant technological accomplishments in human history.
    Since we last left the Moon nearly 45 years ago, we are now on the 
cusp of journeying once again to deep space. And we are not just going 
to cautiously dip our toes in the water and then pull back--we are 
going boldly, and we are going to stay.
    I look forward to working with my colleagues to reauthorize NASA 
and provide the agency with the stability and constancy of purpose 
needed to achieve the ambitions goals we have set for our space 
program. This hearing is an important step in that direction. I would 
like to thank our witnesses and I look forward to your testimony.

    The Chairman. Thank you, Senator Peters.
    Senator Nelson, would you care to make a brief opening?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thanks. And I want to thank you, Senator 
Cruz, for calling the hearing.
    We're going to Mars, and we're going with human beings, and 
it's going to be in the decade of the 2030s, and we're starting 
to do the things that we need to do and develop the 
technologies and systems in order to support life, to get 
there, to stay there, and to return. All of this goes back to 
when my colleague from Texas Kay Bailey Hutchison and I had the 
opportunity of bringing in for a landing, the new direction of 
NASA in the 2010 NASA Authorization.
    Recently, I visited Stennis and Michoud, and I saw that 
they're getting ready to test that new core that is being 
built, as we speak, in Michoud. We have Orion being put 
together at the Kennedy Space Center. Mind you, what they are 
putting together is the second because we've already put an 
Orion together and sent it out about 3,600 miles for a 
ballistic reentry.
    So we're going to Mars, and the rockets and the engines and 
the spacecraft that are the building blocks of that mission are 
now being assembled and getting ready to test. And you can 
imagine what the day is going to be like in 2 years, only 2 
years, when the largest, most powerful rocket ever, the Space 
Launch System, rolls out of the vehicle assembly building and 
then lifts off into that first full-up test. And so we are on 
our way.
    Now, all of that is being complemented by the fact that 
late next year we're going to start flying American rockets 
with American astronauts on them to and from the Space Station 
just like we have been flying the cargo on American rockets. 
And so this committee, which has always worked in a bipartisan 
manner and is committed to continuing the tradition that we 
work together as we advance and pass another NASA 
reauthorization. So thank all of you witnesses for being here. 
Your testimony is exceptionally important.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson. U.S. Senator from Florida
    Good afternoon, and thank you, Senator Cruz, for calling this 
hearing. I greatly appreciate our coming together to work toward a bill 
that will keep NASA moving forward in an exciting and productive 
manner.
    It's notable that July 20, one week from today, marks the 40th 
anniversary of the first landing on Mars by NASA's Viking 1. And the 
legacy of that mission, and subsequent missions to the Red Planet, is 
that we now know that Mars was once warm and wet and may very well have 
supported life. There's even evidence of flowing water at the surface 
of Mars today.
    In 2010, we passed a bipartisan NASA Authorization Act calling on 
the agency to explore beyond the Earth's orbit, with the long term goal 
of a human mission to Mars.
    I recently visited Stennis Space Center and the Michoud Assembly 
Facility on the Gulf Coast, as well as the Marshall Space Flight Center 
in Huntsville, and I can tell that progress toward that goal is real. 
We also have Orion at the Kennedy Space Center in Florida being 
prepared for its first journey beyond the moon. We are going to Mars, 
and the rockets and engines and spacecraft that are the building blocks 
of that mission are being assembled and tested right now!
    And if all continues to go well, by the end of next year, we will 
once again have American astronauts launching to space from Florida 
soil on American rockets, thanks to the partnerships NASA has forged 
with SpaceX and Boeing.
    It is truly an exciting time for our space program.
    This committee has always worked in a non-partisan manner, and I am 
pleased to be a part of continuing that tradition in this Congress as 
we work toward advancing and passing a NASA reauthorization.
    Thank you all for being here, and I look forward to your testimony.

    The Chairman. Thank you, Senator Nelson.
    I will now recognize and introduce the witnesses on the 
panel.
    We have Mr. William Gerstenmaier, who is the Associate 
Administrator for Human Exploration and Operations at NASA. A 
graduate of Purdue University and the University of Toledo, Mr. 
Gerstenmaier began his career at NASA in 1977 and has been 
integral in the strategic direction for all aspects of NASA's 
human exploration of space and cross-agency space support 
functions of space communications and space launch vehicles. He 
provides programmatic direction for the operation and 
utilization of the International Space Station, development of 
the Space Launch System and Orion spacecraft, and is providing 
strategic guidance and direction for the Commercial Crew and 
Cargo Programs that will provide logistics and crew 
transportation to the space station.
    Our next witness is Dr. Mary Lynne Dittmar, who is the 
Executive Director for the Coalition for Deep Space 
Exploration. Dr. Dittmar has spent her career specializing in 
strategy, business development, stakeholder engagement, and 
space policy and planning working with defense, aerospace, 
research, and technology firms. Dr. Dittmar previously worked 
for the Boeing Company, where she oversaw new technology 
development, managed the flight operations and space flight 
training integration groups for International Space Station 
assembly flights, and served as Chief Science and Senior 
Manager for Commercial Payloads.
    Mr. Mark Sirangelo is the Corporate Vice President of the 
Space Systems Group for the Sierra Nevada Corporation and is a 
long-time voice within the aerospace industry. Mr. Sirangelo 
has helped build and grow Sierra Nevada's product portfolio, 
including small satellites, space technologies that have 
enabled more than 450 planetary missions, such as the Mars 
Curiosity Rover and New Horizons Pluto Mission, rocket motors, 
including motors that won the Ansari X Prize, and perhaps most 
notably he is responsible for developing the Dream Chaser 
spacecraft, which is the only reusable, lifting-body, low Earth 
orbit vehicle capable of landing on commercial runways around 
the world. I would also note that Mr. Sirangelo served our 
country proudly with distinction as an officer in the United 
States Army.
    Professor Dan Dumbacher is a Professor of Engineering 
Practice at Purdue University. A graduate of Purdue University 
and the University of Alabama, Professor Dumbacher spent 35 
years with NASA prior to joining Purdue. While at NASA, 
Professor Dumbacher served as Deputy Associate Administrator in 
the Exploration Systems Development Division for Human 
Exploration, and Operations Missions Director at NASA 
Headquarters. In that capacity, he provided leadership and 
management as the Program Director for Exploration Systems 
Development, encompassing the Space Launch System, Orion, and 
ground systems development and operations development and 
integration efforts. Professor Dumbacher also served as the 
Director of the Engineering Directorate at NASA's Marshall 
Space Flight Center, which provided support to the space 
shuttle program as well as the area's launch vehicles. During 
his career at NASA, Professor Dumbacher was awarded the coveted 
Silver Snoopy Award, NASA's Distinguished Service Medal, and 
the Presidential Rank for Meritorious Service.
    And I will now recognize Senator Daines to introduce Mr. 
Michael Gold, who is a former resident of the great state of 
Montana.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    And I get to formally welcome Mr. Gold here today. Mike 
Gold grew up in Montana, and I've got to believe it was 
nighttimes and night skies in Montana seeing those stars that 
probably gave you interest in space.
    Mr. Gold. I felt like I was in space already, Senator.
    [Laughter.]
    Senator Daines. Mike is originally from Poplar. He 
graduated from high school--from Billings Senior High. So did 
my dad--``Go Broncs!'' As a young lawyer, he took his Montanan 
ingenuity and began his career representing commercial space 
clients in the early days before SpaceX.
    In 2008, Mike was appointed to the FAA's Commercial Space 
Transportation Advisory Committee, where he presently serves as 
the Chair. Now Mike is Vice President of Washington Operations 
and Business Development for Space Systems Loral, responsible 
for business development of emerging space technology.
    It's a pleasure to see a fellow Montanan be successful in 
the tech industry, and I look forward to his testimony.
    Welcome, Mr. Gold.
    Mr. Gold. Thank you, sir, and it has been terrific working 
with you and your staff. You're making me homesick.
    [Laughter.]
    The Chairman. And with that, Mr. Gerstenmaier.

             STATEMENT OF WILLIAM H. GERSTENMAIER,

          ASSOCIATE ADMINISTRATOR, HUMAN EXPLORATION 
                      AND OPERATIONS, NASA

    Mr. Gerstenmaier. Thank you very much for allowing me to 
represent the men and women of NASA here at this hearing.
    The workforce at NASA and its support base is part of the 
most talented, dedicated, innovative workforce in the world. 
Moving human presence into the solar system is not an easy 
task. If you look at the robotic success rate at Mars and the 
number of spacecraft that were lost in that endeavor, it shows 
that this is not an easy task, and it is extremely difficult.
    Mars is really the right long-term destination, as the 
Martian environment has resources that can be directly used to 
support human presence without requiring all of the resources 
to be brought from the Earth. Today, for almost 16 continuous 
years, crews have lived and worked on the International Space 
Station. Again, this is a difficult task, but in the Earth-
Reliant region, resupply is possible many times a year with 
cargo vehicles, and crew rescue can occur in a matter of hours.
    This region allows for development of long duration space 
systems. The systems can be improved and repaired in low Earth 
orbit. This region is also important to the private sector. A 
meeting with the terrestrial-based companies is occurring in 
San Diego this week, and there are 200 new companies that are 
associated with doing research in space at that event in San 
Diego. The purpose of this event is to expose the private 
sector to low Earth orbit research, enabling research off the 
Earth for the benefit of the Earth.
    The next activity in human spaceflight will occur in the 
region between the Earth and lunar orbits, called cislunar 
space, or the Proving Ground, and this is a great Proving 
Ground where crew rescue can take days and commercial companies 
can still assist in resupply. The Space Launch System and the 
Orion systems are designed to enable deep space travel, and the 
Proving Ground enables testing and verification of these 
systems for their ultimate role in moving human presence into 
the solar system. Operating in the cislunar space enables 
significant lunar activities if desired.
    Moving human presence into deep space and breaking the ties 
with Earth requires three basic capabilities: transportation, 
staying healthy, and working in space. The current activities 
at NASA support these capabilities through a variety of 
projects and programs: the Space Launch System, Orion, the 
Asteroid Redirect Mission, Electric Propulsion, Laser 
Communication, the NextSTEP, Deep Space Habitation Development, 
the Human Research Program, Space Station, Ground Operations at 
Kennedy, and Commercial Crew. Future areas needing work for 
Mars will be Mars entry, descent, and landing, Mars ascent and 
return to Earth, and in situ resource generation on the surface 
of Mars.
    The agency is well positioned on this long-term mission or 
journey and is focused on executing the plan that we have laid 
out. We intend to continue earning the continued support of the 
administration and congresses for this plan.
    The progress to date is nothing short of amazing. While a 
number of Government Accountability Office and Office of 
Inspector General findings have highlighted areas for concern, 
the good news is none of these findings are things that the 
programs were not already working on. They are the normal 
activities that occur as part of development. You know, space 
flight systems development is difficult and demanding, but we 
are overcoming the challenges. Around the U.S. and the world as 
we speak, real hardware is being fabricated and assembled, test 
facilities are being utilized, and people are working together 
to expand human presence into the solar system.
    Manufacturing and development of this magnitude involves a 
large variety of contractors, partners, and small businesses. 
There are substantive strides on this Journey to Mars. NASA is 
positioned for a vibrant future, and we continue to lead the 
world in space through a balanced program of exploration, 
science, technology, and aeronautics research. We look forward 
to your continued support for these activities by working 
together and by not overly specifying requirements.
    If President Kennedy would have challenged NASA with the 
specific requirements commonly levied today, there would have 
been no lunar landing. President Kennedy did not specify the 
type of rocket or the orbit maneuver planned. He simply stated, 
send a man to the Moon and return him safely to the Earth by 
the end of the decade. He simply stated the requirements that 
mattered to the administration and let the technical experts 
work out the details.
    The technical experts had the authority within these 
requirements to change the plan as needed to accomplish the 
goal. The technical experts started with a plan for a direct 
lunar landing without needing a risky rendezvous in lunar 
orbit, but this approach required a huge rocket development. 
The teams had the flexibility to change to a lunar orbit 
rendezvous that lowered the requirements for rocket development 
and allowed us to reach the Moon.
    Specifying the right level of requirements and allowing for 
technical changes are critical to successful execution of the 
ultimate goal. Moving human presence into the solar system over 
the next several decades will take the best efforts of all 
involved. Your past support is appreciated, and your future 
support is absolutely needed. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]

Prepared Statement of William H. Gerstenmaier, Associate Administrator, 
   Human Exploration and Operations, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
this opportunity to discuss NASA's human space exploration efforts, 
which will expand humanity's presence in the solar system in an 
evolving sequence.
    Our human space exploration efforts are part of a balanced 
portfolio of programs being undertaken by the Agency that enable the 
U.S. to be the world leader in aerospace research, development, and 
exploration. We are planning for significantly accelerated Aeronautics 
Research that will support a vigorous flight demonstration program to 
validate technologies to dramatically improve the aircraft of the 
future. In Science, the Juno Spacecraft entered Jovian orbit just last 
week. Starting in late 2016, the Cassini spacecraft will begin its 
dramatic ``Grand Finale'' orbits of Saturn. The Solar Probe Plus (SPP), 
Transiting Exoplanet Survey Satellite (TESS), the Interior Exploration 
using Seismic Investigations Geodesy and Heat Transport (InSight) 
mission to Mars, and the James Webb Space Telescope (JWST) are all on 
track to launch over the next two years, and a new Mars rover is in 
development for a 2020 launch on its way to join the spectacular 
Curiosity rover now exploring the planet; InSight and Mars 2020 will 
join the five NASA-led missions already at Mars. NASA's Earth Science 
missions continue to advance our knowledge of how our home planet 
functions as a system. In the area of Space Technology, we are 
conducting rapid development and incorporation of transformative space 
technologies, such as solar electric propulsion and optical 
communication, to enable NASA's future missions and address aerospace 
industry challenges.
    NASA's Journey to Mars is guided by the strategic direction this 
Committee incorporated into the NASA Authorization Act of 2010. The 
Agency is well positioned to continue on this long-term mission, and we 
look forward to maintaining this constancy of purpose by earning the 
continued support of future Administrations and Congresses. Beginning 
with the Earth-Reliant phase in low Earth orbit (LEO) aboard the 
International Space Station (ISS), we will then move into the Proving-
Ground phase deeper into cislunar space around the Moon with the Orion 
crew vehicle and Space Launch System (SLS) heavy-lift rocket (as well 
as the ground systems that support them), and future deep-space 
habitation capability. Once we have developed the required technologies 
and practiced the techniques necessary in these environments, we will 
move on into the Earth-Independent phase, in which we will send our 
crews on missions of exploration to visit a multi-ton asteroid boulder 
we have brought to cislunar space and then into deep space, and on to 
Mars in the 2030s. NASA, in cooperation with its industry and 
international partners, has made significant progress in pushing the 
boundaries of human spaceflight, and we appreciate the Committee's 
support of our efforts. The challenges associated with the Journey to 
Mars will require continued contributions from all parties and require 
us to work together.
ISS and Commercial Transportation: Research and Economic Development in 
        LEO
    The ISS supports research across a diverse array of disciplines, 
including high-energy particle physics, Earth remote sensing and 
geophysics, molecular and cellular biotechnology, human physiology 
(including bone and muscle research), radiation, plant propagation and 
cultivation, combustion, fluids, materials science, and biology. In 
addition, the ISS is an invaluable platform for research and 
development for next-generation technologies, not only in areas 
directly related to NASA's exploration efforts, but also in fields that 
have numerous terrestrial and commercial LEO applications. As of May of 
this year, the estimated number of investigations conducted aboard ISS 
was 2,184 (this includes 103 new investigations in Expeditions 47/48), 
with over 800 investigators represented, and over 1,200 publications of 
scientific results. Through Expedition 42, over 90 countries and areas 
had participated in ISS research and education activities.
    The ISS--which has been home to a continuous human presence on 
orbit for almost 16 years--is humanity's only long-duration flight 
analog for future human deep-space missions. The ISS is vital to NASA's 
mission to extend human presence into the solar system. In order to 
prepare for human expeditions into deep space, we must first use the 
unique environment of ISS to conduct the research and technology 
demonstrations necessary to keep our crews safe and productive on long-
duration spaceflights. NASA is planning to dedicate the equivalent of 
four research racks on ISS to test exploration-class environmental and 
life support hardware needed for deep space missions. NASA's Human 
Research Program continues to develop biomedical science, technologies, 
countermeasures, diagnostics, and design tools to keep crews safe and 
productive on long-duration space missions. The progress in science and 
technology driven by this research could have broad impacts on Earth as 
it advances our ability to support long-duration human exploration.
    This past March, NASA astronaut Scott Kelly and cosmonaut Mikhail 
Kornienko returned from their year in space aboard ISS. They conducted 
investigations in areas known to be important to safe and productive 
long-duration spaceflight, including: functional behavioral health, 
visual impairment, metabolic and nutritional health, physical 
performance, microbiology, and human factors. Researchers expect data 
from the mission to inform our understanding of biomedical, 
performance, and behavioral changes and challenges astronauts will face 
when they embark on longer-duration missions. Data from the expedition 
will be used to find ways to further reduce the risks on all long-
duration deep space missions.
    Under the auspices of the ISS National Laboratory, managed by the 
Center for the Advancement of Science In Space (CASIS), NASA is 
encouraging broader use of the ISS by non-traditional companies and 
other Government agencies. Use of the ISS as a National Laboratory has 
increased significantly since FY 2012, which was the first full year of 
operations by CASIS, and users include the commercial sector, other 
Government agencies, and academic institutions. The ISS National 
Laboratory has reached full capacity for allocated crew time for 
research and will help establish and test the market for research and 
technology development in LEO beyond the needs of NASA.
    Under the Commercial Resupply Services (CRS) contracts our two 
commercial cargo partners, Space Exploration Technologies (SpaceX) and 
Orbital ATK, have demonstrated not only the ability to provide cargo 
deliveries to ISS, but also the flexibility to recover effectively from 
mishaps. Both companies have worked closely with NASA to understand the 
anomalies they experienced over the last two years. In developing the 
launch vehicles for their cargo spacecraft, SpaceX and Orbital ATK have 
also helped to bring a significant portion of the commercial satellite 
launch market back to the U.S., and helped to significantly lower 
launch costs. This January, through CRS-2, NASA contracted with SpaceX, 
Orbital ATK, and Sierra Nevada Corporation to ensure that critical 
science, research, and technology demonstrations will be delivered to 
the ISS from 2019 through 2024.
    Our commercial crew partners, SpaceX and the Boeing Company, are 
developing the Crew Dragon and CST-100 Starliner spacecraft, 
respectively. The work, being done under two Federal Acquisition 
Regulation (FAR)-based, fixed-price Commercial Crew Transportation 
Capability (CCtCap) contracts, is currently expected to result in 
flight certification for SpaceX in 2017, and for Boeing in 2018. In 
2015, NASA ordered the initial post-certification missions, and in 
2016, milestone completion and work are progressing well. U.S. 
commercial crew capabilities will enable the Station crew to be 
expanded from six to seven astronauts and cosmonauts, resulting in a 
doubling of on-orbit research time to almost 80 hours per week. This is 
because the additional work time equivalent of the seventh crew member 
will be dedicated almost exclusively to conducting experiments, rather 
than on Station operations and maintenance.
    As you know, NASA plans to continue ISS operations and utilization 
through at least 2024. The Agency expects to support continued research 
needs in LEO after the end of the ISS program. The Agency will work 
with industry, academia, and other government agencies through 
consortia and other means to establish long-term LEO demand investment 
and research/technology development. Encouraging the emergence of 
economic activity in LEO has significant implications--and offers 
significant opportunities--for the Nation. Enabling the effective use 
of this unique environment will call upon expertise resident across the 
U.S. Government in areas including commerce, science, and 
transportation. NASA and other relevant agencies are working in a 
unified manner towards the important National objective of realizing 
the economic potential of this new frontier.
Orion and SLS: Traveling Beyond LEO
    As we extend further into cislunar space, from LEO out into the 
Proving Ground, we will employ new deep space exploration systems, 
comprising the heavy-lift SLS, Orion crew vehicle, the Exploration 
Ground Systems (EGS) that support them, new deep space habitation 
capabilities and new commercial and international partnership 
opportunities. We also have proposed increased investment in 
exploration research and development and space technologies, which are 
critical for making future missions safer, more reliable, and more 
affordable.
    NASA's initial deep-space mission, Exploration Mission-1 (EM-1), is 
on track to launch to a distant retrograde orbit in the Proving Ground 
around the Moon in 2018. The three-week flight without crew will 
provide the program with data to validate spacecraft design and 
operations. In 2015, the Agency baselined the Orion program plan, 
establishing an Agency baseline commitment for Orion that supports a 
launch readiness date for the first crewed flight on EM-2 no later than 
2023. Current planning continues to support an EM-2 launch in 2021. In 
the initial phase of our Proving Ground operations, NASA will use this 
region of space to test and demonstrate flight and mission operations 
and staging of human-rated vehicles farther from Earth than ever 
before. These crewed Orion missions launched on the SLS in the 2020s 
will establish our capability to operate safely and productively in 
deep space.
    Orion, SLS, and EGS provide the foundational components critical to 
human spaceflight beyond LEO, and the vehicles are being designed to 
enable multiple deep space missions and destinations rather than being 
optimized for one particular mission or architecture. The Orion 
spacecraft includes both a Crew Module and Service Module designed 
specifically for the rigors of missions far from Earth and outside 
Earth's protective radiation belts, and a Launch Abort System. Orion 
alone can support a crew of up to four, with enough internal stowage 
for 21 days of food, water and air, and its systems are designed to 
operate for over a year if necessary. The SLS is a heavy-lift, 
exploration-class launch vehicle that will transport Orion, as well as 
cargo and other systems, with a range of lift capabilities from 70 
metric tons to LEO, evolving to up to 130 metric tons. Studies have 
shown the benefit of such a large, single-flight lift capability. EGS 
launch infrastructure design, development, and refurbishment at Kennedy 
Space Center (KSC) will support SLS and Orion.
    Subsequent missions in the Proving Ground will target challenges 
and strategic knowledge gaps while helping develop the core 
capabilities necessary to expand human activity farther into deep 
space. NASA is planning an early SLS and Orion mission to rendezvous 
with a multi-ton asteroid boulder that will be stationed in lunar orbit 
using a demonstration of advanced solar-electric propulsion. In this 
mission, our astronauts will use deep-space Extravehicular Activity 
(EVA) technologies to select, extract, and contain samples from the 
multi-ton primordial planetary mass. This Asteroid Redirect Mission 
(ARM) also provides demonstration of a deflection technique called the 
enhanced gravity tractor that could be used on potentially hazardous 
asteroids and help us assess the potential for asteroid resource 
utilization for both exploration and commercial purposes. In addition, 
ARM provides a demonstration of advanced solar-electric propulsion to 
move multi-ton masses, advanced autonomous rendezvous and proximity 
operations at a microgravity planetary body, complex crew operations in 
the Proving Ground of lunar orbit, and a power/propulsion bus asset in 
cislunar space that may be used after this mission. ARM is developing 
technologies and capabilities necessary for deep space exploration by 
crews. Moving large objects such as a boulder presents essentially the 
same technical challenges as moving large cargo vehicles to support 
long-duration deep space crewed missions.
    The NASA-Industry teams building SLS and Orion have made tremendous 
progress over the last year in building and testing vehicle components. 
For SLS, core stage production is accelerating at the Michoud Assembly 
Facility (MAF) in Louisiana. After a delay to correct a structural 
alignment issue with the weld tool, the largest friction stir weld 
machine of its kind in the world, the Vertical Assembly Center is now 
operational and has completed production of the qualification article 
for the 131-foot-tall liquid hydrogen core stage tank and the first 
flight article engine section. The giant structural test stands at the 
Marshall Space Flight Center in Alabama and the B-2 core stage test 
stand at the Stennis Space Center in Mississippi are nearing 
completion. In June, SLS conducted the final qualification test of the 
five-segment solid rocket motor, and while the results are still being 
analyzed, the early indications are that the booster passed this 
critical test. The first three EM-1 booster motor segments have been 
cast and production of the remaining flight motors continues on 
schedule at the Promontory facility in Utah. Core stage engine testing 
has continued its success with the first test of a flight engine, and 
the next engine test series will begin later this month.
    For Orion, the EM-1 flight article has entered the assembly phase. 
The Crew Module primary structure, which is the pressure vessel to hold 
the crew's atmosphere against the vacuum of space, is at KSC undergoing 
outfitting and integration after having completed pressure testing. The 
European Service Module primary structure is undergoing outfitting in 
Bremen, Germany. The Service Module, which provides propulsion, power, 
and life support to the Crew Module, is being provided for EM-1 through 
a partnership agreement with the European Space Agency (ESA). In March 
2016, NASA exercised an option for ESA to provide the Service Module 
for EM-2. ESA recently completed the Critical Design Review (CDR) for 
the Service Module. While the NASA and ESA teams continue to assess a 
three-month delay in delivery of the EM-1 Service Module to KSC, the 
CDR board confirmed that the Service Module design is cleared for 
manufacturing, and the teams continue to hold for an EM-1 launch in 
2018. In addition to the EM-1 flight article, Orion is also conducting 
extensive ground testing to demonstrate the systems for deep space. 
Software testing is underway in the Integrated Test Lab in Denver. A 
dedicated Crew Module structural test article is undergoing 
manufacturing at MAF. Meanwhile, the European-built Service Module 
structural test article is undergoing acoustic, vibration, solar array 
deployment, and thermal tests at Plum Brook Station in Ohio. Water 
landing tests are underway at NASA Langley Research Center in Virginia, 
and parachute qualification testing is starting in Arizona. Between the 
EM-1 flight article assembly and the thorough ground test campaign, 
Orion is progressing methodically toward the first crewed flight on EM-
2.
    In Exploration Ground Systems, four of the ten giant platforms in 
High Bay 3 of the Vehicle Assembly Building have been installed, and 
the remaining platforms continue to arrive at KSC. Mobile Launcher 
structural modifications are complete and outfitting is underway, while 
modifications to the Crawler Transporter are nearly complete. The 
umbilical systems used to interface the Mobile Launcher with SLS and 
Orion are also being tested at KSC. Software development and 
integration continues to be a major focus for all the programs and the 
exploration enterprise, and the successful validation of Spacecraft 
Command and Control Software version 3.4 is a major milestone in this 
effort.
    Orion, SLS, and EGS teams are using the latest in systems and 
manufacturing technology with the intent of developing a safe system 
capable of extending human presence to cislunar space and to Mars. For 
example, the Orion team is using time-triggered Ethernet and is taking 
advantage of the standards for this technology that are used in the 
automotive industry. Both Orion and SLS are utilizing friction-stir 
welding (including on large structures, such as the SLS core stage), 
with the largest friction-stir weld machine in the world. The EGS team 
has stripped out the old copper cables from Pad 39B and replaced them 
with the latest in fiber optics. Orion and SLS plans take advantage of 
advances in additive manufacturing, or ``3D printing.'' For example, 
Orion is using this technology to reduce testing costs by printing test 
versions of flight hardware for use at the Integrated Test Lab in 
Denver, while SLS is assessing the use of 3D printed parts in future 
RD-25 engine production. These are just some examples of how NASA's 
Exploration Systems are utilizing and advancing the latest in 
technology.
    In developing the Orion, SLS, and EGS, NASA is working toward 
building a sustainable national capability for the long-term human 
exploration and pioneering of space. Necessary to this is working to 
ensure that post-development operating costs will be affordable, and 
making the necessary investments in technology and other development 
efforts that will be fundamental for extending human presence to Mars. 
NASA is keeping each element of the program--Orion, SLS, and EGS--
moving at its best possible speed toward the first integrated launch, 
optimizing each element effort's schedule while being aware of the 
overall plan. This is best achieved when each element is allowed to 
progress on its own schedule, rather than being linked too tightly to 
the others. When tasks related to EM-1 are completed, the workforce can 
progress to EM-2. NASA is on a solid path toward an integrated mission 
and making progress in all three programs every day. With the EM-1 
flight just over two years away, and with flight hardware for the 
mission arriving in about one year, there is real sense of flight 
preparation cadence building.
Preparing for Mars: Deep Space Habitation Capability and New 
        Technologies
    Among the additional capabilities needed for human exploration is 
long-duration habitation. Validation of this capability in cislunar 
space will mark our readiness to begin Earth-Independent exploration 
beyond the Earth-Moon system. An effective habitation capability is 
comprised of a pressurized volume, and an integrated array of complex 
systems and components that include a docking capability, environmental 
control and life support systems, logistics management, radiation 
mitigation and monitoring, fire safety technologies, and crew health 
capabilities. NASA's current strategy is to test these systems and 
components on the ground and in LEO on ISS, then as an integrated 
habitation capability for long-duration missions in cislunar space and 
Mars transit. NASA plans to conduct a long-duration (one-year-plus) 
mission in cislunar space by the end of the 2020s; this will be 
critical preparation for crewed missions to Mars. NASA will utilize 
public-private partnerships to the extent possible for these 
activities.
    One example of habitation technology being tested on ISS is the 
Bigelow Expandable Activity Module (BEAM), which was launched to ISS on 
the commercial SpaceX Dragon spacecraft on April 8, 2016, installed on 
April 16, and expanded on May 28. BEAM will undergo a two-year 
demonstration period, during which Station crew members and ground-
based engineers will gather performance data on the module. While the 
BEAM demonstration supports a NASA objective to evaluate design options 
for the development of a long-duration, deep space habitat for human 
missions beyond Earth orbit, the results of the demonstration will also 
have applications to private space stations/habitats, which is why 
Bigelow has co-funded the development of this module.
    NASA has been undertaking substantial private-sector and 
international engagement to define habitation concepts, systems, and 
implementation approaches to cost-effectively achieve NASA's goals for 
deep space and enable progress towards LEO commercial space station 
capabilities. The Agency's Next Space Technologies for Exploration 
Partnerships (NextSTEP) Broad Agency Announcement (BAA) is an effort to 
stimulate deep-space capability development across the aerospace 
industry. NASA issued the original NextSTEP BAA to U.S. industry in 
late 2014. In March 2015, NASA selected 12 awardees--seven in 
habitation, three in propulsion, and two in small satellites. NASA has 
since entered into fixed-price contracts with the selectees. During 
this same timeframe, NASA has also been conducting architecture studies 
with our international partners to define the potential areas of 
contribution from other space agencies, continuing to build on the 
successes of ISS in exploration.
    In April 2016, NASA issued a NextSTEP-2 BAA, an omnibus 
announcement covering all aspects of basic and applied supporting 
research and technology for human space exploration and robotic 
precursor activities. The April release of the NextSTEP-2 BAA included 
Appendix A: Habitat Systems, which is focused on developing long-
duration, deep space habitation concepts, resulting in ground prototype 
units. This ground-based effort will support development of deep space 
long-duration habitation concepts and demonstrate systems that NASA 
will later need to test in the microgravity environment of space. The 
objective is to identify habitation concepts that can support extensive 
human spaceflight missions in the Proving Ground and beyond while 
encouraging application to commercial LEO habitation capabilities. One 
goal of this public-private approach is to enable the United States to 
develop the deep space habitation capability at a lower cost than 
through a cost-plus procurement approach. The Agency plans to select 
multiple proposals under NextSTEP-2, Appendix A, in the near future, 
with an estimated period of performance to begin in September 2016 and 
extend out to about April 2018. NASA intends to integrate functional 
systems into a prototype habitat for ground testing in 2018.
    Our missions into deep space will require the development of an 
array of new technologies in a variety of areas, including advanced, 
high-thrust, in-space propulsion, environmental control and life 
support systems, in situ resource utilization (ISRU), and 
communications. NASA is working to develop and demonstrate highly 
efficient solar electric propulsion through ARM. The same spacecraft 
``bus,'' and extensions of it, could be used in the future to transport 
large masses of systems and cargo to the vicinity of Mars in advance of 
the crewed expedition to the planet. Advances in ISRU will one day 
allow exploration crews to utilize space resources to manufacture fuel 
and oxidizers for propulsion systems, provide water for human 
consumption, produce materials for additional radiation shielding, and 
even serve as the building blocks for additive manufacturing. The Mars 
Oxygen ISRU Experiment (MOXIE), which will fly on Mars 2020, will 
verify that ISRU technologies can produce oxygen from the atmosphere of 
Mars to supply both human breathing needs as well as propellant 
oxidizer for Mars ascent vehicles. Optical (i.e., laser-based) 
communication will enable the transfer of data from distant missions 
back to Earth at much higher rates than are attainable using current 
radio-frequency communications systems. The Agency is also testing on-
board systems to keep crews safe, including fire detection, 
suppression, and cleanup technologies. In order to better understand 
fire in space, in June 2016, NASA conducted the Spacecraft Fire 
Experiment (Saffire-1), which intentionally lit a large-scale fire 
inside an empty Cygnus cargo vehicle after it left the Station, but 
before re-entering Earth's atmosphere. Instruments and cameras measured 
flame growth, oxygen use, heat generated, and more, improving 
understanding of fire growth in microgravity and safeguarding future 
space missions.
Ensuring Astronaut Health
    The spaceflight environment includes hazards and stressors that are 
unique and whose effects on humans are not always well understood, due 
largely to the limited data set generated during the relatively short 
time that humans have been flying extended missions in space. NASA has 
presented a legislative proposal to Congress that would allow the 
Agency to perform enhanced annual medical monitoring and provide 
diagnosis and treatment for former astronauts for medical conditions 
which are deemed to be associated with human spaceflight. The 
comprehensive preventive screening would enable NASA to minimize 
catastrophic issues through early detection and the additional data 
acquired would enable NASA to better understand the risks of 
spaceflight, minimize these risks, and enable future long-duration 
missions to Mars and beyond. The Institute of Medicine (IOM), part of 
the National Academies of Science, Engineering and Medicine, has issued 
three reports in the last two decades, emphasizing NASA's ethical and 
moral imperative in taking care of our astronaut corps. We would 
greatly appreciate Congress' support for this important proposal.
Conclusion
    NASA's exploration strategy aims to pioneer multiple destinations 
in the solar system in an affordable and sustainable manner. In the 
2020s, we will extend our capabilities deeper into cislunar space, 
beyond our continuous presence in LEO on ISS, to begin testing deep 
space exploration systems during this Proving Ground Phase of the 
Journey to Mars. From there, we will develop a better understanding of 
the risks and mitigations of sustained deep space travel, and we will 
continue to expand human presence in the solar system and to the 
surface of Mars. We will partner with industry in this endeavor and 
leverage private sector activity to gain key insight into technologies 
such as Mars entry, descent, and landing. We will also partner with the 
private sector in addition to SLS and Orion to support activity in 
cislunar space and lower the cost of space activities, and lead an 
international community in this activity. With constancy of purpose and 
support from the Congress, we look forward to extending human presence 
into deep space over the course of the next decade.
    The Agency is well positioned to continue on its long-term mission, 
and, by focusing on executing the plan we have laid out, we intend to 
continue earning the support of future Administrations and Congresses 
for this plan. The progress to date has been nothing short of amazing. 
Findings from our partners at the Government Accountability Office 
(GAO) and Office of Inspector General (OIG) have highlighted areas for 
concern and issues that we were already working to resolve. They did 
not discover any problems that we were not already working. Spaceflight 
systems development is difficult and demanding, but we are overcoming 
the challenges. Around the U.S. and the world, real hardware is being 
fabricated and assembled, test facilities are being utilized, and 
people are working together to expand human presence into the solar 
system. These are substantive strides on the Journey to Mars. NASA is 
positioned for a vibrant future, and we continue to lead the world in 
space through a balanced program of exploration, science, technology, 
and aeronautics research.
    I would be happy to respond to any questions you or the other 
Members of the Subcommittee may have.

    The Chairman. Thank you, Mr. Gerstenmaier.
    Dr. Dittmar.

   STATEMENT OF DR. MARY LYNNE DITTMAR, EXECUTIVE DIRECTOR, 
              COALITION FOR DEEP SPACE EXPLORATION

    Dr. Dittmar. Chairman Cruz, Senator Peters, and members of 
the Subcommittee, thank you for the opportunity to discuss with 
you my thoughts on U.S. leadership in space exploration.
    I would first like to say it's an honor to be asked to 
testify both before you and as a member of this august panel. 
My own background is diverse, but in my current role, I serve 
as the Executive Director of the Coalition for Deep Space 
Exploration, which is the voice of America's industry working 
on a range of human exploration and science missions.
    With more than 50 members across the Nation, we are proud 
to be a part of America's deep space programs, and we're 
grateful for the support of this committee and the Congress, 
who sustain them.
    NASA stands at the cusp of a new era of exploration in deep 
space. For the first time in human history, we are poised to 
answer some of humanity's biggest questions. Where did we come 
from? Where are we going? Are we alone? Under NASA's 
leadership, an architecture is developing that will maximize 
the use of industry, international partners, scientists, 
operations experts, entrepreneurs, engineers, and program 
managers working in collaboration to answer the big questions 
and to generate a range of other returns to the Nation.
    Despite challenges driven by budget disconnects between the 
administration and Congress, the programs underpinning this 
architecture have made tremendous progress over the last 7 
years. Like you, Senator Nelson, I was recently at Michoud, 
where the Space Launch System and the Orion-crewed spacecraft 
are being developed, and they will carry humans into deep 
space, and I was blown away. The last time I had been around so 
much hardware was in the late 1990s when I stood in a high bay 
at the Marshall Space Flight Center, which housed all at one 
time, five modules prior to launch. At Michoud, there is a 
similar excitement palpable on the factory floor, only now it's 
focused outward toward Mars. We are going somewhere.
    In a real sense, NASA's job is to plan for what is 
ultimately an optimistic vision of the future. Negotiating and 
executing programs for space exploration and science over 
decades is even more challenging than the engineering and 
technology upon which they rest. As we enter the election 
season, we are keenly aware of the potential for change. Change 
can be good, but let me state unequivocally that it's the 
position of the Coalition that major disruptions stemming from 
abrupt shifts in space policy risk derailing all of the 
progress that's been made and jeopardize our future as a 
nation.
    With regard to my membership, which is made up in large 
part by small companies, such rapid shifts result in shuttered 
offices, abandoned factory floors, and ruined firms. Yet these 
same companies are the ones most likely to generate new 
inventions, drive most job creation in the United States, and 
exemplify the enterprising spirit that powers our economy and 
our Nation.
    NASA's SLS and Orion programs alone have sustained hundreds 
of companies in this sector, enabling innovation, new 
technology, new production methods, and the achievement of 
entrepreneurial dreams. In return, these companies have 
provided critical components needed to lead the way back to 
deep space. Constancy of purpose is critical.
    In my written testimony, I detailed the critical roles 
played by various components of NASA's architecture, beginning 
with the ISS as a hub of commercial development, and, 
importantly, as an indispensable facility for the development 
and testing of deep space exploration systems.
    With regard to deep space systems, the long awaited moment 
when our solar system is reopened to human exploration and 
development is approaching and will become real in a little 
more than 2 years with the first integrated flight of Orion and 
SLS. In 2021, NASA will return American astronauts to deep 
space.
    These initial flights will open up a new era as NASA and 
its industry and international partners begin assembling a true 
deep space infrastructure, leading to new possibilities in 
human exploration and science. Like the generations of 
explorers before us, we will learn as we go. Eventually, once 
we've developed sufficient skills and validated the systems, 
we'll push deeper into space to Mars.
    NASA's diverse portfolio represents consensus and 
compromise among many stakeholders. It has been painstakingly 
developed on a bilateral, bicameral basis across 2005, 2008, 
and the 2010 NASA Authorization Acts. Looking back across a 
decade characterized by transition, progress, and opportunity, 
it is evident that this course has been a wise, measured, and 
effective one. In my written testimony, I offered some 
suggestions regarding essential elements I believe should be 
addressed for our continued progress.
    I wish to thank the Congress and this committee for your 
commitment to SLS, the Orion-crewed exploration spacecraft, ISS 
crew and cargo transportation, the James Webb Space Telescope, 
the start of deep space habitat development, as well as ongoing 
operations of the ISS and the recent triumphs of science 
missions, such as New Horizons and Juno. I encourage you to 
review the Coalition's recent paper, ``A Space Exploration 
Roadmap for the Next Administration,'' which I respectfully 
submit for the record.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Dittmar follows:]

   Prepared Statement of Dr. Mary Lynne Dittmar, Executive Director, 
                  Coalition for Deep Space Exploration
    Chairman Cruz, Senator Peters, and Members of the Committee, thank 
you for the opportunity to discuss with you my thoughts on U.S. 
leadership in space exploration. Our daily lives are inextricably 
interwoven with space-based assets, including GPS, communications, 
systems for weather monitoring and prediction, and intelligence and 
defense. Beyond these applications, our national human spaceflight and 
space science programs directed by NASA and executed in partnership 
with industry provide opportunities for discovery, scientific 
advancement, geopolitical influence, emerging technology, space 
commerce, and education. In addition, NASA stands at the cusp of a new 
era of exploration in deep space. For the first time in human history, 
we are poised to answer some of humanity's biggest questions: ``Where 
did we come from?'' ``Where are we going?'' ``Are we alone?''
    This hearing is entitled ``NASA At the Crossroads.'' I think of it 
as ``NASA In Transition''--or actually, transitions. By this I do not 
mean the upcoming Presidential and Congressional transitions--to which 
I will return--but first, a transition that is reflective of the 
constant change that is all around us--in technology, manufacturing, 
business models, science, and regional interests, and the global shifts 
in governance, geopolitical dynamics, the exercise of power, and 
changes in international economic strength. NASA's space exploration 
programs have been impacted by or have impacted every one of these 
global factors. Against this changing backdrop NASA must plan for what 
is, ultimately, an optimistic vision of the future. A disruption in 
programs stemming from abrupt change in space policy derails this 
process and jeopardizes that future. Our national destiny and our 
ability to guide it rests on decisions made yesterday, today and 
tomorrow to sustain and advance a flexible and multifaceted exploration 
architecture--such as the one currently being put into place--that will 
assure U.S. leadership in space over the decades ahead.
    I am pleased to share these perspectives in my capacity as 
Executive Director of the Coalition for Deep Space Exploration, which 
is the ``voice'' of America's industry working on a range of human 
exploration and space science missions. The Coalition represents nearly 
50 large and small businesses building these deep space capabilities. I 
also bring the perspective of a small business owner and entrepreneur, 
a former human spaceflight operations manager for the International 
Space Station (ISS) Program (Boeing, a member of the Human Spaceflight 
Committee at the National Research Council, and a current member of the 
Executive Committee, Space Studies Board of the National Academies of 
Sciences, Engineering and Medicine.
The International Space Station
    America's architecture in deep space begins near the Earth, in Low 
Earth Orbit (LEO), where a second transition is taking place. Across 50 
years of government investment in space exploration and science, and in 
collaboration with industry partners, NASA has matured technologies, 
techniques and capabilities that are being transitioned to the private 
sector. New transportation systems dedicated to shuttling cargo to the 
ISS have come on line. Crewed flights will begin in 2017-2018. The 
transition of space transportation services to industry, under a NASA 
program where industry partners have benefited from government 
development funding and technical support, coupled with the 
availability of the ISS as a research and development platform, has 
attracted investors interested in establishing commercial enterprises 
in LEO. The growth of these entrepreneurial interests is laying the 
groundwork for finally expanding the sphere of human economic activity 
off the Earth, into LEO. As this happens, NASA can turn its attention 
more fully to deep space exploration.
    Here, too, the ISS plays a crucial role. In addition to its 
facilitation of science, international collaboration, and commercial 
activity, the ISS is a mission-critical technology and engineering test 
bed for deep space systems--for example, the development of a next-
generation Environmental Control and Life Support System (ECLSS) needed 
for deep space habitats. It is also a living laboratory for studying 
how human beings live, work, thrive and survive in space. Ensuring the 
fullest utilization possible of the ISS through 2024, with continued 
study of the feasibility of extension beyond that time, is of paramount 
importance.
Deep Space Exploration
    Since the end of the Shuttle program, NASA human spaceflight has 
been in yet another transition--from two operational programs (Shuttle 
and ISS) to one of long-duration operations on the ISS and another 
engaged in development of deep space exploration systems and the ground 
infrastructure needed to support them. Though tremendous activity is 
ongoing, development programs lack the visceral or visual punch of 
Shuttle launches. Virtually all of the planning and development 
activity is under the radar, invisible to the public--and to policy 
makers--until major milestones are reached, such as the successful 
Exploration Flight Test (EFT-1) of the Orion spacecraft in December of 
2014 and the final test of the five-segment Space Launch System (SLS) 
boosters last month. On behalf of the companies that I represent here 
today, I wish to thank the Congress and this committee for your 
sustained commitment to development of the SLS super-heavy rocket, the 
Orion crewed exploration spacecraft, ISS crew and cargo transportation, 
the James Webb Space Telescope (JWST), the start of the deep space 
habitat development, as well as the ongoing operations of the ISS and 
the recent triumphs of science missions such as New Horizons (Pluto) 
and Juno (Jupiter). Such support takes foresight and patience, and I 
believe the American people will soon begin to see the full range of 
benefits and tremendous impact of these investments in our future in 
deep space.
    Looking ahead, we see a continuing need for constancy of purpose, 
vision, and commitment to pursue steady progress toward America's 
future in deep space across all of the transitions NASA faces. The 
long-awaited moment when our solar system is re-opened to human 
exploration and development will become real in a little more than two 
years as the first integrated test flight of Orion and SLS, Exploration 
Mission 1 (EM-1), lifts off in 2018. In 2021, NASA will return American 
astronauts to deep space as they travel in Orion, powered by the mighty 
SLS with an Exploration Upper Stage, past the Moon and farther into 
space than any human being has gone before. These initial flights will 
open a new era as NASA and its industry partners begin assembling a 
true deep space infrastructure, with habitats enabling crewed missions 
in the lunar vicinity, and the development of long distance cargo 
carriers powered by solar electric propulsion (SEP). Transit of cargo 
and people between the Earth and cislunar space will commence, inviting 
participation from current and new international partners and enabling 
commercial interests in deep space as new capabilities come on line. 
Eventually, once we have developed sufficient skills and validated our 
systems, procedures, operations concepts, and technologies, we will 
push deeper into space, to Mars.
    SLS and Orion are being built for decades of use, not just a 
mission or two. The Orion crew vehicle is capable of sustaining 
astronauts for up to 1,000 days--a mission to Mars--provided sufficient 
consumables are available. In addition, there are powerful reasons for 
the use the super-heavy lift SLS for exploration missions. Future Mars 
landings, for example, require at least the equivalent mass of the ISS 
launched from Earth. Assuming NASA is able to incorporate new 
technologies such as 3D printing and technical approaches to reduce 
propellant boil off during transit, this mission would require 6 to 7 
SLS vehicles with 130 metric ton lift capability. In contrast, 
considering only the mass requirements, it would take up to 30 launches 
of smaller, commercially available rockets to conduct a similar 
mission. The cumulative risk of mission failure from that many launches 
compared to the number of SLS launches is significantly increased, 
assuming similar launch probabilities Simply put, the more launches, 
the higher the overall probability of failure. In the case where the 
mission is dependent upon the order in which launches occur--as in an 
assembly sequence--the problem is amplified; failures early in a launch 
sequence may disrupt the rest of the sequence until a workaround can be 
found or a replacement payload developed. As a result of these factors 
and others, the SLS--and the Orion crew vehicle--are key enablers for 
America's deep space future.
    As EM-1 draws near, the opportunities for human exploration and 
planetary science mission that these systems will make possible are 
inspiring the imagination and interests of governments, industry, and 
the public. There is talk of international lunar science missions, 
lunar surface operations, concept development of a Mars base camp in 
orbit, plans for joint science and exploration missions, and proposals 
for new technologies to enable humans to explore Mars sooner rather 
than later. Planetary missions, harnessing the unparalleled capability 
of SLS to cut travel time to outer planets in half, such as the Europa 
mission, are on the drawing boards. Human missions, making use of the 
capabilities of the Orion crewed vehicle to carry crewmembers to 
multiple destinations in the solar system, provide tremendous 
flexibility over the next 20 years. As we lift our gaze beyond the ISS 
into deep space--to the Moon, to asteroids, and to Mars, to planetary 
science missions and deep space telescopes that will not only see all 
the way back to the Big Bang, but tell us for the first time in human 
history whether we are alone on the Universe -the realization of these 
opportunities and more that we cannot yet imagine has never been closer 
than it is right now.
Political Transition: Preserving the Industrial Base
    In my current position, I represent a segment of the U.S. 
industrial base focused on aerospace, with members that range from 
large scale systems engineering and development companies with decades 
of in-space experience--such as our founding members Lockheed Martin, 
Boeing, Orbital ATK, Aerojet Rocketdyne, and Northrop Grumman--to 
entrepreneurial startups such as Made In Space, currently testing the 
potential for using 3D printing in space missions onboard the 
International Space Station. Our members also include Jacobs 
Technology, an experienced aerospace company supporting upgrades to the 
launch and processing capabilities at the Kennedy Space Center; Axiom 
Space, a commercial space company focused on orbital habitats; Cain 
Tubular Products, a very small, family-owned company with a 50 year 
heritage in the space program, and Futuramic, a Detroit company that 
retooled and rebuilt itself after auto manufacturing left that city 
into an engineering and manufacturing firm that contributes 
substantially to NASA's deep space programs.
    Our membership is rich with capabilities, innovation, technologies, 
and dedication to programs that they see as the ``the tip of the 
spear'' of United States achievement and leadership in the 21st century 
and beyond. The U.S. space industrial base is key to enabling our 
national security, civil, and commercial space programs, with skill 
sets that overlap all three of these domains. The supply chain for 
human space exploration alone--SLS, Orion, and Exploration Ground 
Systems--is distributed across all 50 states and is made up of hundreds 
of companies, ranging from large contractors with thousands of 
employees to hundreds of small, privately owned businesses. This large 
and diverse industrial base ensures the kind of competition that drives 
technological innovation and ensures American competitiveness.
    Small businesses, in particular, bring technical innovation, 
creativity, expertise and rapid adoption of new approaches to the 
American deep space enterprise. Space exploration is exacting and 
technically challenging, requiring years to build workforce expertise. 
Large companies may have some flexibility to adjust to fluctuations in 
program funding; however smaller businesses often do not. As a business 
owner and entrepreneur I can attest to the vulnerability of small 
firms. It is not unusual for such businesses to have an operating 
window of only 90 to 120 days before cash flow becomes critical. Major 
changes in space policy and direction, such as happened between 2009-
2011, inevitably result in shuttered offices, empty factory floors, and 
the ruination of many businesses. Yet, with consistency of policy and 
contracts, these same firms are the ones most likely to generate new 
inventions and patents. They also represent the vast majority of new 
company startups, drive most job creation in the U.S., and exemplify 
the enterprising spirit that powers our economy and our Nation. NASA's 
SLS and Orion programs have sustained hundreds of companies in this 
sector, enabling innovation, new technology, new production methods, 
and the achievement of entrepreneurial dreams. In return, these 
companies have provided critical components needed to lead the way back 
into deep space.
The Rationale for a Government-Led Space Exploration Program
    Recently, an argument for transition from government to private 
sector programs for deep space exploration has been put forth. This is 
not a good idea. In its most common form it reduces the entire value of 
NASA's human space exploration programs to an economic equation. It 
disregards the intangible and incalculable benefits that have been 
conferred on the Nation by a government-led program: Collaboration 
between governments, the free return of scientific, engineering and 
technical data to all citizens, the establishment of a pre-eminent 
national presence in deep space (with implications for national 
security), preservation of the aerospace industrial base, and national 
aspiration and pride stemming from collective, extraordinary 
achievements. It is true that these benefits are impossible to assess 
by economic means. But the counterargument is too narrow in scope, 
focused on the cost of a launch vehicle, the cost of a crew capsule, 
the cost of operations, and the cost of a mission. In a time of 
downward pressures on discretionary accounts, cost is certainly an 
important factor. But it is clear that a robust human space exploration 
and science program has returned benefits to the Nation that go far 
beyond a simple cost equation or Return on Investment (ROI) 
calculation.
    It may be worth pointing out that none of the opportunities before 
us now--in LEO or in deep space--would have been possible without 
government programs in human exploration and science over the past 
decades. To continue building upon the progress we have made, the 
bilateral, bicameral support that has characterized these programs must 
continue. To those who would ask, ``what has the money bought us?'', we 
can answer: America is the only nation on Earth to have visited every 
planet in our solar system. America is the only nation on Earth that 
has leveraged 50 years of investment in human space exploration into 
the private sector, where it has disrupted industries and opened the 
door to entrepreneurial interests in space. America is the only nation 
on Earth striving as a matter of policy to expand the sphere of human 
economic influence beyond the Earth. America is the only nation on 
Earth bold enough to envision and then build a deep space 
transportation and infrastructure system for the solar system. America 
is the only nation that has successfully led an international coalition 
to build and operate a multi-decade space station. And soon, America 
will be the only nation capable of transporting astronauts to the Moon 
and beyond.
    The Coalition I represent endorses full funding for NASA's ISS 
cargo and crew transportation services and includes members who 
participate in both. We also support government-led programs pushing 
human presence into the solar system over distances and at a scale for 
which no business case exists. This is not an ``either/or'' scenario; 
rather it is a case-in-point for the evolving roles of government and 
private industry in the American space program. The funding for SLS, 
Orion, JWST and other systems also pays for facilities, refinement of 
engineering expertise and technique, development of new technologies, 
stimulation of commerce, a rich international collaboration, and 
educational opportunities, among other core NASA functions. Our 
national space program enjoys--and must sometimes negotiate among--a 
wide range of stakeholders. NASA's challenging and diverse portfolio 
represents an attempt at consensus and compromise among those 
stakeholders that has been painstakingly developed on a bilateral, 
bicameral basis across the 2005, 2008, and 2010 NASA Authorization Acts 
in which this committee has played a significant role. Looking back 
across a decade characterized by transition, progress, and opportunity, 
it is evident that this course has been a wise, measured, and effective 
one.
Going Forward: Essential Elements
    A government-led program that opens the frontier beyond Earth for 
ourselves, our international partners, commerce, and science is crucial 
if we wish to control our national destiny and lead the way to a future 
guided by American values and freedoms. For the past decade there has 
been bipartisan consensus on the path forward for human exploration of 
deep space, using NASA's new Orion crewed spacecraft powered by the 
super-heavy Space Launch System (SLS) rocket. In my view, there are 
some essential elements that should be maintained, and other that may 
be considered, in order to ensure that U.S. leadership in deep space 
human exploration and science continues:

  <bullet> That to the greatest extent possible, close alignment 
        between the new Administration and Congress should be developed 
        and maintained on space policy, priorities and funding levels 
        that build on the bipartisan consensus reflected in the 2010 
        NASA Authorization Act and in the annual appropriations adopted 
        over the past six Fiscal Years. Budget instability has been a 
        tremendous challenge, requiring rework and--across each year of 
        development. For the last several years the President's budget 
        request and Congressional appropriations have been out of sync, 
        forcing NASA and its contractors to work at a slower pace under 
        greater budget pressure for the first part of the year until 
        Congressional appropriations are set at the necessary levels. 
        This draws out the program and drives up costs. Reduction of 
        political uncertainty together with budget stability would 
        significantly reduce costs and clarify planning.

  <bullet> That a restatement be made that it is the policy of the 
        United States to expand permanent human presence beyond low 
        Earth orbit. . .and that it shall explore beyond Earth orbit 
        using the national assets developed for such purpose: The 
        super-heavy exploration rocket--the Space Launch System--and 
        the exploration crewed spacecraft, Orion.

  <bullet> Ensure funding sufficient to complete development of NASA's 
        human exploration systems: SLS (including the Exploration Upper 
        Stage beginning on EM-2), Orion, and Exploration Ground 
        Systems, and maintain the schedule for EM-1 in 2018 and EM-2 in 
        2021.

  <bullet> Ensure funding for development of a Deep Space Habitat, with 
        sufficient follow on funding to carry out testing and eventual 
        deployment of that habitat while the International Space 
        Station is still operational, so that there will be no ``gap'' 
        in human spaceflight missions.

  <bullet> Enable NASA to fund mission planning using SLS and Orion for 
        EM-3 through EM-10 throughout the 2020s, with funding that 
        permits investments to be made for early development of 
        capabilities important to the successful completion of these 
        missions.

  <bullet> Provide NASA the authority to negotiate with international 
        partners on contributions to EM-1 through EM-10..

  <bullet> Extend indemnification for SLS and Orion, extending coverage 
        as provided to the Space Shuttle program in a manner similar to 
        the coverage provided for commercial launch providers under the 
        CSLCA.

  <bullet> Restate authorization for NASA operations on the 
        International Space Station through 2024, ensuring its use as a 
        critical test bed for deep space exploration, science, and as a 
        catalyst for commercial development of LEO, and encourage 
        continued analysis of extending ISS utilization beyond that 
        time.

  <bullet> Ensure that cargo and crew transportation services for LEO 
        are fully funded. Focus these programs on supporting NASA's 
        low-Earth orbit activities and missions without sacrificing 
        safety and mission assurance.

  <bullet> Ensure robust funding for successful planning, execution and 
        completion of space science missions, including completion of 
        the James Webb Space Telescope and Mars Insight mission for 
        2018 launches, as well as continued execution of missions such 
        as Juno and New Horizons, and development of upcoming planetary 
        missions to Mars, Europa, and other bodies in the solar system.

  <bullet> Ensure increased funding for Planetary, Astrophysics, and 
        Heliophysics space science accounts.

  <bullet> Where appropriate due to payload mass or reductions in 
        travel time, make use of SLS to launch space science missions.

  <bullet> Adopt the highest possible authorization levels drawn from 
        the House and Senate FY 2017 Commerce-Justice-Science 
        Appropriations bills, including a NASA top line of at least 
        $19.5B, with increases in the out years to keep pace with 
        inflation, at a minimum.

    Mr. Chairman and Senator Peters, thank you again for the 
opportunity to address the Committee on this important topic today. I 
encourage you to also review the Coalition's recent white paper, ``A 
Space Exploration Roadmap for the Next Administration,'' which I 
respectfully submit for the record. Our members are deeply committed to 
the success of NASA's human exploration and space science programs, and 
we couldn't be more excited about the upcoming milestones on the road 
to returning American astronauts to deep space and exciting scientific 
discoveries in the years ahead. Thank you for this opportunity to 
speak, and thank you for your time and attention. I look forward to 
your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Dr. Dittmar.
    Mr. Gold.

           STATEMENT OF MICHAEL GOLD, VICE PRESIDENT,

        WASHINGTON OPERATIONS AND BUSINESS DEVELOPMENT,

                      SPACE SYSTEMS LORAL

    Mr. Gold. I would like to thank you, Chairman Cruz; Ranking 
Member Peters; Commerce, Science, and Transportation Ranking 
Member, Senator Nelson; members of the Subcommittee; and the 
talented and hardworking staff of this subcommittee for this 
opportunity to further discuss the future of NASA.
    My name is Mike Gold, and I am the Vice President of 
Washington Operations and Business Development for Space 
Systems Loral, or SSL. SSL is America's most prolific 
commercial satellite manufacturer, a global leader in space-
based robotics, and an innovator for spacecraft technologies, 
such as solar electric propulsion.
    America's human spaceflight journey began with Alan 
Shepard's first foray into the final frontier, and while NASA 
has and will continue to push far beyond the historic flight of 
Friendship 7, the low Earth orbit environment, or LEO, has 
never been more important. Per the title of this hearing, NASA 
is indeed at a crossroads. The ISS is aging, and while NASA 
intends to maintain the Station through 2024, the end of the 
ISS era, particularly in terms of the long lead-times required 
by major aerospace projects, is nearly upon us.
    Although the ultimate path forward remains uncertain, it's 
clear that NASA will not build another government-sponsored LEO 
space station. Therefore, the future of LEO remains squarely on 
the shoulders of the private sector, which presents both an 
extraordinary challenge and an equally extraordinary 
opportunity. Thus far, LEO human spaceflight in general, and 
the ISS in particular, have been able to depend upon funding 
from governments to support operations. This will change 
substantially as LEO is transitioned from government to private 
sector auspices, and the greatest hurdle that America will face 
in maintaining human presence in LEO is developing the robust 
private sector demand necessary to fund such space-based 
activities.
    A potential solution to this funding challenge can be found 
just above the ISS in geostationary orbit, or GEO. Hundreds of 
billions of dollars are pouring into GEO every year to support 
and purchase satellite services. NASA and the private sector 
should abide by the old Washington adage to follow the money.
    Specifically, manufacturing satellites in space could 
revolutionize the telecommunications industry. Freed from the 
constraints of rocket fairings and the launch environment, 
numerous large radio frequency reflectors could be affordably 
fabricated in space leading to dramatic increases in radio 
frequency reflector sizes, which would substantially bolster 
satellite capabilities, increase satellite fleet resilience, 
and lower customer costs. The hundreds of billions of dollars 
spent on telecommunications could be the fuel for a new era in 
LEO human spaceflight. And SSL stands ready to unite these two 
endeavors, joining with NASA to demonstrate a vital new 
capability.
    This subcommittee's purview includes both space and 
competitiveness, and I can assure the Subcommittee that the 
competition in the global marketplace, and particularly in the 
satellite sector, is fierce. The primitive days of building a 
satellite, launching it, and throwing away a piece of hardware 
worth hundreds of millions of dollars simply because it ran out 
of fuel is coming to an end.
    As I described at a House hearing just last month, we are 
now entering a new era of ``Satellite 2.0,'' wherein satellites 
are refueled and restored while still in orbit. The companies 
and countries which master satellite servicing will gain a 
critical economic and military advantage over international 
competition. DARPA already recognizes this fact and has 
initiated the Robotic Servicing of Geosynchronous Satellites, 
or RSGS, program to create new domestic satellite servicing 
capability for both defense and commercial satellites. NASA has 
its own satellite servicing program, Restore-L, which will 
service the Landsat 7 satellite.
    While both RSGS and Restore-L are worthy endeavors, much 
more needs to be done in this arena. Less than 2 weeks ago, 
China's National University of Defense Technology successfully 
refueled a satellite in orbit. America cannot afford to lose 
the satellite servicing race, and NASA has a critical role to 
play by using its power as a customer to execute contracts with 
domestic providers to service the agency's fleet of satellites. 
This would not only save NASA money, it would enhance the 
agency's capabilities, all while creating new private sector 
jobs.
    Again, NASA is indeed at a crossroads, and all of those 
roads lead toward more robust collaborations with the private 
sector. NASA must search out an intersection of public and 
private sector interests and leverage those points of 
intersection both to lessen its own financial burden and to 
bolster American competitiveness abroad.
    An example of this is the work being done via the Next 
Space Technologies for Exploration Partnerships' habitat 
initiative. NASA needs a habitat to support beyond LEO 
exploration, and the private sector needs a habitat to support 
commercial activities in LEO. Both needs could be met by NASA 
and the private sector sharing the cost of development for a 
habitat and subsequently launching it to the ISS to test a 
vital piece of NASA's beyond LEO architecture while validating 
the business case for the commercial activities needed to 
sustain a private sector space station successor to the ISS. 
NASA and the private sector must move forward together hand-in-
hand because, to quote the great entrepreneur and statesman 
Benjamin Franklin, ``We must all hang together or most 
assuredly we will all hang separately.''
    Thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Gold follows:]

    Prepared Statement of Michael Gold, Vice President, Washington 
        Operations and Business Development, Space Systems Loral
    Thank you Chairman Cruz, Ranking Member Peters, distinguished 
members of the Subcommittee, as well as the Subcommittee's dedicated 
and hardworking staff, for this opportunity to discuss the future of 
NASA. My name is Mike Gold and I am the Vice President of Washington 
Operations for Space Systems Loral. Space Systems Loral (``SSL'') is 
America's most prolific commercial satellite manufacturer, a global 
leader in space-based robotics, and an innovator for spacecraft 
technologies such as solar electric propulsion.
    I would like to begin by taking a moment to acknowledge my fellow 
witnesses, starting with the Atlas of NASA, William Gerstenmaier. Mr. 
Gerstenmaier's unparalleled leadership and unflagging devotion to 
NASA's human spaceflight program has been the foundation which the 
Agency, this Congress, and the American people have consistently relied 
upon. Those of us who care about NASA and space exploration owe a great 
debt to Mr. Gerstenmaier whose consistent, calm, and steady hand has 
helped steer the Agency through extraordinary and challenging times.
    Similarly, it's an honor to testify with Mark Sirangelo. Mr. 
Sirangelo has been doing no less than transforming dreams into reality 
via the design and development of Sierra Nevada Corporation's Dream 
Chaser spacecraft. Like Mr. Gerstenmaier, Mr. Sirangelo has provided 
vital leadership within the human spaceflight community, both as a Vice 
President of Sierra Nevada Corporation and as the former Chair of the 
Commercial Spaceflight Federation. It has been a privilege to work with 
Mr. Sirangleo over the years and to appear with him at this hearing 
today.
    Mary Lynne Dittmar has also provided critical leadership in the 
space world throughout her august career, first as an executive with 
Boeing, and later as an expert advisor to the Center for the 
Advancement of Science in Space (``CASIS''), the National Academies, 
and the American Astronautical Society. Now, as the Executive Director 
of the Coalition for Deep Space Exploration, it has been a pleasure to 
continue to work with Dr. Dittmar to support NASA's efforts to push 
further into the final frontier.
    Finally, few people have contributed as much to the future of deep 
space exploration as Dan Dumbacher. The cornerstones of America's 
beyond LEO exploration efforts, the Space Launch System and Orion 
spacecraft, would not be where they are today without the tireless 
efforts and leadership of Professor Dumbacher, both at Marshall 
Spaceflight Center and at NASA Headquarters and, again, it's a 
privilege to join him and our fellow witnesses at today's hearing.
    Technology and Policy are important, but ultimately, the success of 
America's space exploration program is dependent upon people, and my 
fellow witnesses and our colleagues in government and industry are why 
I continue to remain optimistic regarding this country's future in 
space. However, now more than ever we will need every bit of creativity 
and perseverance that America's space workforce and leadership can 
muster, since the challenges that this Nation faces in space 
exploration are both numerous and robust, starting in Earth orbit.
I. Maintaining an American Presence in LEO
    America's human spaceflight journey began with Alan Shepard's first 
foray into orbit, and while NASA has and will continue to push far 
beyond the historic flight of Freedom 7, the environment in and around 
Earth orbit has never been more important. Specifically, the 
International Space Station (``ISS'') is the crown jewel of not only 
NASA's but the world's human spaceflight capabilities. I fear that the 
general public and even those of us in the space industry far too often 
take the ISS for granted, and fail to acknowledge the titanic 
accomplishment that the station represents. Per the title of this 
hearing, we now stand at a crossroads, with Congress and NASA asking 
what comes next. Although NASA should and must push forward into the 
final frontier, it's just as vital that the Agency and America not 
abandon space's first frontier, low Earth orbit (``LEO'').
    The ISS is aging, and while NASA intends to maintain the station 
through 2024 the end of the ISS era, particularly in terms of the long 
lead times required by major aerospace projects, is nearly upon us. 
Although the ultimate path forward remains uncertain, it's clear that 
NASA has no desire or intent to build and launch another government 
sponsored LEO space station. Therefore, the future of LEO remains 
squarely on the shoulders of the private sector, which presents both an 
extraordinary challenge and an equally extraordinary opportunity.
    Thus far, LEO human spaceflight in general, and the ISS in 
particular, have been able to depend upon funding from governments to 
support operations. This will change substantially as LEO is 
transitioned from government to private sector auspices. The greatest 
challenge that America will face in maintaining a human presence in LEO 
is developing the robust private sector demand necessary to fund such 
space-based activities. NASA, as well as various other organizations 
and associations, have held numerous discussions regarding ``LEO 
commercialization'' and what the path forward will look like. 
Microgravity research and development has certainly shown promise, but 
it's highly unlikely that scientific activities alone can generate 
sufficient near-term revenue to meet the relatively high costs of 
orbital crewed operations.
A. Orbital Satellite Manufacturing
    A potential solution to this funding challenge can be found just 
above the ISS in geostationary orbit (``GEO''). Although NASA and the 
domestic space industry have struggled to identify revenue generating 
activities in LEO, hundreds of billions of dollars are pouring into GEO 
annually to manufacture and launch satellites, construct ground 
stations and related hardware, and pay for satellite services. The 
answer to NASA's question of LEO commercialization could be as simple 
as abiding by the old Washington adage to follow the money.
    No one doubts the importance of GEO telecommunications activities 
or its strong financial underpinning. The potential opportunity that 
NASA has before it is to merge this robust, existing industry with 
crewed LEO activities, and this should be explored as expeditiously as 
possible.
    The satellite telecommunications industry is in a constant 
competition with terrestrial capabilities. Innovation in the satellite 
world isn't just a luxury, it's a necessity, and it's this dynamic that 
has resulted in the consistent improvement of telecommunications 
services even while costs to the consumer are dropping. This ongoing 
need for innovation may actually drive the next evolution of satellite 
innovation off of Earth and into LEO.
    Currently, telecommunications satellites face numerous constraints. 
The number and size of a satellite's radio frequency (``RF'') 
reflectors are limited by the dimensions of a launch vehicle's fairing. 
Moreover, due to high launch costs, satellites are usually designed to 
last for at least fifteen years, a period of time that is a virtual 
eternity when compared with the rapidly changing pace of customer 
demand, evolving population centers, and constant technological 
innovation. GEO satellite operators need to be able to refresh their 
technologies with much greater frequency while increasing their RF 
reflector sizes, and on-orbit satellite manufacturing via a platform 
such as the ISS presents a potentially attractive solution to address 
both of these needs.
    In any future reauthorization bill, Congress should encourage NASA 
to work jointly with the private sector to conduct a near-term 
demonstration of satellite manufacturing and assembly aboard the ISS. 
Working together, NASA and the private sector could execute a pilot 
program that would validate orbital satellite manufacturing techniques 
and demonstrate the value of such operations to private sector 
satellite manufacturers. Subsequent to demonstrating the genuine 
economic value of satellite manufacturing aboard platforms such as the 
ISS, the private sector could move forward in a robust fashion 
establishing a long-term and sustainable commercial activity.
    Specifically, in cooperation with the private sector, NASA could 
demonstrate the viability of fabricating large, shaped surfaces capable 
of reflecting millimeter-wave RF energy, as well as the ability to 
produce milli-degree level accuracy relative to surfaces as defined by 
transcendental equations. Additionally, such an initiative should 
demonstrate the manufacture and/or installation of tight tolerance 
joints to allow for the reliable installation of large reflectors to 
in-space assembled truss structures. This demonstration will require 
NASA, possibly in conjunction with an organization like CASIS, to 
provide a private sector partner with (1) the transportation of 
relevant material and/or components for the orbital manufacturing 
process to the ISS, (2) sufficient crew time to conduct the 
demonstration, and (3) external robotics support for the assembly of 
various satellite components that were manufactured inside the ISS.
    Again, this demonstration would validate the benefits of orbital 
satellite manufacturing and assembly, while also refining various 
techniques and establishing the proper balance between the 
contributions of people and robotics. Orbital satellite manufacturing 
could be the anchor activity that the private sector has been searching 
for to fund the expense of crewed commercial operations in LEO. Unlike 
many potential commercial LEO activities that I have explored over the 
course of nearly two decades, the market for commercial satellites is 
already mature and robust. Orbital manufacturing of satellites could 
unite this strong, existing market with crewed operations in LEO, 
potentially transforming both activities and entire industries, while 
providing the U.S. with a unique and nontrivial economic advantage over 
international competition.
B. Microgravity R&D and Space Tourism
    While orbital satellite manufacturing has great promise, NASA 
should also continue and expand efforts to support microgravity 
research and development aboard the ISS. The Agency and partners such 
as CASIS should focus on projects and concepts that have the potential 
to deliver near-term economic value. When I last testified before this 
Subcommittee in 2012, I noted the potential for breakthroughs in 
biotechnology that the microgravity environment offers. I still believe 
this is true and recommend expanding biotech research aboard the ISS to 
include stem cell production, agricultural engineering, and the 
development of niche drug treatments. NanoRacks, led by Jeffrey Manber, 
the only CEO who has actually run a commercial space station, is 
leading the way in commercial biotech R&D and NanoRacks has already 
created a business for cubesat deployment from the ISS. SSL and 
NanoRacks teamed on a recent proposal to NASA under the NextSTEPs 
program and, if selected, I'm eager to see what America's most prolific 
commercial satellite manufacturer can do in combination with the 
country's leader in LEO utilization.
    NASA should also take whatever actions it can to enable the orbital 
tourism market. The Agency initially spurned space tourism forcing 
Americans to go overseas and fly with the Russians. As we have seen all 
too often in the space world, despite its history as a former communist 
regime, Russia has been far more successful at commercializing its 
human spaceflight program than America. Working in cooperation with 
companies such as Space Adventures, it's my hope that NASA will 
continue the recent trend of being more supportive of space tourism, 
since tourism, as well as flying professional astronauts from foreign 
nations, could play an important role in the ability of the private 
sector to maintain an American presence in LEO.
C. Benefits to Beyond LEO Activities
    NASA support for these commercial activities is critical, since in 
the very near future, responsibility for maintaining an American human 
presence in LEO will be left to the private sector. Our great nation 
must not and cannot abandon its presence in LEO. Active and robust 
public and private sector operations in LEO is the foundation that all 
future human exploration missions, including beyond LEO exploration, 
will be built upon. Traveling to LEO is the terrestrial equivalent of 
going to the airport, once you're there, you can easily be transported 
to a wide variety of destinations both near and far. Countries that 
have a strong LEO infrastructure will be able to move crew and cargo 
quickly, safely, and affordably to orbit, where large spacecraft and 
supplies can be assembled and staged for future missions to the Moon, 
Mars, and beyond. In drafting a future NASA reauthorization bill or any 
other legislation related to NASA, I urge the members of this 
Subcommittee to recognize that LEO and beyond LEO activities are not in 
conflict, and are both required for either endeavor to be successful.
    However, I am not blind to the funding shortfall that NASA faces. 
NASA has been given numerous missions, and not nearly enough funding to 
execute them all. Unfortunately, this is an inevitable product of the 
fiscally constrained environment that the U.S. finds itself in, and far 
from blaming Congress, I'm grateful to the members of this Subcommittee 
as well as your colleagues on the Commerce, Justice, Science, and 
Related Agencies Appropriations Subcommittee for their generosity 
towards NASA despite an overall paucity of available Federal funds. 
Since NASA cannot and should not count on anything more than stable 
funding in the future, and perhaps not even that, the Agency must find 
creative ways to leverage private sector investment in conjunction with 
its own funding to ensure that America does not abandon its presence in 
LEO.
D. AES's NextSTEPs Habitat Initiative
    An excellent example of how NASA can husband its resources with 
private sector financing and capabilities is the habitat initiative 
under the Next Space Technologies for Exploration Partnerships 
(``NextSTEPs'') program. NextSTEPs, which falls under the auspices of 
NASA's Human Exploration and Operations Advanced Exploration Systems 
(``AES'') division, is run by Jason Crusan, one of Mr. Gerstenmaier's 
best and brightest executive managers. Mr. Crusan has a longstanding 
reputation for innovation and leveraging private sector resources to 
vastly multiply the impact of a relatively meager amount of Federal 
investment. For example, the current NextSTEPs habitat procurement is 
crafted to identify and support the intersection between NASA's needs 
for beyond LEO human exploration missions, and the private sector's 
plans for LEO commercialization. Specifically, the NextSTEPs 
solicitation envisions the possibility of a private sector habitat 
being developed, launched, and attached to the ISS. Such a habitat 
would serve as a critical testbed for the discrete validation of 
systems and technologies that NASA needs for ambitious beyond LEO human 
exploration missions. Moreover, such a habitat would not only 
demonstrate new technologies but, just as importantly, the habitat 
could serve as a hub for demonstrating the business case for private 
sector LEO operations including satellite manufacturing and deployment, 
microgravity research and development, and space tourism. A NextSTEPs 
habitat attached to the ISS could be a laboratory for commercial 
development, identifying and maturing the most promising activities 
that can later be transitioned to a future private sector space 
station.
    The brilliance of NextSTEPs is that by leveraging the intersection 
of public and private sector interests, AES will be able to gain 
commercial support for a key piece of human exploration hardware that 
the Agency would otherwise bear the costs for on its own. However, even 
under NextSTEPs, some government support will be required. For example, 
at a minimum, NASA should commit to launching the habitat and paying 
the private sector partner for the right to utilize some its volume and 
resources. For its part, a private sector partner should also be 
responsible for contributing a nontrivial percentage of the financing 
for the habitat's development, and the private sector partner must also 
fund the vast majority of the habitat's ongoing operation expenses via 
commercial activities. Leveraging and combining public and private 
sector interests in this manner is the future of NASA, and a NASA 
reauthorization bill or other relevant forms of legislation should 
embrace this ideology, bolster the NextSTEPs program, and encourage 
similar activities throughout the Agency.
    Moreover, as stated previously, LEO and beyond LEO activities are 
not in conflict. An important reason to turn LEO over to the private 
sector is to ensure that NASA has the funding that it needs to conduct 
ambitious beyond LEO missions. NASA cannot sustain the existing costs 
of the ISS while supporting robust beyond LEO human exploration. 
However, NASA cannot and should not abandon LEO. Therefore, the only 
option available to the Agency is to lower its costs by leveraging 
commercial support whenever and wherever there is an intersection 
between public and private sector interests. Again, I implore the 
members of this Subcommittee to recognize the necessity for NASA to 
collaborate with the private sector via partnerships such as NextSTEPs, 
and to weave this concept into the fabric of a future reauthorization 
bill.
II. Emulating DAR PA's Use of BAAs
    Government agencies leveraging private sector funding and 
capabilities is not a new concept, and instead of reinventing the 
wheel, NASA would do well to learn from and even imitate the 
methodologies of the Defense Advanced Research Projects Agency 
(``DARPA''). DARPA has a longstanding tradition of working closely with 
the private sector to develop new technologies and capabilities that 
are equally important to the government and the private sector. For 
example, via the Robotic Servicing of Geosynchronous Satellites 
(``RSGS'') program, DARPA is seeking to service defense and 
intelligence satellites by establishing a private sector capability 
that will meet government needs without requiring as large a government 
investment as would otherwise be necessary since the system will be 
sustained primarily by commercial missions.
    DARPA's robust partnerships with the private sector can be 
attributed in large part to the Agency's unique contractual strategies. 
There has been a great deal of discussion of Space Act Agreements 
(``SAAs'') by NASA officials and policymakers, and DARPA does indeed 
use a form of `Other Transactional Authority' to execute many if not 
most of its programs. However, what has largely been ignored due to the 
prominence of the SAA debate is the importance of the contractual 
vehicle that is used to solicit proposals, and this is an area where 
DARPA excels. Specifically, DARPA uses standing Broad Agency 
Announcements (``BAAs'') as its primary means of outreach to the 
private sector community. At NASA, the private sector has to wait for 
specific procurement opportunities to be announced, such as the 
Commercial Orbital Transportation Services program, or the Space 
Technology Mission Directorate's (``STMD's'') Tipping Point program. 
Conversely, DARPA uses standing BAAs which are so broad that the 
private sector is able to submit any relevant idea to DARPA at any 
time. Moreover, instead of being forced to immediately submit lengthy 
proposals for Agency consideration, the DARPA BAA process begins with 
the submission of a short executive summary, and then moves on to a 
white paper and eventually a full proposal if DARPA is sufficiently 
interested in the activity. This saves the contracting community a 
great deal of time and effort since the private sector can quickly 
bring a concept to DARPA's attention and does not need to commit a 
great deal of resources to proposal writing unless there is already a 
nontrivial interest by DARPA to support the project. DARPA's use of 
BAAs has encouraged creativity, broadened the amount and type of 
companies that can work with the Agency, and increased the flexibility 
and pace of the government procurement process.
    NASA AES has already been using BAAs to great effect, for example, 
both phases of the NextSTEPs habitat initiative used BAAs. NASA should 
increase the utilization of BAAs throughout the Agency, and STMD in 
particular should establish a DARPA-like BAA system as NASA's primary 
means of engaging with the private sector. As a member of the National 
Academies Space Technology Industry-Government-University Roundtable, I 
have recommended this concept to STMD leadership, and they have been 
receptive to the idea.
III. American Competitiveness
A. Satellite Servicing
    This Subcommittee's purview includes not just space and science, 
but American competitiveness, and this is an arena where NASA has a 
critical role to play. Last month, I testified in the House regarding 
``Satellite 2.0''. I described a new era wherein satellites are no 
longer built on the ground, launched, and then thrown away at the end 
of their lifetimes, but will instead be refueled, refurbished, and 
enhanced while in orbit. Currently, only about 20 percent of a 
satellite's mass generates revenue. This equation can and inevitably 
will change dramatically when satellite servicing becomes a reality. 
The companies and countries that develop this critical capability will 
not only become leaders in space exploration, but since satellite 
technology impacts nearly every aspect of our daily lives, the first 
nation to perfect and implement these systems will enjoy substantial 
economic and military advantages over its global competition. I implore 
this Subcommittee and this Congress not to sit idly by and let other 
nations surpass America in this vital technological capability.
    I have already described DARPA's RSGS program, and NASA also has 
its own satellite servicing activity, Restore-L, which is being 
developed to refuel and relocate the Landsat 7 satellite. However, 
NASA, and the U.S. Government in general, need to do much more than 
sponsor two relatively limited programs to bolster this critical 
capability. America cannot afford to lose the satellite servicing race, 
and we are already falling behind.
    China's National University of Defense Technology recently 
announced the successful orbital refueling of a satellite, enhancing 
both its maneuvering capabilities and functional lifetime. This was 
accomplished using the Tianyuan-1 refueling system which was deployed 
on July 2nd by a Long March 7 rocket. During this mission, China tested 
various processes and validated Tianyuan-1's operations via telemetry 
and video. China is now a leader in satellite servicing providing the 
Nation with a substantial advantage over the U.S. for both commercial 
and national security operations.
    If the U.S. is to match and hopefully surpass Chinese capabilities, 
new programs, opportunities, and additional funding should be directed 
toward satellite servicing and, most important of all, NASA should use 
its power as a customer to inspire the development of private sector 
systems. The private sector is willing to make substantial investments 
in next-generation satellite servicing but, like in any new business 
endeavor, potential customers remain somewhat wary of unproven 
concepts. NASA could help the private sector overcome such challenges 
by acting as a catalyst via the execution of contingent contracts with 
domestic companies to service its own fleet of satellites. NASA would 
thereby support the demonstration of private sector satellite servicing 
systems, providing the assurances and predictability that commercial 
satellite operators need to become customers for these services, 
leading to the development of a firm and large private and public 
sector market. By acting as a customer for commercial satellite 
servicing capabilities, NASA would also benefit by saving vital funding 
at a time when its budget is being stretched thin, all while 
simultaneously creating new private sector jobs and bolstering American 
competitiveness. Therefore, I strongly recommend that in any future 
NASA reauthorization bill or related legislation, the Senate should 
commend NASA for its existing satellite servicing activities, while 
also encouraging the Agency to do more and, in particular, to act as a 
robust customer for domestic commercial satellite servicing 
capabilities.
B. Solar Electric Propulsion
    Another technology that is vital to NASA's future is solar electric 
propulsion (``SEP''). SEP and electric propulsion (``EP'') systems in 
general, are a critical capability for commercial satellites, NASA 
robotic spacecraft, and such systems even have an important role to 
play in LEO and beyond LEO crewed spacecraft. America can ill afford to 
fall behind in SEP, and I applaud NASA for moving forward with programs 
such as Psyche (a Discovery Mission currently in Phase A) which will 
test and demonstrate SEP capabilities. Other space agencies are already 
funding their private sector contractors to develop new and better EP 
systems for commercial satellites. SSL finds itself competing against 
these entities and we need NASA to do more to level the playing field 
and ensure that American companies are not shut out of the global 
marketplace by subsidized international competition. Similar to the 
NextSTEPs habitat initiative, SEP represents an intersection between 
government and private sector interests, and in future legislation, I 
hope this Subcommittee will encourage NASA to identify and develop new 
means to bolster domestic SEP capabilities while supporting ambitious 
NASA missions to exciting beyond LEO destinations such as the moons of 
Mars, Europa, and Titan.
    Whether it's utilizing EP, executing contracts for commercial 
satellite servicing, or releasing BAAs to support broader and more 
efficient STMD outreach, NASA must find new and better ways to work 
with the private sector. Again, per the title of this hearing, we are 
indeed at a crossroads, and clearly every road leads toward more 
private sector engagement. In today's competitive global economy, 
America is not only in a race to destinations such as the Moon or Mars, 
but we're in a race for the economic and national security advantages 
that new space technologies will engender. Therefore, NASA must remain 
vigilant in every one of its activities to find ways not only to 
achieve its own goals, but to bolster American domestic private sector 
capabilities in the process. Moreover, NASA can actually save money 
while doing this without sacrificing safety or quality. For example, 
SSL recently submitted a bid for Landsat 9 which leveraged our 
company's low-cost, heritage capabilities to achieve an extraordinarily 
affordable price point. By taking advantage of private sector products 
that are already being sold commercially, NASA can bolster domestic 
businesses and job creation while reducing its own expenses.
IV. American Leadership
    America must lead. Nowhere is this more true than in the global 
space community where nations across Europe and Asia are clamoring for 
America to join with them in executing a clearly articulated space 
strategy. NASA's future in LEO after ISS retirement remains uncertain 
both domestically and abroad. Since no future government station will 
be built, NASA should fully commit to an ISS transition and redouble 
its efforts via NextSTEPs and similar programs, while reaching out to 
the private sector to bolster customer demand via collaborative 
projects such as the demonstration of orbital satellite manufacturing, 
assembly, and deployment.
    At a time when policymakers are decrying American dependence on 
Russia for crew transportation to the ISS, we are already in the 
process of creating another capability gap for the space station 
itself. Far too soon after American human spaceflight systems begin 
delivering crews to LEO the ISS will be retired. As Mr. Gerstenmaier 
and his colleagues at NASA can tell you, deploying a space station, 
even one that is smaller than the ISS, will take time, and it will 
already be difficult to develop, build, deploy, and test an operational 
station before ISS retirement. If America fails to field a new space 
station U.S. leadership in this arena will quickly be subsumed by 
China, which has plans to deploy its own space station using a new 
heavy-lift rocket capability. The Chinese station will likely become 
operational in the early 2020s, nearly matching the anticipated time-
frame for ISS retirement. China has made overtures bilaterally and in 
the United Nations for the world to join its space station effort 
while, again, the U.S.'s future in LEO remains uncertain. America 
should embrace international cooperation and even a collaboration with 
China could be beneficial under the right circumstances. However, while 
cooperating with another country is commendable, being dependent upon 
another country is deplorable, and NASA must avoid abandoning LEO to 
China, Russia, or other nations.
    The greatest success of the ISS has nothing to do with technology. 
The station's most important achievement was demonstrating that over a 
dozen nations, representing a diverse array of cultures and ideologies, 
could come together as one to deploy and operate the most complex 
spacecraft in the history of humanity. The ISS partnership was hard 
earned over several decades and must be preserved. NASA and this Nation 
should provide a clear vision to its international partners for what 
will come after the ISS, and if the path forward is a private sector 
station, or stations, then we must move forward with alacrity to build 
the necessary commercial demand for such space platforms to become a 
reality.
    Moreover, NASA should reach out to new entrants into the space 
arena. For example, the Senate should commend the recent execution of a 
Memorandum of Understanding between the United Arab Emirates Space 
Agency and NASA as an example of NASA showing leadership abroad by 
engaging with a new, ambitious, and capable space agency. NASA should 
deepen relations with the UAE and reach out to other new national 
players in space, demonstrating that America is a ready and willing 
partner, and is fully prepared to lead the world into the final 
frontier.
    Whether in LEO or beyond, it's vital that America show both 
consistency and clarity of purpose. The rewards of America reasserting 
its leadership in space exploration are only exceeded by the financial 
and political challenges we will face along the way. Achieving success 
will demand the contributions, creativity, and perseverance of every 
one of us in the space sector, public and private institutions, large 
established companies, and entrepreneurial newcomers alike. America has 
never faced more competition in space than it does today and the stakes 
have never been higher. The domestic space sector, both public and 
private, can ill afford divisiveness and discord at this critical 
juncture. I urge this Subcommittee to use any future legislation to 
bring us all together, as an industry and as a people. We must follow 
the advice of the great American entrepreneur and statesman Benjamin 
Franklin, that if we in the domestic space sector do not hang together, 
we will assuredly all hang separately.

    The Chairman. Thank you, Mr. Gold.
    Mr. Sirangelo.

STATEMENT OF MARK N. SIRANGELO, CORPORATE VICE PRESIDENT, SPACE 
               SYSTEMS, SIERRA NEVADA CORPORATION

    Mr. Sirangelo. Good afternoon. Thank you, Senator Cruz and 
Senator Peters, for coordinating this, and to all the Senators 
on the Committee. This is a wonderful opportunity to talk about 
what we're going to be doing in the future, and it is exciting 
for all of us to be thinking about it.
    I also wanted to thank the staff for putting this together. 
It's not easy to bring this group of people together, and I'm 
honored to be here with these four distinguished members of our 
committee--and those who are here from our community.
    For a long time, this industry has been growing. And I 
remember at the very beginning of what is now called the 
commercial space industry. There were less than 10 of us 
sitting around a table in a restaurant deciding what we wanted 
to do, and that discussion eventually became known as something 
called now the Commercial Spaceflight Federation, and over the 
course of what has only been about 12 years, it has now grown 
into an industry that is worth billions of dollars and employs 
tens of thousands of people. It is something that is uniquely 
American and something that is amazing, that we can do this in 
our industry and in our world.
    Sierra Nevada designs and manufactures all sorts of things 
for space: spacecraft, space vehicles, rocket motors, 
spacecraft systems, and components. We've been doing this for 
quite a long time now, over 25 years, and have produced over 
450 successful space missions, over 4,000 things that we've 
built for space. And that's a wonderful record, we've been 
recognized for it in many ways, but what it really says is that 
we know how hard it is to be in space, we know how hard it is 
to do what we're doing, and how hard it is to be successful.
    Our diverse technologies are used in many areas--
telemedicine, navigation, threat detection, security, 
commercial aviation, science, infrastructure, and protection of 
the United States--and currently we employ a workforce 
corporate-wide of about 3,000 people in 34 locations in 19 
states, and all that has come from a very, very small start. We 
are still an entrepreneurial company. We know what it's like to 
grow a business. We know how hard it is to build a company up.
    As the head of Sierra Nevada Space Systems as well as a 
founder and Chairman Emeritus of the Commercial Spaceflight 
Federation, I hope to share with you a little bit of our 
industry's insight and my perspective as you chart your course 
ahead.
    The current National Space Policy in the United States and 
the current NASA Authorization Act were both established in 
2010, and that was a really pivotal year, I believe, for our 
space industry. Many of the things that we had talked about in 
principle began to turn into reality. Several foundational 
programs, such as the Cargo Resupply Services effort began to 
take hold, and that was really built on a bipartisan effort 
between Congress, the White House, and these enabling policies 
significantly advanced the strength and leadership of the 
United States, NASA, and other key department and agencies. And 
just as importantly for us, I think, is creating jobs and 
expanded our U.S. industrial base.
    The imperative is clear in this National Space Policy. The 
utilization of space has created new markets, helped save lives 
by warning us of natural disasters, expediting search and 
rescue operations, making recovery efforts faster and more 
effective, made agriculture and natural resource management 
more efficient and sustainable, and expanded our frontiers. It 
really has enabled so many different industries, and I think 
that's one thing that sometimes gets lost about space, is how 
many industries space is involved with.
    More than anything, I think, though, our growing space 
program provides excitement for our young people. I'm sure 
every one of us can remember something about the space program 
that fascinated us. I know I did. One day I had that awe in my 
childhood that said someday I'm going to be involved in it. And 
the idea that someone like me, coming from a background that 
did not have space associated with it, could be in this room 
talking to you today is really what we are here to talk about. 
We can't forget, as we do this, our young people and the 
inspiration that what you do in your choices and what we do in 
space provides to them.
    Out of the many things I think that can divide us, the one 
thing we can all agree upon in this room, I think in our 
country, and indeed throughout the world, is that we want the 
future of our children to be better than our lives are today. 
We want to remember the wonder we had as being that child of 
looking up in the stars, as you said, Senator, and seeing what 
the future would be and thinking about it and going there and 
flying there. And in my view, we never want to lose that inner 
child or the importance of it because that's what exploration 
is based on. We want to feel something we don't feel today.
    As I like to say, dreams don't have an expiration date and 
they do sometimes come true, and they certainly have for me, in 
part because of the work that you have done over the last 5 
years and the last NASA Authorization Act.
    Our space program provides amazing technical achievement, 
but equally as important, it provides hope for our next 
generation, enabling them to do something remarkable like 
perhaps building a new space company, becoming a respected 
leader at NASA, or even becoming a Member of Congress who might 
go to space one day as a Senator here has. These dreams are 
started, in part, through the thousands of internships and 
entry level jobs that my company and those of my colleagues 
provide. These opportunities fuel the demand and drive for 
education and careers in science, technology, engineering, art, 
mathematics, something which I prefer to call STEAM instead of 
STEM. This, in turn, enables, I believe, our U.S. global 
leadership in technology and other key fields.
    Bold moves like our country's space program excites 
students and uplift all elements of society. Isaac Asimov, one 
of our country's famous space writers, once said, ``If I was in 
heaven, I would do what I'm doing right now forever.'' And for 
me, space is not just a job, and for many in my industry, it's 
also human instinct, it's also art, and it's also passion. It's 
really important for us to look at this in that way.
    In the last few years, the United States has imagined and 
defined the next phase of global commercial space environment, 
which has a market value now over $300 billion annually by our 
most recent Space Foundation Report. This success has not gone 
unnoticed around the world. Lots of countries are coming after 
us. They're seeing what we're doing. They're seeing what we've 
been about. And they're also seeing the benefits that accrue to 
society from this.
    And today, because of these rapid advances, we have a 
position of leadership, we have a position of leadership in 
this area and the world. We need to continue, however, our 
joint government, academia, and industry efforts if we want to 
further extend this bold path and continue this leadership in 
the future. Even though it has been 47 years since the Moon 
landing, there's a reason why U.S. space leadership, the Moon 
landing, or shuttle program are still talked about all around 
the world, and there's a reason why our landings on Mars and 
our flights to Pluto and the most recent flight to Jupiter are 
covered by every media in the world.
    As a personal connection, I believe that these enabling 
policies that we've had have supported us in creating 
groundbreaking agreements, such as the one that my company just 
signed with the United Nations to utilize Dream Chaser for 
global research.
    America is a world leader in this area, and it's critical 
to our country that we remain that way. Space achievements take 
full years to realize, but the extraordinary is worth waiting 
for.
    A truly self-sustaining low commercial--sustaining 
commercial market in low Earth orbit does not yet fully exist. 
I believe it can and should be led by the United States. 
Collaborative action by the Congress, by White House, by NASA, 
industry, and academia are needed to bring this to reality.
    At SNC in particular, we know the value of this 
collaboration. Our journey with Dream Chaser, which is the only 
reusable commercial lifting body in the world, has taken over a 
decade. It's lived the American dream of believing that the 
impossible is possible. Ten years ago, eleven years ago now, we 
looked at it and said, ``Is it really possible for a company of 
our small size to build the next space shuttle, effectively 
working out of a garage in California?'' Many people laughed at 
us; many people said it wasn't going to happen. You know, 
some--it was famously said, ``Some look at the world and say, 
`Why?' and others look at the world and say, `Why not?' '' We 
looked at it and said, ``Why not?'' and believed with the help 
of our country that we could get there.
    Dream Chaser is now in test flight as a true multi-mission 
space utility vehicle. It can safely execute new expanded 
missions. And it's NASA's strategic investments and our very 
successful public-private partnership that has really enabled 
this. It's the way that we're now thinking in this new world of 
commercial space. The confidence that NASA had brought forth 
and the investment that NASA had made has spurred us to make 
the same type of investment, a commercial investment worth 
hundreds of millions of dollars to create something new for our 
country. It is now I think the future.
    Thank you for listening, and I look forward to your 
questions.
    [The prepared statement of Mr. Sirangelo follows:]

  Prepared Statement of Mark N. Sirangelo, Corporate Vice President, 
                Space Systems, Sierra Nevada Corporation
    Thank you Chairman Cruz, Ranking Member Peters, distinguished 
Members of the Subcommittee as well as the Subcommittee Staff for this 
opportunity to address the Subcommittee.
    My name is Mark Sirangelo from the Sierra Nevada Corporation and I 
am here today to speak with you about the importance of a competitive 
and diverse U.S. commercial space industry as a vital component of our 
broad national space enterprise. It is my honor to be here testifying 
along with these respected leaders of our space industry all of whom 
have contributed significantly to our Nation's space program and to 
what we are going to talk about today.
    Congress and NASA have played pivotal leadership roles in 
stimulating, creating, sustaining, and expanding U.S. commercial 
exploration space missions, markets, and opportunities. I wanted to 
thank you for all the support that has been provided. The balanced and 
enabling positions taken to date by Congress have served us well should 
be maintained as a key strategic element of the NASA Authorization 
considerations. These policies have established the United States as a 
global leader in commercial space and have opened many new markets to 
American industry and ingenuity.
    Sierra Nevada Corporation's Space Systems designs and manufactures 
advanced spacecraft, space vehicles, rocket motors and spacecraft 
subsystems and components for the U.S. Government, commercial 
customers, as well as for the international market. We have more than 
25 years of space heritage and have participated in more than 450 
successful space missions through the delivery of over 4,000 systems, 
subsystems and components. During our history we have concluded more 
than 70 programs for NASA. SNC has been honored as one of ``The World's 
Top 10 Most Innovative Companies in Space,'' and one of America's 
fastest growing companies. Our diverse technologies are used in 
applications including telemedicine, navigation and guidance systems, 
threat detection and security, commercial aviation, scientific 
research, and infrastructure protection. We have a corporate wide 
workforce of nearly 3,000 personnel in 34 locations in 19 U.S. states 
and three countries.
    As the head of Sierra Nevada Corporation's Space Systems as well as 
a founder and Chairman Emeritus of the Commercial Spaceflight 
Federation, I hope to share with you some of my industry insight and 
perspective as you chart the course ahead. In my testimony today, I 
will provide comment on the recent growth of the commercial space 
industry and the policies that have helped enabled it, the need to 
sustain a U.S.-led global commercial space market and the key future 
enabling elements that will provide ongoing success for America in this 
area. Finally, I will highlight the importance of continuity and 
stability for NASA and our National Space Policy as we move forward in 
these dynamic and challenging, yet exciting times ahead. Your continued 
visionary leadership in the development of NASA's next Authorization 
will be pivotal to unleashing the true potential of the U.S. commercial 
space industry at this unique point in history.
The Impact of U.S. Policy and Law
    The current National Space Policy of the United States of America 
and the current NASA Authorization Act were both established in 2010, 
which I believe was a very pivotal year for the U.S. space industry. 
Several important foundational programs such as the Cargo Resupply 
Services effort began to take hold. Building on a strong bipartisan 
partnership between Congress and the White House, these enabling 
policies significantly advanced the strength and leadership of the 
United States, NASA, other key Departments and Agencies, and just as 
importantly, created jobs and expanded our U.S. industrial base. The 
imperative is clear, as stated in the current National Space Policy: 
``The utilization of space has created new markets; helped save lives 
by warning us of natural disasters, expediting search and rescue 
operations making recovery efforts faster and more effective; made 
agriculture and natural resource management more efficient and 
sustainable; expanded our frontiers; and provided global access to 
advanced medicine, weather forecasting, geospatial information, 
financial operations, broadband and other communications, and scores of 
other activities worldwide.''
    More than anything a growing space program also provides excitement 
for our young people. I am sure that every one of us here can remember 
some element of our space program which fascinated us. My own childhood 
awe about space led me to this room today. Out of the many things that 
may divide us, one thing we can all agree upon in this room, in our 
country and indeed throughout the world is that we want the future for 
our children to be better than our lives are today. We want to remember 
the wonder as a child of dreaming about the stars and wanting to fly 
there. We never want to lose that inner child nor the importance of it 
to exploration. Dreams do not have an expiration date and do sometimes, 
as they have for me, come true with the help of the creative thinking 
that both NASA and Congress have demonstrated.
    Our space program provides amazing technical achievements but 
equally as important, it provides hope for the next generation enabling 
them to do something remarkable perhaps like building a new space 
company, becoming a respected leader at NASA or maybe even becoming a 
member of Congress who gets to go to space. These dreams are started, 
in part, through the thousands of internships and entry level jobs that 
my company and those of my colleagues provide. These job opportunities 
fuel the demand and drive for education and careers in Science, 
Technology, Engineering, Art, and Mathematics, which in turn has helped 
enable the continued U.S. global leadership in technology and other key 
fields. Bold moves, like our country's commercial space program, excite 
students, fuel these lifelong dreams and uplift all elements of 
society. Isaac Asimov, one of our most famous science writers, once 
said, ``If I were in heaven I would be doing what I am doing now 
forever.'' For many, including me, space is not just a job but it is 
also human instinct, art and passion.
    Our U.S. Space Policy highlights ``A robust and competitive 
commercial space sector is vital to continued progress in space. The 
United States is committed to encouraging and facilitating the growth 
of a U.S. commercial space sector that supports U.S. needs, is globally 
competitive, and advances U.S. leadership in the generation of new 
markets and innovation-driven entrepreneurship.'' The NASA 
Authorization Act of 2010 and subsequent NASA Appropriations by 
Congress have begun to bring this to reality and have created a broad 
portfolio of NASA commercial space initiatives. Most prominent and 
positive amongst them have been the NASA Commercial Cargo and Crew 
Transportation Services programs. Using both NASA Space Act Agreements 
in the beginning and now Federal Acquisition Regulation Firm Fixed 
Price contracts, NASA has awarded Commercial Cargo Resupply contracts 
and Commercial Crew Transportation Capabilities contracts that have 
succeeded in stimulating a globally-exceptional and truly extraordinary 
renaissance of space launch, spacecraft, space operations, and space 
commerce capabilities. These successes, funded and supported by 
Congress, have incurred less cost and time to the government than 
historical traditional programs and have forever changed the space 
landscape for the better while providing the needed incentives for 
companies like ours to invest and take risk.
    In the span of just a few years, the United States has imagined and 
defined the next phase of the global commercial space environment, a 
market valued at over $300 billion annually by the most recent Space 
Foundation Space Report. This success has not gone unnoticed and has 
spurred committed competitive efforts around the world to try and catch 
up or keep pace with the U.S. The benefits of commercial space are 
widespread and countries and organizations around the world are all 
putting time, money and effort into increasing their positions. Today, 
because of our rapid early advances, we have a position of leadership. 
We need, however, to continue our joint government, academia and 
industry efforts if we want to further extend this bold path and 
continue to hold this leadership in the future. Beyond the money, the 
impact of your decisions importantly effects how the U.S. is viewed 
around the world. Even though it has been 47 years, there is a reason 
why U.S. space leadership, the moon landings and our Space Shuttle 
program are still talked about with admiration. And there is a reason 
why our landings on Mars and our flights to Pluto and Jupiter are 
covered by the media in detail in virtually every country. And, in a 
personal connection, I believe that there is a direct connection to how 
these enabling policies have supported SNC in developing and signing a 
ground breaking agreement with the United Nations to explore utilizing 
Dream Chaser for global research missions. America is a world leader in 
this area and it is critical to our country that we remain that way. 
Space achievements take years to fully realize but the extraordinary is 
worth waiting for.
    A truly self-sustaining commercial market in low Earth orbit does 
not yet fully exist. I believe that it can, should and will be led by 
the United States. Collaborative future action by Congress, the White 
House, NASA, industry, and academia are needed to bring this to 
reality. At SNC in particular, we know the value of this collaboration 
firsthand. Our journey with Dream Chaser, which is the only reusable 
commercial lifting body and runway-landing capable spacecraft in the 
world, has taken over a decade. We have lived the American Dream of 
believing in the impossible. As was so famously said, ``Some look at 
the world and say why. Others look at the world and say why not?'' We 
were a handful of people in a garage who said ``why not?'' and believed 
that we could build the next generation Space Shuttle when few others 
did. Dream Chaser is now in test flight as a true multi-mission Space 
Utility Vehicle that can safely and affordably execute new and expanded 
earth orbit missions. NASA's strategic investments and our very 
successful Public Private Partnership have brought this 21st Century 
spaceplane to flight. The confidence we had in NASA provided the basis 
for our ownership to invest and risk hundreds of millions of dollars 
alongside the critical investment of time, talent and money made by 
NASA.
    But there is more. Now that we are in test flight, we see ourselves 
carrying the torch that was passed on to us by the Space Shuttle 
program and the thousands of people throughout America who made it 
successful. Space is multi-generational. One must respect and embrace 
the past as a key to the future. As my generation seeks to honor those 
who came before us by taking their achievements to the next level we 
must, at the same time, create the path forward for the next generation 
who, I am certain, will do amazing things that I can only imagine.
Creating ``Real'' Markets and Missions
    A core element of NASA's charter is to create and transfer 
knowledge and technology to the Nation. SNC's Dream Chaser is an 
excellent example of this technology transfer as it started its life as 
a continuation of NASA Langley's HL-20 Lifting body program from the 
1990s. Years of tests and significant design and aerodynamic work by 
NASA paved the way for development of the current Dream Chaser 
spacecraft and, without which, we could not have been successful. This 
broadly applicable research and development, collaborative public-
private work and applied technology transition should remain a core 
aspect of NASA's mission. NASA's role as a facilitator and as a 
foundational launch customer should be used strategically to enable 
nascent American science and technology to be developed to market. But, 
from my perspective, a competitive and diverse commercial space 
industrial base pursuing multiple opportunities is fundamentally 
important to a self-sustaining market ecosystem that exists beyond 
government support alone.
Diversity and Innovation
    Due to the current state of the industry, different approaches are 
necessary to ensure an innovative and self-sustaining marketplace. This 
diversity in our national space ecosystem right now leads to 
opportunity and creates an unbeatable combination for global 
competitiveness and national mission success. This includes continued 
and expanded use of appropriate contracting and procurement approaches, 
including: Space Act Agreements, Public Private Partnerships, Other 
Transactional Authorities, Firm Fixed Price contracts, Enhanced Use 
Lease Authorities and others. In addition to these proven approaches, 
the Congress and NASA should remain committed to acquisition reforms. 
Since government contracting and procurement remain barriers to some of 
our Nation's most innovative and agile small businesses we must fully 
harness the power of all types of suppliers in our industrial base in a 
way that balances risk and benefit.
    Embracing new and enabling technologies across a broad range of 
applications is essential to achieving our national space goals. NASA 
remains a major enabler to technology stimulation and spinoffs from 
both providing new technology to using it. Significant breakthroughs 
are occurring at the intersection of different fields or through the 
application of existing systems in new and creative ways. For example, 
the use of space robotics in the next generation of human prosthetics 
or space enabled agriculture to help grow food in challenged areas on 
Earth. Within SNC, we are harnessing the technologies and capabilities 
across our portfolio of Mars robotic rovers, small satellites, 
innovative propulsion systems, environmental life support systems, 
space plant growth capabilities, and diverse special mission aircraft 
experience to bring space technologies to many other industries and to 
enhance society. A successful space program is not a solo act. There is 
power in partnerships. Already we are working with large, small, and 
disadvantaged organizations in 25 states and together we are expecting 
to hire hundreds of people this year. This would not be possible 
without that NASA catalyst and partnership.
Continuity, Stability, and Balance
    With the upcoming elections this Fall, I believe it is necessary to 
re-affirm the importance of stability in the space enterprise at this 
critical time in history through a broadly supported NASA Authorization 
Act of 2016. For NASA and the United States, expanded utilization of 
the International Space Station through at least 2024 is fundamentally 
important. We have invested much into the creation of the Space Station 
and need to leverage this still valuable investment for the longest 
time possible. The development of real commercial markets and missions 
may wisely warrant extension of the ISS to 2028 as the International 
Space Station also serves as the cornerstone of exploration. During 
this period I fully expect new platforms and capabilities, both 
domestic and international, to emerge. In turn, these capabilities will 
accelerate the critically important beyond low Earth Orbit, or deep 
space, exploration activities of both NASA and industry. I strongly 
believe synergy between commercial low Earth orbit and deep space 
exploration activities are vitally important and essential to the 
Nation's success. All too often, some people would like to create 
conflict between commercial and government, low Earth orbit and deep 
space activities, crewed and robotic, science and exploration, public 
versus private, and domestic versus international where no conflict 
needs to exist. True mission success, sustained benefits, and broad 
achievement of all of our national goals related to space will only 
come from a balance and mutually-beneficial approach that includes all 
of these elements in a well-integrated, prioritized, and appropriately 
resourced plan. Building on this concept on an even broader level, I 
would like to drive home the importance of a U.S.-led low Earth orbit 
commercialization initiative that creates and sustains diverse 
commercial markets and missions so that NASA can focus vital resources 
to the pursuit of beyond low Earth orbit human and robotic exploration.
    As part of this very-achievable vision, I expect new breakthroughs 
in commercial communications, remote sensing, weather, on-orbit 
servicing, research and development, testing, production/manufacturing, 
tourism, resource extraction, energy production, and many other real 
economic and value driving activities from our commercial space 
efforts. Our nation must continue to invest and stimulate the space 
commercialization business environment and in doing so it will realize 
a substantial return on investment. We also must do so in a timely 
manner as our global competition has firmly grasped the importance of 
this period in space history. Space opens new frontiers, new resources, 
new markets, and new opportunities for our youth and together we need 
to act strategically as this is a priceless investment in our future as 
a nation.
Summary
    In closing, I want to sincerely thank Congress and the Committee 
for this opportunity to provide our thoughts and project the voice of 
the commercial space industry. The stability, diversity, and continuity 
of the current Authorization are the hallmarks that must form the core 
of NASA's next Authorization. Balance among human and robotic 
spaceflight, low Earth orbit commercial utilization and deep space 
exploration, science and technology development, and evolutionary 
development of a robust and diverse U.S. space industrial base will 
deliver revolutionary results that will launch the dreams of our Nation 
both now and in the foreseeable future. We must be bold, we must be 
smart, and we must provide the resources necessary to deliver that 
value to fulfill the tremendous potential of space. At SNC, our dream 
is alive through the Dream Chaser and our broad portfolio of space but 
we are only one piece in a constellation of U.S.-developed capabilities 
that are poised and prepared. We look forward to serving the needs, 
ambitions, and worthy goals of the United States.
    Thank you and I would be happy to answer any of the Committee's 
questions.

    The Chairman. Thank you, Mr. Sirangelo.
    Professor Dumbacher.

          STATEMENT OF DANIEL L. DUMBACHER, PROFESSOR

         OF ENGINEERING PRACTICE, SCHOOL OF AERONAUTICS

           AND ASTRONAUTICS, COLLEGE OF ENGINEERING,

                       PURDUE UNIVERSITY

    Mr. Dumbacher. Chairman Cruz, Ranking Member Peters, 
Senator Nelson, and members of the Committee, thank you for the 
opportunity to discuss my thoughts on leadership in space 
exploration. I believe reasserting leadership in space 
exploration involves the broader space exploration community: 
NASA, industry, emerging space companies, space research 
communities, the general public, and, most importantly, future 
generations of explorers, to whom we are accountable.
    We live today on the shoulders of those that have taken us 
to the Moon, extended our view into deep space, robotically 
explored the solar system and beyond, and developed the 
International Space Station. We owe it to the next generation 
to do for them that which our predecessors accomplished for us.
    We are at a crossroads, a crossroads where NASA is on the 
cusp of transition, not just transition in the political sense, 
but a transition in exploration. The capabilities to again get 
humans beyond low Earth orbit, to the Moon, Mars, and beyond 
are nearing completion in design and development. These 
capabilities will enable return of humans to the area around 
the Moon, the human exploration of Mars and beyond, and the 
possibility of answering the three big science questions.
    NASA's 40-plus years of investment in low Earth orbit have 
blazed a trail that has opened up economic possibilities, 
rewritten science textbooks, not to mention all the 
applications that have spun off from this investment to make 
things better here on Earth.
    Space exploration requires long-term focus, commitment, and 
investment. Using the roles of government and commercial 
entities in the correct balance, technical risks are reduced, 
eventually opening up new markets in space for investment. 
Through space exploration, we gain new scientific knowledge for 
application on Earth, new technologies to further U.S. economic 
leadership, and develop innovative global markets. In addition, 
exploration serves to continually challenge human capabilities 
and feed human curiosity.
    In the past, major financial and programmatic disruptions 
to NASA's exploration activities have misspent taxpayer 
resources, confused the general public, demoralized a talented 
workforce, and diminished or wasted technical and economic 
capability. Also, I believe that improvement must be 
continuous, challenge the status quo, and enhance our 
capabilities for the future.
    My lessons learned in the 2009 to 2011 timeframe, as well 
as program planning and implementation challenges through 2014 
are: Why we continue to explore space can be better 
communicated; number two, debates over specific destinations 
generate ``camps'' and an unhealthy environment of ``our'' plan 
versus ``their'' plan; three, continuity of purpose and 
execution is essential for efficient use of resources and 
timely, tangible accomplishment. Budget stability and 
appropriate funding growth is critical to keeping exploration 
programs on schedule.
    We can address these lessons by, number one, a dedicated 
and transparent effort which works toward building and 
maintaining consensus on why we explore. This should build from 
the 2010 Authorization Act, which provides clear goals and 
objectives, the 2014 NRC ``Pathways to Exploration'' report, 
and efforts such as the Pioneering Space Summit. We must 
combine this with an associated top-level strategy. This is a 
continual effort with the needed perspectives represented: 
NASA, industry, including emerging space companies, 
researchers, politicians, communications experts, cultural 
thinkers and writers, and the general public.
    Number two, focus on what needs to be accomplished and how 
to accomplish it in order to develop a sustainable strategy 
leading to a thriving space economy. Destinations are secondary 
to what should be accomplished. A sustainable strategy is well 
communicated, requires executable and affordable programs, and 
includes international partners on the critical path. Clear 
expectations and use of appropriate roles for government and 
private industry will support building a consensus strategy.
    Number three, continuity of purpose and execution is needed 
to avoid loss of momentum, massive replanning, and lost of 
talent. Space exploratory goals should be adjusted only based 
on what is discovered through progress and innovation.
    Number four, assure budget stability. Dr. Wernher von Braun 
once said, ``Conquering the universe, one has to solve two 
problems: gravity and red tape. We could have mastered 
gravity.''
    Budget stability results in efficient program 
implementation. Continuity across administrations and stable 
budget requests and appropriations will provide the strong 
foundation for building an executable consensus strategy that 
can be well communicated with all stakeholders. Stable budgets 
that allow for program planning over the budget horizon, 
including inflation to maintain purchasing power, are critical 
to continued progress. Stable budgets include minimizing the 
annual NASA budget debate, as well as the national budget 
debate brinkmanship. Budgets should grow and be commensurate 
with the work required in any given year.
    In conclusion, I can attest through personal experience 
with students, researchers, and the general public that space 
exploration is relevant across the globe. Today, there are over 
8,000 talented workers across all 50 states developing and 
building our space exploration elements. With so many on Earth 
eager to explore, it is imperative that we take lessons from 
the past, benefit from that knowledge, and fashion a space 
exploration strategy that is continuous, communicated, 
sustainable, and suitably funded.
    Thank you for your past and present support. Thank you for 
this opportunity to present my views. Thank you for your time 
and attention. And I look forward to your questions.
    [The prepared statement of Mr. Dumbacher follows:]

  Prepared Statement of Daniel L. Dumbacher, Professor of Engineering 
     Practice, School of Aeronautics and Astronautics, College of 
                     Engineering, Purdue University
    Chairman Cruz, Ranking Member Peters, and Members of the Committee, 
thank you for the opportunity to discuss my thoughts on leadership in 
space exploration. First, I must be clear: in my mind, reasserting 
leadership in space exploration involves more than just NASA, it 
extends to the broader space exploration community-industry, emerging 
space companies, space research communities, the general public and, 
most importantly, future generations of explorers, to whom we are all 
accountable. This community, those of us on this Earth who are lucky 
enough to share a passion for space exploration, live today on the 
shoulders of those that have taken us to the moon, extended our view 
into deep space, robotically explored the solar system and beyond, and 
developed the International Space Station. We owe it to the next 
generation to do for them that which our predecessors accomplished for 
us.
    Yes, we are indeed at a crossroads as the title of the hearing 
suggests--but a crossroads where NASA is on the cusp of transition. Not 
just transition in the political sense, but a transition in 
exploration. NASA has focused on LEO for the past 40 years but the 
capabilities (Orion, SLS, GSDO) to again get humans beyond LEO to the 
Moon, Mars, and beyond are nearing completion in design and development 
putting us on the cusp of a new era in exploration that we have spent 
decades dreaming about. The capabilities being built today will enable 
the return of humans to the area around the Moon, the human exploration 
of Mars, and beyond, and the possibility of answering the Big 3 science 
questions: Where did we come from? Where are we going? Are we alone?
    At the same time, NASA's 40+ years of investment in low earth orbit 
have blazed a trail that has opened up economic possibilities, 
rewritten science textbooks, and is beginning to address ageing issues 
as we learn from zero-gravity--not to mention all the applications that 
have spun of from this investment to make things better here on Earth.
    Space exploration requires long-term focus, commitment and 
investment. I emphasize commitment because exploration is both 
challenging and risky, and the payoffs are spread over the longer term. 
Using the roles of government and commercial entities in the correct 
balance, technical risks are reduced, eventually opening up new markets 
in space for investment. Through space exploration we also gain new 
scientific knowledge for application on Earth, as well as new 
technologies to further U.S. economic leadership and develop innovative 
global markets. In addition, exploration serves to continually 
challenge human capabilities and feed human curiosity.
    In my opinion, it is imperative that the United States, and its 
international partners, continues to pursue and build upon their 
existing commitments of space exploration to extend humanity's reach 
into deep space. In the past, however, there have been major financial 
and programmatic disruptions to NASA's space exploration activities. 
These changes have: misspent taxpayer resources, confused the general 
public, demoralized a talented workforce, and diminished or wasted 
technical and economic capability. The result left exploration efforts 
slowly creeping, rather than boldly going forward . . . a position 
significantly below this Nation's capability. Let me state 
unequivocally, I believe that improvement must be continuous, challenge 
the status quo, and enhance our capabilities for the future. My 
experience at NASA, and now preparing the next generation, has taught 
me that change is often needed, but also that disruption often yields 
changes, but not necessarily improvement.
    My lessons learned in the 2009-2011 timeframe, concerning the 
changes to the NASA human exploration budget and associated program 
adjustments, were many. In addition, program planning and 
implementation challenges through 2014 provided further lessons. I 
would like to discuss these lessons and provide suggestions for moving 
forward.
    The key lessons and their impacts are:

    (1)  ``Why'' We continue to explore space has not been well 
            communicated. The result is a lack of understanding and 
            ``buy-in'' from the American public and all .. This 
            directly leads to an unhealthy state of individual ideas 
            being argued with minimal possibility of consensus and 
            integration.

    (2)  Debates over specific destinations generate ``camps'' and an 
            unhealthy environment of ``our'' plan versus ``their'' 
            plan. In reality, the destinations are, at best, secondary 
            to the real need of near and far term benefits for society.

    (3)  Continuity of purpose and execution is essential for efficient 
            use of resources and timely, tangible accomplishment. 
            Cancellation of major programs, or making significant 
            changes to programs, thwarts continuity.

    (4)  Budget stability and appropriate funding growth is critical to 
            keeping exploration programs on schedule.

    All of these lessons must be addressed to maintain U.S. leadership 
in space exploration and efficiently execute the programs.
    It is imperative that as a nation, and a global community, we 
address these lessons to obtain the benefits of space exploration.
    With similar and coordinated actions, we can address the lessons of 
communicating the ``why we explore'' and the related debate over 
destinations. A dedicated, and transparent effort, which works toward 
building AND maintaining consensus on why we explore is needed. This 
must be combined with an associated top-level strategy. This is not a 
one-time activity, this should be a continual effort with NASA, the 
aerospace industry--including emerging space companies, researchers, 
politicians, marketing and communications experts, cultural thinkers 
and writers, and representatives of the interested general public. This 
effort must consider what is needed to enlarge a space economy, engage 
the general public and their representatives, and how NASA and 
government investment can best support space exploration. The 2014 
National Research Council, ``Pathways to Exploration'' report provides 
a sound starting point for this activity. This report engaged the 
needed perspectives and cross-sections to arrive at its conclusions.
    Secondly, we need to focus on what needs to be accomplished, and 
how to accomplish it, in order to develop a thriving space economy. To 
get past the destination discussion, a coordinated strategy for this 
development is required. Comments circulated during previous 
transitions, in reference to the Moon as a ``been there, done that, got 
the t-shirt'' destination are unproductive. There were also incorrect 
claims that NASA did not plan on going to Mars. Finally, the often 
intoned ``Moon'' versus ``Mars'' versus ``asteroids'' argument, led 
only to a fight between the respective camps. The space exploration 
community was ``shooting inward'', not communicating an organized 
strategy.
    A sustainable exploration strategy is what is needed. This requires 
an immediate cessation of ``shooting inward'' and recognition of what 
is sustainable. Sustainability requires a communicated strategy and 
that implementation programs be executable and accomplish milestones. 
The strategy must be affordable and include international partners on 
the critical path. Clear expectations and use of the appropriate roles 
for government and private industry will support building a consensus 
strategy.
    Continuity of purpose and execution pairs well with budget 
stability. When the NASA Constellation program was cancelled in FY 
2011, significant progress had already been made. Unquestionably, there 
was need for improvement in the planning and execution of 
Constellation. However, effectively canceling a five-year, $9 billion 
effort resulted in loss of momentum in all projects (Ares, Orion, 
Ground Systems), massive re-planning of the on-going Constellation 
activities, and loss of talent across the Agency, particularly at 
NASA's Johnson, Kennedy, and Marshall Centers. Hundreds of prime and 
support contractor jobs, along with those at suppliers, were eliminated 
due to this major policy change.
    Paired with continuity is budget stability. This was a key topic in 
my testimony to the House Science Committee in October 2015. As part of 
the effort to respond to the 2010 NASA Authorization Act (Public Law 
111-267), the Office of Management and Budget directed NASA to plan 
human exploration efforts (what became Orion, the Space Launch System 
or SLS, and Ground Systems) within a $3B annual funding level, without 
inflation over the budget horizon. This established the SLS 
configuration, and programmatic phasing for the Exploration Systems 
efforts. However, the annual budget requests were consistently less, FY 
2012--$2.81B, FY 2013--$2.76B, FY 2014--$2.73B. Each year, Congress 
increased appropriations to near the $3B level, and in FY2014 
appropriated over $3.1B. This annual appropriations debate results in 
continuous re-planning, loss of team focus on very challenging 
technical tasks, programmatic delays, and confusion and 
miscommunication across the team, and among all stakeholders.
    Continuing resolutions, government shutdowns, brinksmanship in the 
national appropriations process, and tardiness in receiving final 
appropriations all adversely impact budgetary stability. These national 
level budget debates lead directly to program cost and schedule 
changes. They serve to increase confusion, and result in loss of focus 
due to constant revision. For example, the fifteen-day government 
shutdown in October 2013 resulted in overall Exploration System 
inefficiencies of at least $240M, accounting for 1 week of phase down, 
2 weeks of shutdown, 1 week of ramp up.

    ``Conquering the universe one has to solve two problems: gravity 
and red tape. We could have mastered gravity.''--Dr. Wernher von Braun

    For space exploration leadership, it is essential to maintain 
continuity of purpose, coupled with budgetary stability. This results 
in efficient program implementation. Continuity across Administrations, 
and stable budget requests and appropriations, will provide the strong 
foundation for building an executable consensus strategy that can be 
well communicated with all stakeholders. Stable budgets, that allow for 
program planning over the budget horizon, including inflation to 
maintain purchasing power, are critical to continued progress. Budgets 
should grow and be commensurate with the work required in any given 
year and then grow as needed to develop and operate the essential 
exploration elements--currently to include SLS, Orion, and habitats. 
Today, there are over 8000 talented workers across all 50 states 
developing and building these systems, in addition to the European 
Orion service module.
    Additionally, it should be recognized that Administration changes, 
driven by the voice of the voters, can adjust exploration priorities 
and strategies due to economic or security concerns. Such adjustments, 
however, should not indiscriminately eliminate or alter major programs 
without addressing proper and sufficient coordination among all 
stakeholders. Space exploratory goals should adjust based on what is 
discovered through progress and innovation.
    In conclusion, I can attest through personal experience that space 
exploration is relevant across the globe. Researchers, rocket 
scientists, academics, both University and elementary students and 
stargazers from all walks of life, express enthusiasm for emerging 
launch systems, be they built by NASA, Blue Origin, ULA, or SpaceX. 
International Space Agencies eagerly host groups of engineering 
students keen to become the next trailblazers, improving our awareness 
of the universe. With so many on Earth eager to explore, it is 
imperative that we take lessons from the past, benefit from that 
knowledge and fashion a space exploration strategy that is unanimous, 
continuous, communicated, sustainable and suitably funded.
    Thank you for this opportunity to speak, thank you for your time 
and attention, and I look forward to your questions.

    The Chairman. Thank you, Professor Dumbacher, and thank you 
to each of you for your learned testimony.
    Before 2005 and 2010, NASA spent roughly $13 billion on the 
Constellation program before it was canceled in 2011. The first 
question I would like to ask the members of this panel is, What 
are the lessons we can learn from the cancellation of the 
Constellation program? And what steps should Congress take to 
ensure that the Space Launch System and Orion don't face the 
same fate in years to come?
    Mr. Gerstenmaier?
    Mr. Gerstenmaier. Again, I think we're at a very different 
posture this time with the current programs. As has been 
described earlier, the amount of hardware that's getting ready 
to go fly, the amount of development that's behind this, the 
teams have made tremendous progress in moving forward. We're 
essentially roughly 2 years away from launch of really the next 
generation of launch systems that allow us to go to deep space. 
We've made tremendous progress, and I think we need to all 
recognize that progress.
    We also need to recognize that it's difficult making that 
progress. Development is not easy. There will be problems 
discovered as we build this hardware, and we need to look that 
we're building a system and not just focused on a single launch 
or a single two launches, we're actually building a system for 
the future. And I think if we all collectively keep those 
things in mind, we'll see the long-term vision of what we need 
to go forward with and we'll be not tempted to jump to the next 
shiny object or to make a change in direction, as occurred in 
the past.
    So I think we need to look at these systems. They clearly 
are world-leading systems. Every nation around the world is 
determined they need a heavy-lift launch vehicle. We are 
building a heavy-life launch vehicle. We are not designing, we 
are not talking about it, its hardware is available to go be 
seen, touched in New Orleans. The capsule is in Florida. The 
hardware is there. Our systems are there. We need to continue 
the course, stay where we're moving forward, and we'll continue 
to be a leader in space.
    The Chairman. And let me ask you, What is the impact of SLS 
and Orion deep space capability, what does that mean for United 
States leadership in space?
    Mr. Gerstenmaier. We will be the only nation that has the 
ability to take crews beyond low Earth orbit to the vicinity of 
the Moon on a regular basis with this system. And eventually 
with the additional work we're starting on habitation systems, 
we can add those to Orion, and we can then essentially move 
human presence beyond the Earth-Moon system into the solar 
system. So we will be the only nation really going beyond low 
Earth orbit with humans moving into the solar system as we 
described through this methodical process, heading ultimately 
toward Mars.
    The Chairman. And if a subsequent administration were to 
cancel SLS or Orion, as we did with the Constellation system, 
what would the consequences of that be?
    Mr. Gerstenmaier. Again, you've described the dire 
consequences that occurred when we canceled Constellation, and 
you described the impacts--to the auto industry and what 
occurred in this huge downturn. We've essentially recovered 
from all that, we're moving forward. Cancellation of 
Constellation [sic] and SLS would essentially put us back in 
that start-all-over-again posture to begin again with all the 
negative consequences that you've described earlier as you 
talked to us before, and all those would be realized again. You 
know, even the workforce that I work with, you know, it was a 
devastating blow to them when this work got pulled away from 
them, as you've described.
    I think people in our industry, as described by these 
panelists, maybe work for more than just the paycheck. There's 
a passion that sits below us, and when you cancel a program or 
you take something that's your life work, that you've really 
sacrificed, and you take that away for seemingly a trivial 
reason, that is very devastating to our workforce, and that can 
have huge implications to this Nation, to our culture, to our 
psyche, and to our world leadership, and I don't think we 
should go through that again if we can avoid it.
    The Chairman. Would anyone else care to amplify?
    Mr. Gold?
    Mr. Gold. Senator Cruz, if we don't develop heavy-lift, I 
assure you the Chinese will. They're working on it today, and 
China will use that system to deploy their new space station, 
which, by the way, will be introduced while our space station 
is being retired. So if we do not develop this critical 
capacity, we will be behind China, who is making, frankly, all 
of the right decisions.
    And I think what you need to do with SLS, and, frankly, 
with any of our space systems, is link them to the private 
sector, make sure there is a connectivity there, because I 
can't tell you who is going to be in charge of NASA eight, 9 
months from now, but I can tell you who is going to be in 
charge of Space Systems Loral. And I think the private sector 
brings stability and support to the space program that can 
allow NASA's initiatives to move forward without interruption.
    The Chairman. And what are the consequences to our national 
interest if we were to remain dependent on Russia for low Earth 
orbit and access?
    Mr. Sirangelo. Senator, I'll take that. In your opening 
statement, you talked about what we are spending outside the 
United States, and I think one element of the beyond low Earth 
orbit system that Bill Gerstenmaier talked about that isn't so 
much recognized is that by turning over low Earth orbit 
activities to the commercial sector, one of the things we have 
been able to do is enable NASA to look beyond low Earth orbit, 
take their resources, take their energy, take the ability that 
their people have and look towards, ``What else could we do?'' 
which is really most definitely a government sector operation. 
We've received that benefit by enabling companies like mine and 
others to start operating in low Earth orbit.
    At the same time, we're getting the dual benefit of being 
able to bring back home those dollars that would be spent 
outside of the United States. We're launching our astronauts 
and our services and our supplies from American soil with 
American spaceships on American rockets, and that's what we 
believe we should be doing.
    Mr. Gold. However, Senator, I think it's also important to 
ask the question, will we have an American station for Mr. 
Sirangelo's spacecraft to go to? It's good that we're concerned 
about U.S. dependence on launching with the Russians right now, 
but, unfortunately, what we also have to worry about right now 
is whether there will be a U.S. platform in orbit for them to 
go to. And as I mentioned in my testimony, we're already 
potentially behind schedule in trying to figure out what that 
transition will look like.
    The countries and companies that can operate in LEO will 
have the greatest impact economically, that's where our 
satellites are, that's where our commercial and military 
interests are. So while we ask about getting people to LEO, I 
also hope that we don't forget about LEO utilization, what 
we're doing there, and what the competitive industry and 
markets look like in that environment.
    The Chairman. Thank you very much.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman, and thank you 
again to our panelists.
    Actually, Mr. Gold, I just want to pick up on the statement 
you made about the SLS rocket and public-private partnerships 
having commercial investments in that as well. There are some 
folks who have argued that NASA probably shouldn't be leading 
that, that there might be commercial companies that will pick 
that up. I don't think that's what you were saying, but could 
you explain what you are implying by that statement? And is 
NASA on the right track as being the leader in developing this 
initial SLS rocket? Or what are your thoughts?
    Mr. Gold. So, as Benjamin Franklin was trying to counsel 
us, Senator we need to hang together--and thank you for this 
question, because I think this is the conundrum that we all 
struggle with. You heard every one of us talk about the 
industry trying to come together, that we all share this spark 
of inspiration that Mr. Sirangelo and Mr. Gerstenmaier 
mentioned.
    I think what we need to do is the all-of-the-above solution 
here, to stop dividing ourselves, believing that there is only 
one way to get this done, that there is only one solution. As I 
described in my testimony, we need to seek out those 
intersection points where the private sector and government 
interests are aligned, and feed those. I don't see any problem 
in proceeding with the SLS system, which could potentially 
benefit the private sector with its capabilities, and if we do 
have a presence in cislunar or the Moon or Mars, that's going 
to open up all kinds of opportunities for the private sector. 
You could have a second Commercial Cargo program for bringing 
cargo out to cislunar locations or the Moon or Mars. So I don't 
see a conflict here, I see the potential for great synergy and 
complementary activity.
    Senator Peters. All right.
    Mr. Gerstenmaier. Yes, I would surely echo the same 
sentiment. I think by using the private sector who are there, 
in some sense, they can be more nimble than we can on the 
government side. We need to go do that. We're seeing the 
innovation occur in both Commercial Cargo and Commercial Crew. 
That's very important for them coming online.
    We just put out a unique proposal to industry, it's called 
a Request for Information, where we essentially have one of the 
ports on board the Space Station that we're going to make 
available to the private sector to go utilize how they want to 
go utilize it. So we asked them for ideas. We said, ``We'll 
provide power to you, we'll provide atmosphere to you, you can 
attach your module to station. So think of it as having a piece 
of land somewhere in some prime city and we're saying that 
piece of land is available for you, you can build what you want 
there. You can use cargo transportation to get there, you can 
buy that on the private sector market, you can get crew 
transportation privately to this location.'' And we asked them 
for ideas of how they would use this port.
    So it will be exciting to see what the private sector tells 
us in this response. How can they use this unique aspect? They 
could put their station there, they could operate for a while 
as a separate entity with purely private sector demand to this 
research facility. And then at some point when this station's 
life is exceeded, it could undock from station and be the basis 
for the next private sector station.
    So we are actively working to bring the private sector 
along. It enables us to do these harder, more difficult things 
that I think are the right things to do for the government 
until there's a proven market, until there's demand shown. It's 
the right thing for the government to do those harder things 
that don't quite make sense to the private sector, but then as 
soon as we can, bring the private sector behind us so they can 
follow along with us, and we can use them in a very effective 
manner to keep advancing into space. Because these challenges 
we describe, they can't be done by one nation, they can't be 
done by one government entity, they have to be done with the 
best of all of us, and that includes the private sector as well 
as international partners.
    Senator Peters. And I think as you make the statement about 
how we have to be together, both private sector, other nations 
coming together, it's not just technical, it's really 
financial. In fact, I think the ``Pathways to Exploration'' 
report from the National Academies noted that our biggest 
challenge is not technical to do these wonderful things that we 
want to do, it's really financial and how we have the 
wherewithal to fund these kinds of projects.
    And all of you are aware that funding for NASA has not kept 
pace with the trajectory that was envisioned in the 2010 
Authorization, and yet given that, you still have been able to 
make significant progress with the SLS, Orion, and other 
related systems for deep space exploration as well.
    But I guess that leads to a question, and I'll ask Dr. 
Dittmar first, in your view, is NASA on a sustainable 
trajectory financially? Or quite simply put, can we fund a 
human mission to Mars on this course without sacrificing some 
other types of programs?
    Dr. Dittmar. Those are two little bit different questions. 
Let me just put on my Human Space Flight Committee hat, 
because, as you know, I was on the NRC ``Pathways'' report. The 
first thing I would say is that what we found in the report is 
that where NASA is now it is sustainable. It's developing these 
programs. It's eventually going to need us to sort of say, 
``Okay, we're going to go do this, this, and this, but right 
now the focus is on developing those capabilities.'' And the 
budget that Congress has provided has allowed that progress to 
continue to be made. There is no question, however, that as you 
move forward and really begin to start rolling on this stuff, 
you probably are going to need an increase.
    One of the things that would really help would be for the 
funding to keep track with the rate of inflation, because if it 
doesn't keep track with the rate of inflation, you're in a 
decreasing situation. It looks like flat funding, but it's 
really not, because your buying power actually decreases over 
time. So maintaining the rate of inflation is the very first 
thing that needs to be addressed. Over time, you're definitely 
going to need modest increases.
    But another thing that we noted in the report, and this one 
gets lost a lot, and so I want to just make the point, is that 
technology is increasing by leaps and bounds all around us. 
Every week something new happens, things are changing. And one 
of the assumptions that we made, and it's one of the reasons we 
didn't tag a dollar figure on this, is that over time what 
would happen is technologies would improve to the point where 
NASA was able to incorporate some of those technologies and 
reduce costs as it goes forward. Also, there will be 
relationships with international partners, where partners are 
basically bringing parts to that whole architecture, and we 
assume, as Mike was just talking about, that commercial 
enterprise will also begin to pick some of this as we're moving 
forward.
    So is it on a sustainable trajectory? Yes, for now, it is 
on a sustainable trajectory, but in the outyears, you will need 
modest increases in funding.
    Senator Peters. That's to achieve the Mars mission, you 
would need modest increases, in your estimation?
    Dr. Dittmar. Well, you need--it's very difficult to say 
because some of this depends on where it is that you're going 
and in what order you're doing what you decide to do there. If 
we're talking about--we start here, we launch, we go to Mars--
then that's one funding profile. If we say--we're going to 
start here, we're going to go into cislunar space, we're going 
to take some time and figure out what it is that we need to 
know that we don't know that we need to know, which is part of 
what exploration is about, we'll need to be learning as we go--
then that's a different funding profile. If you do what the 
``Pathways''--what I refer to in the Pathways Report as the 
``go everywhere and do everything'' model, which is essentially 
a whole lot of steps on the way the Mars, that's yet another 
funding profile. That funding profile is going to be the most 
expensive but it's also going to be the least risky because 
you'll have been learning at each step that you take.
    So there's not a single answer to your question. It depends 
on what choices get made at what point along the line. Do I 
think that you're at a place right now to be moving out on that 
program? Yes, I do.
    Senator Peters. OK. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    And thank you for testifying here today. There's a lot of 
conversation about the future of space travel, as we've heard 
today, and this public-private-commercial kind of partnerships, 
and I think this whole problem is frankly for future high-tech 
job growth, coming from somebody who's spent a lot of time in 
the high-tech sector. And I want to really direct my questions 
thinking about, how do we inspire the next generation of 
engineers and so from the partnerships of building an upstream 
farm team, if you will? I heard a lot of conversation about 
STEM and STEAM. I'm the only chemical engineer on the Hill, so 
I hold down a caucus by myself, but a big, big proponent on the 
sciences and engineering.
    My alma mater, by the way, at Montana State University, 
they've got an eclipse ballooning project. They're guiding 60 
student teams across 30 states to build and launch the hardware 
to send live video from the edge of space to NASA's website 
during next summer's total solar eclipse. What's great about 
that is they're working--students working on projects will have 
tangible results, something they can really see, which I think 
is very exciting.
    I'm going to start with Mr. Gold, a graduate of Billings 
Senior High, a Bronc. I know you've had both a personal and 
familial connection to NASA and have helped bring their 
outreach activities to Montana, which I thank you for that. 
Could you elaborate on the HUNCH program? And for those who 
don't know what HUNCH is, it's High Schools United with NASA to 
Create Hardware. Tell me about that. And it really is getting 
into this, how do we inspire more technically trained students 
for the future here?
    Mr. Gold. Thank you so much for that question, Senator. 
HUNCH, in my opinion, is one of NASA's most important programs. 
Although in the interest of full disclosure, my mother runs it, 
so I'm anything, if not biased.
    [Laughter.]
    Mr. Gold. HUNCH is operated out of Billings, Montana, as 
you noted. And what it does is it partners NASA Johnson Space 
Center, in Senator Cruz's great state of Texas, and five other 
NASA facilities with schools in Montana and across the country 
for the purpose of inspiring students to pursue careers in 
science and engineering by linking them up with NASA to provide 
real world products to the Agency for their use. For example, 
the galley table that the astronauts are using on the ISS today 
was built by HUNCH. The astronauts are eating off a table built 
by the students. And I cannot overstate the impact that I think 
it would have on a student for them to be able to say that, ``I 
worked on a piece of the International Space Station that 
astronauts are eating off of today.'' I think if something like 
that had been available when I was at Billings Senior High, I 
might have been a useful engineer instead of a useless lawyer.
    [Laughter.]
    Mr. Gold. Not that lawyers are useless, as Senator Cruz and 
I know.
    Senator Daines. I think you turned out OK.
    Mr. Gold. Absolutely. I turned out. Thank you. I appreciate 
that, absolutely.
    Senator Daines. Mr. Gerstenmaier, in your testimony, you 
didn't talk a lot about engaging younger generations. I know 
you have a lot to say about that. Would you also elaborate on 
experiences with this HUNCH program and other programs to 
inspire this next generation of engineers and astronauts?
    Mr. Gerstenmaier. I think the HUNCH program is unique in 
the fact it focuses on high school students, and the fact it 
also reaches out to more of the vocational side of the high 
school students, so it's not necessarily the high engineering 
college students, but it's more the vocational side. So they 
actually get hands-on experience working with our engineers 
manufacturing hardware, like Mike described, the table on board 
Station. They've built 150 crew transfer bags, so when you see 
the crew transfer bags going across the hatches, those were 
manufactured by high school students.
    It's also exciting to actually visit with the students and 
talk to them and hear their personal stories of where they 
weren't sure what they wanted to do with their careers, and now 
all of a sudden they're building hardware, they're in the 
trainers in Houston working side-by-side with an astronaut, 
understanding how a transfer bag should be manufactured, how to 
put handholds on it, how it can be used in microgravity. All of 
a sudden, they've got a real purpose for what their career 
trajectory is and what they want to go do. So it's a tremendous 
program to get young folks excited, especially high school age.
    I would say another group that I just got a chance to meet 
with are young professionals. Those are college age students. 
You know, sometimes we think of ourselves as the Apollo 
generation, where we were motivated by what occurred in Apollo. 
It's interesting talking to this college group of students; 
they see it as the Space Station generation. So they see the 
Space Station and this international activity as an 
unbelievable motivating force for them and their careers and 
the chance that they get to work internationally and globally 
with people on this Space Station. It's as large as a football 
field, that was talked about.
    So I think sometimes we discount the benefit of what we're 
actually doing today or the preciousness of the activities 
we're doing, and we take them for granted, and we don't see 
them in the context of where they are, but I think they are 
tremendously motivating to our students. If you look when we do 
activities now, we do social media activities where we have 
tweetups where we have a bunch of college students come in and 
talk about our programs. They are probably more knowledgeable 
about our programs than the general population in general.
    So I think we have a tremendous ability and a tremendous 
responsibility to educate both the younger students all the way 
from grade school through high school all the way into college.
    Mr. Sirangelo. And if I could just add, Senator, if it 
wasn't for Bill Gerstenmaier, there wouldn't be a HUNCH, it 
wouldn't be in Montana, and that's true of many of these 
educational programs.
    So thank you, Mr. Gerstenmaier.
    Senator Daines. Thank you. And I'm out of time, but I'll 
just conclude, I really appreciate also how we motivate and 
encourage students who may want to go to a two year vocational 
training. We need to be training a generation of folks who know 
how to make things work and to celebrate two year institutions 
just like we do the four year. That's an issue. I think we need 
to elevate the 2 years to the 4 years in many ways and 
celebrating that for those who don't want to go for a full 
four-year education.
    Mr. Gerstenmaier. And I think that's again the real 
advantage we get. The benefit is by celebrating diversity and 
bringing a large population, it's amazing what support we can 
get and what we can accomplish.
    Senator Daines. Yes. Thank you.
    Mr. Sirangelo. Senator, if I could maybe add to that.
    Senator Daines. Yes.
    Mr. Sirangelo. One other thing I think is as important to 
what my colleagues have been talking about is that when you 
speak to the young people, not only do they want to go out and 
build something and hold it, as you said, and be able to touch 
it, they want to know that there's a future for this. They want 
to know that future is going to be longer than a year or two or 
three or four because if they're going to commit to going into 
these industries and doing what we want them to do, they need 
to see that that future for NASA and for this industry is one 
that's going to last for 10 or 20 years as they look forward to 
the next couple of generations. And I think in doing that, the 
continuity, taking the space program outside of what might be a 
year-to-year concept and putting it into a place where people 
can look at it and say there is going to be a long-term future 
is going to be one of the most motivating things we can do for 
our young people, and I'm not just talking about the rocket 
scientists of the world. We value the electrician who wires our 
spaceship as much.
    What we're really doing in many ways, at least in our 
business, is creating the infrastructure, the equivalent, the 
Internet equivalent of creating an iPad or a laptop, and being 
able to say the next group of people coming through are going 
to create the apps in the industry behind that, and that's what 
we want to motivate them to, and in doing that, I think we need 
to show them that there is going to be a long-term path for 
this, and that's going to create the inspiration. Many of them 
want to be entrepreneurs. Many of them don't just want to come 
out and go work for a company, they want to create their own 
company. And I think showing them that path and realizing 
that's what sparks that inspiration is quite important for us 
as well.
    Senator Daines. Thank you, Mr. Sirangelo.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    This has been an excellent panel, and each of you have 
brought a lot to the table. For example, in your talking about 
the future of commercial putting a module on the Space Station. 
Now, that begs the question, we certainly ought to expand the 
authorization of the Space Station. It wasn't too many years 
ago that the authorization was only to 2016, the present year. 
We have it out to 2024, but there's a lot more that we can do 
on that platform, it ought to be extended. And I will predict 
that shortly, in the next few years, if not immediately, you 
will see an extension even on out to the end of the decade. 
That will give part of the certainty of what you all have been 
talking about, and the certainty of funding is certainly key.
    Now, what you said, Dr. Dittmar, is so important; that 
we're going to develop all these technologies that we don't 
know about today. But in order to get to the goal of getting to 
Mars, we're going to have to develop them, sustain life, and 
then bring that life back.
    Mr. Gerstenmaier, it would take us under conventional 
technology 6 to 8 months to get there, and then because the 
planets would be out of alignment, you'd have to stay on the 
surface a long time, then to come back, another 6 to 8 months. 
Now, under present technology, how are you going to sustain 
life that long? It's going to be very difficult. So what we 
need to do is to sprint to Mars, stay a week or two, come home. 
Have you got anything in mind in the way of those new 
technologies?
    Mr. Gerstenmaier. We're looking at electric propulsion and 
specifically higher thrust electric propulsion. The VASIMR 
activity, which we're investigating is one area we're looking 
at. Actually, we're under a NextSTEP Phase 1 activity in 
propulsion to take a look at the next generation of propulsion, 
and the idea is to actually run one of these VASIMR engines in 
a chamber on the ground for 100 hours to prove the technology, 
to understand that the system can actually operate for those 
kinds of durations, and if that test is successful, I think 
that proves to a lot of skeptics out there that this technology 
is ready to then be fielded and moved.
    Again, the high thrust electric propulsion makes sense at 
the greater than 100 kilowatt thrust levels. The smaller 
electric propulsion is fine for things like the Asteroid 
Redirect Mission, but for the bigger missions, this potentially 
has a lot of benefit. But we're actually proving today, there's 
a group at Ad Astra that's actually working on this technology, 
they're going through a series of gates that lead up to this 
ground test that I described, and when we see that, I think 
that will clear the way for this new technology, and that's one 
area that we're pursuing to try to get there faster, as you 
described.
    Mr. Gold. And if I may, Senator, solar electric propulsion 
is another area of intersection between the private and public 
sector. SEP is the future for satellite systems, which is 
already arriving, and the European Space Agency is subsidizing 
SEP systems, not just for exploration, but for commercial 
pursuit of the satellite business. As you say, we should be 
leveraging the International Space Station, and part of that 
could be a SEP demonstration on the ISS.
    Senator Nelson. OK, now, we're talking about different 
payloads here because with solar propulsion, it's going to be 
that you can move a big mass very slow. I don't want to get 
bogged down in the details. We're talking about a sprint. But 
what Mr. Gerstenmaier said is we're testing one on the ground. 
Eventually, you're going to have to go to space. It's another 
reason we need the Space Station up there, as a platform to do 
the testing.
    All right, let's talk--I want to get to you, Dr. Dumbacher, 
but let me ask Mr. Gerstenmaier first. Asteroid Redirect: now, 
I don't know why that has gotten some political commentary in 
it. You said something I think prophetic a while ago. You said 
what we did when Kennedy said we're going to the Moon and back, 
and then leave it to the technicians, the engineers, and the 
scientists to decide how we're going to do it. All right, we 
said we're going to Mars, the President said that. You all came 
up with an Asteroid Redirect, and yet we've had political 
commentary that that's not the thing to do. Do you want to 
comment about that?
    Mr. Gerstenmaier. Yes, when we looked at the Asteroid 
Redirect Mission, we knew we needed to look at electric 
propulsion to potentially position large cargo in the vicinity 
of Mars because even with the advanced propulsion, it's still 
going to take a while to get to Mars, you're going to have to 
generate propellant on the surface of Mars to come back, but 
that's a very long journey. So we're going to have to carry 
supplies in some way. So we need electric propulsion to move 
large masses.
    The Asteroid Redirect Mission does that, it builds electric 
propulsion. It builds off of communication busses, that Mike is 
aware of, to actually move those large masses. We move a large 
boulder to simulate effectively a cargo that we could be 
moving. We also bring that back to the vicinity of the Moon, 
where we can then do activities with crews to interact with 
that large asteroid boulder. We can remove samples with crews.
    We need to learn how to do spacewalks where there is not 
continuous communication with the crews like there is in low 
Earth orbit. We'll do that around the Moon, where there are 
periodic comm outages, the crews will have to be more 
autonomous. Those crew interactions remotely and being 
independent are direct actions that we need to understand when 
we go to Mars.
    So when we took all of those capabilities and we looked at 
what we needed to go do, this Asteroid Redirect Mission became 
a very excellent way to realistically demonstrate and learn the 
skills and develop the hardware, techniques, and capabilities 
that will be needed for Mars. So that's the genesis of how the 
mission came up and that's how it fits in the vision for Mars.
    We may not have done as good a job at the beginning 
explaining what we did, maybe that's some of the problems, but 
I think we've crisped that discussion up. Our teams are moving 
forward, we're making good progress. We're understanding the 
benefits of this directly, and it has direct application to 
what we're trying to do in the Journey to Mars activity we're 
pursuing.
    Senator Nelson. May I impose on the Chairman to have 
Professor Dumbacher comment?
    The Chairman. Sure.
    Mr. Dumbacher. Yes, Senator, I think the Asteroid Redirect 
Mission is one of those things that is in the system. Back to 
my point that we need to figure out what needs to be 
accomplished and go accomplish it. In the list that Bill, Mr. 
Gerstenmaier, just gave you, I think is an excellent list. I 
would add one thing to it, and that is, we have to learn how to 
live and work in space further and further away from home. 
Right now, our astronauts are an hour and a half away, 2 hours 
away, from getting home safely. When we go to the Moon, in our 
past experience with Apollo, we were 3 days away. In the 
distant retrograde orbits, and eventually working our way out 
to Mars, we're going to be 9 days away from home, and that sets 
a whole new standard for operations, how you handle abort 
scenarios, how do you handle the human life and maintaining 
human life in abort scenarios, as well as developing and 
designing hardware that has much better reliability than we 
have today.
    We have to have the ability to repair that hardware in 
place. We can't just call the guys up back on Earth and say, 
``Send me something up on the next ship,'' because we're 
further away from home and we have to learn--that changes the 
whole thought process, the whole mentality, and activities in 
the cislunar space gives us that experience base that we can 
build from to go on to Mars.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. I want to thank all of 
the members who testified. Before we close, I want to ask for 
unanimous consent to insert the following letters into the 
hearing record: a letter from Virgin Galactic, and a letter 
from Planetary Society. Without objection, they'll be admitted 
to the record.
    [The information referred to follows:]

     Prepared Statement of George Whitesides, CEO, Virgin Galactic
    Virgin Galactic, along with a number of other innovative companies 
in the commercial space sector, is aiming to provide cost-effective, 
frequent, and responsive access to space for small payloads within the 
next two years. This next generation of launch capabilities will 
advance our country's leadership in space, and will strengthen our 
industrial base and national security.
    U.S. companies combined invested nearly $1 billion to develop these 
new launch capabilities. We have been able to make such a significant 
investment because for decades, successive Administrations have worked 
with Congress, on a bipartisan basis, to support the commercial space 
transportation industry and to prevent government programs from 
unnecessarily competing with industry.
    One issue--the potential commercial use of refurbished ballistic 
missile rocket motors--has been examined multiple times over the last 
25 years and has been determined to be against our national interest. 
However, once again, a few companies are now arguing that the U.S. 
Government should make up to 900 excess ballistic missile assets 
available to private companies to be used for commercial launch 
services. Such a decision would have lasting, negative impacts. In 
particular, it would:

  <bullet> Flood the market with artificially cheap launch vehicles, 
        just as several U.S. companies are fielding their own launch 
        vehicles;

  <bullet> Discourage further investment in small satellite launch, and 
        in other aerospace capabilities where there is a risk of 
        government competition; and

  <bullet> Pick winners and losers in the marketplace, with one company 
        receiving a windfall and the rest being forced to compete 
        unfairly.

    Virgin Galactic urges that Congress maintain its longstanding 
policy in support of commercial launch capabilities. We believe it 
would be especially unwise to make any changes before this issue is 
examined by the Department of Commerce, the Department of 
Transportation, and other involved agencies.
    Failing to limit the use of excess ICBMs will stifle innovation for 
emerging commercial space companies while favoring a few established 
aerospace businesses and damage our country's space industrial base. A 
radical change in U.S. space policy now would have significant negative 
impacts on these commercial companies while increasing cost of services 
to the Government.
                                 ______
                                 
     Prepared Statement of Casey Dreier, Director of Space Policy, 
                         The Planetary Society
    Today, the United States leads the world in space exploration. No 
other nation has landed humans on the Moon. No other nation has 
successfully landed on Mars or driven rovers on its surface. No other 
nation has visited every planet in the Solar System. The International 
Space Station (ISS) is the largest international civilian science 
project and most complex spacecraft in history. The ISS would not exist 
without U.S. leadership. There is a growing commercial space sector in 
the U.S. that has launch capability to low-Earth orbit for cargo and 
soon for humans. No other nation has accomplished as much, explored as 
many places, or advanced as far into space as has the United States.
    While U.S. leadership and accomplishments over the past several 
decades are clear and demonstrable, the outlook ahead is far less 
certain and will depend more on political will than technological 
ability.
    For the first time in human history the technical tools are within 
reach to directly search for life (or signatures of past life) at 
Europa or Mars. Such a discovery would represent a turning point in 
human history, and would help unlock answers to fundamental questions 
about the origin of life and the extent of life beyond our own solar 
system. Congressional rejection of proposed budget cuts to planetary 
exploration have ensured that NASA will continue to be the leader in 
deep space exploration. Similar congressional and White House support 
has been critical to the health of NASA other leading science 
divisions: Earth Science, Astrophysics, and Heliophysics. NASA's 
sciences are actively working on next generation missions such as the 
Mars 2020 sample-caching rover, the James Webb Space Telescope, and 
Solar Probe Plus that will all return unprecedented science. Missions 
beyond these will depend on continued bipartisan support of Congress 
and the White House.
    U.S. is the clear leader in human spaceflight, not just by NASA to 
the ISS, but through an advanced commercial sector that has developed 
(and is developing) its own independent launch capability with 
ambitions for humans and commerce for low-Earth orbit and beyond.
    NASA's human space exploration program, however, faces far greater 
uncertainty. While there is widespread support for the goal of sending 
humans to Mars--a goal we strongly support--NASA has yet to define a 
plan and strategy for how and when it hopes to achieve this goal. To be 
clear, NASA is making progress developing some of the key components, 
such as the Space Launch System (SLS) and the Orion crew vehicle, and 
NASA has adopted Mars as its organizing principle for human 
exploration. But an intent to send humans to Mars is not enough to 
sustain what will be a multi-decadal, multi-Administration program.
    The Planetary Society believes that NASA should, and can, develop a 
sustainable, affordable, and executable human exploration program 
leading to Mars, and should do so soon. To help advance the debate on 
how NASA might move forward, The Planetary Society convened a workshop 
last year that brought together key leaders in industry, NASA, and the 
scientific and public policy communities. The workshop provided a 
broad-based, expert synthesis of the technical, programmatic, and 
policy issues necessary to create a sustainable program of human Mars 
exploration.
    A key conclusion of the workshop was that the goal of sending 
humans to Mars is attainable and affordable if NASA develops a minimal 
architecture focused on sending humans to Mars. We evaluated one 
proposed plan in the Society's Humans Orbiting Mars report (attached), 
which would send an orbital mission to Mars in 2033 as a critical step 
to safely landing humans on the surface shortly thereafter. The 
workshop found that such a program made excellent use of existing 
hardware programs, was technically feasible with existing technology, 
and would fit within a human spaceflight budget that grows only with 
inflation. We do note that this is only possible if NASA hands off 
primary funding responsibility for the International Space Station in 
the 2024-2028 timeframe. More recently, Lockheed-Martin released a 
similar minimal architecture concept called Mars Base Camp, which 
embraces many similar ideas as our report, though it advances the first 
human mission to Mars orbit to 2028.
    No matter which ultimate strategy is selected, a key component for 
any future Mars architecture is a deep space habitat to sustain humans 
during the long voyage to the Red Planet. Fortunately, Congress has 
provided NASA with funds in FY 2016 to begin initial formulation of 
such a habitat, and we encourage NASA to focus its near-term human 
spaceflight efforts on developing and validating this hardware in cis-
lunar space. A cis-lunar habitat can serve as a testbed for long-
duration, closed-loop life support, deep space operations, and provide 
enabling support for international or commercial partners should they 
wish to explore the lunar surface. This allows NASA to enable broad 
access to the Moon while maintaining a hardware development path 
focused on Mars.
    The United States has an opportunity to lead the world to Mars--and 
in doing so U.S. leadership in human space exploration will be assured. 
NASA's scientific efforts already demonstrate clear vision and 
leadership, and congressional actions have been crucial to enabling 
this success. The future for human and scientific exploration is a 
matter of political will, and Congress has an opportunity to 
demonstrate strong support for both as the White House transitions in 
2017.
                               Attachment
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Nelson. Mr. Chairman, may I ask one more question? 
I didn't know you were ready to adjourn.
    The Chairman. Sure.
    Senator Nelson. I thought we were going back through 
another round, and so I'll just cut it real short.
    I want to ask Mr. Gerstenmaier if he could tell us, what 
have we learned from the two failures of the cargo resupply?
    Mr. Gerstenmaier. Cargo, yes. Again, I think when we set up 
the cargo resupply program, it's important to recognize we set 
it up and we recognized we could take more risk with our cargo 
than we could with crew flights. So it was purposely designed 
where NASA protected really the Space Station to make sure 
these vehicles could not damage the Space Station, but we 
essentially let the private sector manage the launch 
requirements, manage the launch reliability, manage the launch 
safety.
    So this was a chance for us to see what industry could 
really do with minimal NASA involvement. And we recognize we 
might have some failures, but that would not be a problem to us 
overall because we had robust planning and we had enough cargo 
flights and enough diversity that we could keep stations 
supplied, so we could tolerate failure.
    I think what we learned is that the private sector can 
recover from these failures fairly quickly. You know, we didn't 
have to stand down for an extended period of time for 2 years 
to go do an investigation to write a big report. They 
understood what failure occurred, they were very motivated to 
get back flying again.
    In the case of the Orbital ATK vehicle, they knew they were 
going to have to redesign their launch vehicle, so they went 
out to the market and they found another launch vehicle to go 
launch on. They found the Atlas 5 that was available to go 
launch on to keep their cargo vehicles flying, and so they were 
able to fly two flights on the Atlas 5 vehicles and keep the 
Station resupplied.
    So that showed the innovation, that they could take a 
spacecraft that was designed to fly on one rocket, move it to a 
different rocket, and still supply the Station with really no 
NASA involvement. They did that on their own. They did that 
based on their own knowledge. And that shows the resilience of 
the private sector to recover from those failures.
    In the case of SpaceX, again, they turned around very 
quickly. They understood what their problem was. Within a 
matter of days, they were actually in a test facility on the 
ground testing the failure that they thought had occurred on 
orbit to verify that that failure occurred. That getting into 
test was much faster than I could have ever done on a NASA 
side. By the time I would have had the ability to get contracts 
written and done the proposals and put the test sequence in 
place, it would have been a half a year. They did that in 2 
days. They were very quick getting back. They involved us in 
that. We got to see the activity. And again they returned to 
flight.
    So I think we provided them some comments on ways they can 
get better, some things they can think about from a systems 
engineering standpoint, but I think what we really learned is 
the private sector, if we give them the right incentives and we 
have the contracting structure set up, they can deliver the 
capabilities that we, NASA, need in a very effective manner.
    The Chairman. Senator Peters wanted to give a brief closing 
statement.
    Senator Peters. Right. Thank you. I just want to say that, 
because of time constraints, we have many questions. I'll look 
forward to have an opportunity to following up with each of 
you. And thank you so much for your testimony.
    I just want to leave with one thought, Mr. Gerstenmaier. 
You mentioned about the Space Station generation. I'm part of 
that Apollo generation with all of you, but I had an 
opportunity to see this firsthand, which is why it's so 
important that we continue to focus on this with NASA. Is one 
of the programs you had with a high school in Michigan where 
the students all came in, in a big assembly and had an 
opportunity to talk directly to the Astronauts on the Space 
Station as they were floating in the Station. And I was up on 
stage looking out at the audience, and the look on the faces of 
those young people, how excited they were. They were asking 
fabulous questions, and then after the program was over, I 
asked them, ``How many of you would like to go into engineering 
or science?'' and the whole auditorium raised their hand.
    So it is an incredibly powerful thing. Thank you for what 
you're doing. Thank you all for inspiring our next generation 
to be great scientists and explorers.
    The Chairman. Well, thank you very much. And I will say if 
we truly want to inspire our Nation, we could have a program to 
launch Congress into space----
    [Laughter.]
    The Chairman.--but that may be a more ambitious endeavor, 
and the nice thing is it would only be a one-way trip.
    [Laughter.]
    The Chairman. With that, I want to thank all the witnesses 
for being here, for your learned testimony. And the hearing 
record is going to remain open for 2 weeks. During that time, 
Senators are asked to submit any questions for the record. Upon 
receipt, the witnesses are requested to submit their written 
answers to the Committee as soon as possible.
    And with that, I want to thank you again for being here. 
And this hearing is now adjourned.
    [Whereupon, at 4:11 p.m., the hearing was adjourned.]

                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                        William H. Gerstenmaier
    Question 1. Kennedy Space Center and the state of Florida is the 
world's space capital with the largest concentration of aerospace 
launch providers and suppliers. We've already seen Apollo, Shuttle, and 
ISS cargo launches from there and soon both Commercial Crew and SLS/
Orion will be launching. Could you discuss what this means for the 
future of Florida's Space Coast, and what you foresee happening in the 
State in the next few years?
    Answer. Under NASA's human spaceflight plans, Kennedy Space Center 
(KSC) will continue to be a vibrant hub of activity, serving as the 
launch site for future human deep space missions (using the Space 
Launch System [SLS] and Orion) and Commercial Crew missions to the 
International Space Station (ISS), and as one of the launch sites for 
Commercial Resupply Services (CRS) flights to ISS. We also expect 
commercial launch service providers under contract to NASA's Launch 
Services Program (LSP) to continue to use the Cape as a launch point 
for NASA's planetary robotic probes and the civil sector's 
geosynchronous communication and weather satellites.
    In addition, NASA has been working with both the State of Florida 
and commercial entities to provide a number of assets for use by the 
commercial space industry (e.g., Orbiter Processing Facility 3 and 
associated Processing Control Center, Launch Complex 39A, and the 
Shuttle Landing Facility and associated land).
    KSC is being transformed from a government-and program-focused, 
single-user launch complex to a more capability-centric and cost-
effective multi-use spaceport, enabling both government and commercial 
space providers. NASA's 21st Century Space Launch Complex (21CSLC), 
extending from FY 2011 through FY 2017, has been modernizing and 
transforming the Florida launch and range complex at KSC, Cape 
Canaveral Air Force Station (CCAFS), and Wallops Flight Facility (WFF) 
in Virginia into a more robust launch capability that can support 
multiple users. Beneficiaries of this activity included current and 
future NASA programs, other U.S. Government agencies, and commercial 
industry.
    For further information on planned developments at KSC through 
2032, please see the KSC Master Plan at: http://
masterplan.ksc.nasa.gov/.

    Question 2. During the birth of the Apollo program, the United 
States, under the leadership of President John F. Kennedy, was 
determined to beat the Soviets to the moon. Is the United States still 
in a position to remain competitive and challenge the likes of other 
global powers?
    Answer. The Administration and Congress share the goal of 
sustaining U.S. leadership in space exploration, and NASA is working to 
extend human presence into the solar system and to the surface of Mars 
through an integrated human and robotic exploration strategy that 
yields a series of tangible milestones and capabilities that lead 
toward future human missions to Mars. This strategy embraces 
international and commercial partnerships and maintains America's role 
as the world's leader and foundational partner in space exploration. In 
building the SLS and Orion, as well as supporting ground systems, 
developing deep space habitation concepts, and proposing investments in 
technology development programs that are critical to any sustainable 
and affordable space exploration program, the U.S. is creating 
capabilities for mounting deep space missions that no other nation 
possesses.
    In low Earth orbit (LEO), the International Space Station (ISS) is 
helping to cement continuing U.S. leadership in human spaceflight, with 
over 15 years of humans living off the planet, and Station is a clear 
demonstration of the benefits to humankind that can be achieved through 
peaceful global cooperation. Through the encouragement of a LEO 
economy, NASA is supporting the development of competitive American 
industrial capabilities and markets. The ISS partnership, with America 
as its leader, is very important; leadership in space brings with it 
economic growth, technological prowess, and national pride, and 
contributes to American global leadership more broadly.

    Question 3. As the Senate looks to reauthorize NASA in the coming 
year, what reforms do you suggest?
    Answer. The legislative proposals noted below, which were approved 
for the 113th Congress, are still of great interest to NASA:

  <bullet> Astronaut Occupational Healthcare--would provide the 
        Administrator the authority to allow NASA to perform medical 
        monitoring and treatment of occupational diseases for current 
        and former crew members.

  <bullet> Retention of Intellectual Property Rights by Users of the 
        ISS National Lab--clarifies the ownership of intellectual 
        property resulting from commercial research projects on the ISS 
        that are conducted under the auspices of the 501(c)(3) entity 
        managing this research.

  <bullet> Authority for Negotiated Disposal of Property for Use by 
        Commercial Space Industry--would provide a mechanism for 
        Federal agencies, including the NASA and DoD, to transfer 
        surplus Federal property directly to commercial space companies 
        when the property is no longer needed by the United States 
        Government.

  <bullet> Authority to Protect Certain Technical Data from Public 
        Disclosure--would align Freedom of Information Act Requests 
        with the requirements of Export Control Laws.

  <bullet> Detection and Avoidance of Counterfeit Electronic Parts--
        this proposal mirrors language contained in the FY 2012 NDAA 
        legislation, and affords NASA the same protections as DoD for 
        the use of trusted suppliers.

  <bullet> Confidentiality of Voluntarily Provided Safety Information--
        would protect the confidentiality of witness statements taken 
        by mishap investigation boards. This is the same authority FAA 
        and DoD currently have.

  <bullet> Confidentiality of Medical Quality Assurance Records--would 
        amend the National Aeronautics and Space Act of 1958 (P.L. 85-
        568) to establish that records created by NASA as part of its 
        medical quality-assurance program are confidential and 
        privileged and may not be disclosed to any person. This is the 
        same authority Department of Veterans Affairs and DoD currently 
        has.

  <bullet> Authority to Support Commercial Space through Acquisition 
        and Joint Infrastructure Development--would provide a mechanism 
        for DoD and NASA to accept funding from the private sector to 
        develop, enhance and maintain the Federal Government's launch 
        range sites. DoD was given this authority in the FY13 NDAA 
        legislation.

  <bullet> Improvements to Baselines and Cost Controls Breach Reporting 
        Process--changes the timeline to better align the breach 
        reporting process to the existing NASA processes on budget 
        formulation.

  <bullet> Removal of Sunset to NASA's Enhanced Use Lease (EUL) 
        authority--Would enable NASA to continue to enter into EUL 
        agreements for underutilized but non-excess NASA real property. 
        NASA's current EUL authority (51 U.S.C. Section 20145(g)) is 
        set to expire in December 2017.

    Question 4. What programs within the agency pull its focus away 
from its intended main goal of placing humans on the surface of Mars?
    Answer. The National Aeronautics and Space Act (as amended) sets 
out diverse yet complementary objectives of aeronautical and space 
activities. The shared underpinning of these objectives is two-fold: 
recognized national needs that can best be met via aeronautics and 
space research and development, and NASA's unsurpassed scientific, 
technical and systems engineering expertise. NASA works to maintain a 
balanced portfolio of programs that enable the U.S. to be the world 
leader in exploration, science, technology, and aeronautics research.

    Question 5. Just last year, the President signed into law the U.S. 
Commercial Space Launch Competitiveness Act, which I proudly 
cosponsored in the Senate. This law clarifies the private right to 
space resources for commercial companies. One of these companies, Moon 
Express based in Cape Canaveral, has made an application to the FAA for 
authorization of its planned maiden mission of its robotic lander in 
2017, which will make them the very first commercial space company to 
land on the lunar surface. How can NASA work with commercial space 
companies, leveraging private sector investment, to increase future 
mission success for NASA from both a scientific and operational 
standpoint?
    Answer. NASA has partnered with U.S. commercial entities to 
transport cargo, and soon crew, affordably to LEO and has focused ISS 
operations and research to enable the development of a demand-driven 
commercial ecosystem. The commercial crew and cargo systems that 
support ISS will also enable NASA to focus its own development efforts 
on the Orion and SLS, which will send U.S. astronauts on missions of 
exploration beyond LEO. It is NASA's intention to transition LEO to 
private platforms and capabilities enabled by commercial markets and 
Government agencies with interest in LEO research and activities, while 
NASA's primary focus for exploration shifts toward deep space beyond 
LEO. Private enterprise and affordable commercial operations in LEO 
will enable a truly sustainable step in our expansion into space.
    In 2014, NASA introduced an initiative called Lunar CATALYST 
(``Lunar Cargo Transportation and Landing by Soft Touchdown'') and 
entered into competitively awarded partnerships with three U.S. firms 
(Astrobotic Technology, Masten Space Systems, and Moon Express) to 
provide in-kind support to develop commercial lunar robotic landing 
capabilities. The purpose of the initiative is to encourage the 
development of U.S. private-sector robotic lunar landers capable of 
successfully delivering payloads to the lunar surface using U.S. 
commercial launch capabilities. Commercial lunar transportation 
capabilities could support science and exploration objectives such as 
sample returns, geophysical network deployment, resource utilization, 
and technology advancements.
    NASA is assisting SpaceX in developing the capability to land an 
uncrewed Dragon spacecraft on the Martian surface (``Red Dragon''). 
This partnership began in 2014 as part of the Collaborations for 
Commercial Space Capabilities initiative. In October 2015, SpaceX 
requested an expanded level of support from NASA to pursue a 2018 
flight opportunity to Mars. NASA performed an internal feasibility 
study which determined that the support was feasible, would cost 
approximately $30 million, and would benefit NASA with flight data in 
the Mars environment on supersonic retro-propulsion, a candidate 
technology for human-scale Mars entry, descent, and landing (EDL). NASA 
approved proceeding in January 2016, resulting in a Space Act Agreement 
(SAA) amendment being executed in April 2016.
    NASA learned in 2014 and 2015 through a Request for Information and 
studies solicited through a Broad Area Announcement of emerging 
commercial interest in the Asteroid Redirect Mission (ARM) to answer 
questions in and act as a catalyst for future asteroid mining 
opportunities. Commercial industry was represented on the Formulation 
Assessment and Support Team in late 2015 and early 2016 which provided 
critical assessment for requirements formulation and partnership 
strategy. NASA released in early September 2016 a Broad Area 
Announcement soliciting partnerships for hosted payloads on the ARM 
robotic spacecraft and an investigation team to define investigations 
and exploit opportunities for the mission to benefit broad interests.
    NASA has also been undertaking substantial private-sector and 
international engagement to define habitation concepts, systems, and 
implementation approaches to cost-effectively achieve NASA's goals for 
deep space and enable progress towards LEO commercial space station 
capabilities. The Agency's Next Space Technologies for Exploration 
Partnerships (NextSTEP) Broad Agency Announcement (BAA) is an effort to 
stimulate deep-space capability development across the aerospace 
industry.

  <bullet> NASA issued the original NextSTEP BAA to U.S. industry in 
        late 2014. In March 2015, the Agency selected 12 awardees--
        seven in habitation, three in propulsion, and two in small 
        satellites. NASA has since entered into fixed-price contracts 
        with the selectees.

  <bullet> In April 2016, NASA issued a NextSTEP-2 BAA, an omnibus 
        announcement covering all aspects of basic and applied 
        supporting research and technology for human space exploration 
        and robotic precursor activities. The April release of the 
        NextSTEP-2 BAA included Appendix A: Habitat Systems, which is 
        focused on developing deep space habitation concepts, resulting 
        in ground prototype units. This ground-based effort will 
        support development of deep space long-duration habitation 
        concepts and demonstrate systems that NASA will later need to 
        test in the microgravity environment of space. The objective is 
        to identify habitation concepts that can support extensive 
        human spaceflight missions in the Proving Ground of cislunar 
        space and beyond while encouraging application to commercial 
        LEO capabilities. One goal of this public-private approach is 
        to enable the United States to develop the deep space 
        habitation capability at a lower cost than through a cost-plus 
        procurement approach. In August 2016, NASA announced the 
        selection of six proposals from U.S. companies under NextSTEP-
        2. NASA intends to perform integrated ground testing using 
        habitation capabilities developed by the commercial partners in 
        2018.

    Question 6. NASA's Viking Lander 1 successfully reached the Martian 
surface on July 20, 1976. Exactly seven years before that, man landed 
on the moon. It has been 40 years now since Viking 1 reached Mars. Has 
NASA appropriately used its funding since then to put man on Mars?
    Answer. Since the Viking missions to Mars in the 1970s, NASA has 
learned a great deal--both about the Red Planet and about how to live 
and work in space for extended durations. Through a robust program of 
robotic exploration, the Agency has sent a dozen missions to Mars since 
Viking and collected data about many aspects of the planet, including 
its varied surface features (including evidence of past and present 
water on Mars) and atmosphere--a critical foundation for future human 
exploration. The Space Shuttle Program enabled the conduct of science 
and technology research and development by astronauts in LEO, the 
launching of key science missions, and the construction of the ISS, the 
foundation of our Journey to Mars.
    NASA's robotic missions since Viking have paved the way for greater 
understanding of Mars' surface and atmosphere that informs where and 
how humans will get to Mars. Understanding of resources needed for in 
situ resource utilization, radiation environments, terrain features, 
landing techniques, and autonomous operations have all aided the 
decisions being made today in architecture trade studies to reach Mars.
    Now, NASA's strategy is to make human exploration of the solar 
system affordable and sustainable. Our Journey to Mars is guided by 
Administration policy as well as the strategic direction included in 
the NASA Authorization Act of 2010; the Agency is well positioned to 
continue on this long-term mission. Today on the ISS, we are already 
conducting research and evolving the critical technologies necessary to 
support humans on the Journey to Mars. From this Earth-Reliant phase in 
LEO aboard the ISS, we will then move into the Proving-Ground phase 
deeper into cislunar space around the Moon with the Orion crew vehicle, 
SLS (as well as the ground systems that support them), and other 
commercial and international capabilities. We will demonstrate key 
capabilities such as high power solar electric propulsion, deep space 
docking and crew EVA interacting with a natural space object through 
the Asteroid Redirect Mission, as well as deep-space habitation 
capability. Once we have developed the required technologies and 
practiced the techniques necessary in these environments, we will move 
on into the Earth-Independent phase, in which we will send our crews on 
missions of exploration and on to Mars in the 2030s.

    Question 7. As you know, earlier last week the Juno Spacecraft 
entered into Jupiter's orbit. It is my understanding that NASA plans to 
terminate Juno in CY18 to avoid contamination of Jupiter's environment. 
Do you feel NASA's plans for this $1.1B mission after its completion in 
February 2018 is an efficient use of Federal funds, or could Juno's 
mission be extended until it experiences hardware failure?
    Answer. Juno's primary goal is to reveal the story of Jupiter's 
formation and evolution. Using long-proven technologies on a spinning 
spacecraft placed in an elliptical polar orbit, Juno will observe 
Jupiter's gravity, magnetic fields, atmospheric dynamics and 
composition during its planned primary mission.
    While facilitating the science goals, Juno's close orbit also 
enables it to avoid the most intense region of Jupiter's harmful 
radiation, which is concentrated in a belt around the planet's equator. 
In this region, ions and electrons zip around at nearly light speed and 
can damage a spacecraft's electronics. Even with this special orbit and 
the titanium vault that houses the electronics, the amount of radiation 
that's expected to bombard Juno over 20 months of science operations is 
the equivalent of more than 100 million dental x-rays. This extreme 
dose of radiation is destructive to electronics and is the main 
limiting factor for the length of the mission.
    The baseline plan for the end of mission is to purposely steer Juno 
into Jupiter prior to a loss of control due to radiation damage to the 
computers, so as to not risk any chance of contaminating Europa or the 
other potentially habitable moons. However, NASA is already evaluating 
alternative plans that would potentially allow for an extended mission. 
This includes the idea of making minor orbital adjustments so that Juno 
would eventually enter Jupiter on its own, even if control of the 
spacecraft is lost due to the radiation damage to the spacecraft 
components. This would allow for additional science data above and 
beyond what is expected from the primary mission, if an extended 
mission is approved.

    Question 8. How often have our space exploration programs been able 
to conduct operations beyond the forecasted end date?
    Answer. Science missions that have successfully completed their 
primary objectives are eligible to enter into extended operations to 
continue conducting science. Such missions are reviewed by a panel of 
established and respected senior scientists from the community, to 
assess the scientific value and cost effectiveness of the proposed 
extension. SMD is currently flying 46 extended science missions, and 
since 1990 has extended over 40 more.

    Question 9. NASA recently conducted a successful expansion of the 
Bigelow Expandable Activity Module (BEAM) aboard the International 
Space Station (ISS). Can you elaborate on how technology such as this 
can help alleviate some of the payload obstacles created by sustaining 
human life during deep space exploration and possible extraterrestrial 
surface landings?
    Answer. NASA is investigating concepts for habitats that can keep 
astronauts healthy during space exploration. Expandable habitats are 
one such concept under consideration--they require less payload volume 
on the rocket than traditional rigid structures, and expand after being 
deployed in space to provide additional room for astronauts to live and 
work inside. The Bigelow Expandable Activity Module (BEAM) is the first 
test of such a module attached to the ISS. It will allow investigators 
to gauge how well it performs overall, and how it protects against 
solar radiation, space debris and the temperature extremes of space.
    In late May, BEAM was filled with air and expanded. Astronauts 
enter BEAM on an occasional basis to conduct tests to validate the 
module's overall performance and the capability of expandable habitats. 
After the testing period is completed, BEAM will be released from the 
space station to eventually burn up harmlessly in the Earth's 
atmosphere.
    Through the NextSTEP activity, noted in the response to Question 
#5, above, NASA is engaged with several commercial partners to advance 
and test a variety of habitation technologies. This activity, plus 
related technology developments and partnerships, will enable 
deployment of a deep space habitation capability in the mid-2020s, 
which in turn will validate systems needed for the long journey to Mars 
in the 2030s and beyond.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        William H. Gerstenmaier
    Question 1. Congress recently authorized an extension of the 
International Space Station until 2024. Mr. Gerstenmaier, what human 
spaceflight capabilities or services will NASA need in low-Earth orbit 
after we retire the space station?
    Answer. ISS operations in LEO constitute a foundation for future 
exploration missions, but once key research and technology development 
efforts have been completed, NASA plans to begin operating at greater 
distances from Earth. NASA is actively working transition strategies 
for the post-ISS era and is engaged with the private sector to foster 
both commercial demand and supply for LEO services. It is NASA's 
intention to transition LEO to private platforms and capabilities 
enabled by commercial markets, academia and government agencies. NASA 
has no specific plans or requirements to conduct human spaceflight 
activities in LEO after the conclusion of ISS operations, but should a 
requirement arise, NASA would obtain services from commercial 
capabilities on the same basis as other users.

    Question 2. Mr. Gerstenmaier, what is preventing NASA from more 
actively monitoring, diagnosing, and treating former astronauts for the 
long-term health effects from space travel?
    Answer. The present monitoring authority was derived from limited 
testing performed under NASA's Longitudinal Study of Astronaut Health 
(now known as the Lifetime Surveillance of Astronaut Health (LSAH)).
    NASA does not believe that existing authorities are sufficient to 
provide ongoing comprehensive medical evaluation, diagnosis, and 
treatment of former astronauts.
    NASA has not been authorized to use appropriated funds to provide 
on-going medical care for retired astronauts that may be result of 
exposure to space. Without this authority, NASA is unable to provide 
preventive health monitoring that should be accomplished for retired 
astronauts following their space flight exposures or to appropriately 
remedy such conditions.
    In the absence of an accepted covered injury, the existing Federal 
Employees' Compensation Act (FECA) does not provide for medical 
monitoring and testing of the type needed here. If given the authority, 
NASA can readily apply national level space medicine and disease 
specific expertise to provide a more comprehensive evaluation of 
potential causation, with the goal of much earlier detection.
    While the Space Act gives the Administrator broad authority to 
``plan, direct, and conduct aeronautical and space activities,'' the 
Agency does not believe the Space Act expressly provides it the 
authority to diagnose and treat former employees.
    Pursuant to 29 U.S.C. Sec. 668, it is the responsibility of each 
agency to establish an occupational and safety program and provide a 
safe environment for its employees. NASA's authority to provide 
occupational safety and health programs is limited to current Federal 
employees.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                        William H. Gerstenmaier
    Question. In the recent debate on the defense bill, we took a close 
look at the role that Russian-made rocket engines play in lifting 
military payloads into space. The House and Senate-passed versions of 
the FY17 National Defense Authorization Act (NDAA) both permit the U.S. 
Air Force to award contracts for up to eighteen national security space 
(NSS) launches powered by Russian-made rocket engines. They also 
establish that no Russian-made rocket engines may be used for a NSS 
launch after 2022. It is my understanding that no such restrictions 
currently apply to commercial or civilian launches. I am very concerned 
about relying on Russian-made rocket engines for access to space and am 
eager to see American-made rocket engines become the means of taking 
defense-related, civilian and commercial payloads into orbit.
    What steps is NASA taking to ensure that Russian-made rocket 
engines are phased out of civilian and commercial space flight? As 
additional American-made rocket engines are developed, is your agency 
committed to contracting with launch firms that only use domestically 
produced rocket engines? What is the timeline for a full transition to 
American-made rocket engines for NASA launches?
    Answer. NASA follows U.S. law and policy for its acquisitions. NASA 
is supportive of the Department of Defense's strategy to transition to 
domestic launch systems by 2022, and is providing NASA expertise and 
access to NASA facilities to support the DoD-led efforts.
    NASA relies on the U.S. space transportation industry, and what it 
is able to offer, for the commercial launch services NASA acquires, and 
expects its commercial providers to provide launch solutions that meet 
their contractual commitments.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Gary Peters to 
                        William H. Gerstenmaier
    Question. We are going to need a ``Mars Ascent Vehicle''--a rocket 
that can lift astronauts off the Martian surface back into space for 
the journey home. Additionally, the National Academies identified the 
need to return a sample from Mars as a top priority for NASA's 
planetary science program. This would also require a Mars Ascent 
Vehicle of sorts. Mr. Gerstenmaier, What progress is there on 
developing a Mars Ascent Vehicle for a human mission? Does it make 
sense to prove out the technologies for a crewed Mars Ascent Vehicle on 
a robotic sample return mission from Mars?
    Answer. At this time it is premature to begin developing a Mars 
Ascent Vehicle. As part of Mars architecture studies, NASA is studying 
the full range of architectural elements required for such a mission, 
including: in-space power and propulsion; entry, descent and landing; 
in situ resource utilization (ISRU); Mars landing site selection; 
surface and mobility operations; life support systems; and ascent from 
Martian surface, etc. ISRU can yield very different systems design and 
mission considerations, and shows large potential gains from an overall 
mission design standpoint. NASA is beginning to understand options to 
pursue ISRU technology development. Given the difference in scale and 
performance between a robotic mission and a human mission, it is not 
obvious that the two vehicles would be based upon exactly the same 
technologies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                         Dr. Mary Lynne Dittmar
    Question 1. Kennedy Space Center and the state of Florida is the 
world's space capital with the largest concentration of aerospace 
launch providers and suppliers. We've already seen Apollo, Shuttle, and 
ISS cargo launches from there and soon both Commercial Crew and SLS/
Orion &#x200E;will be launching. Could you discuss what this means for 
the future of Florida's Space Coast, and what you foresee happening in 
the State in the next few years?
    Answer. Kennedy Space Center (KSC) and Florida are indeed critical 
to U.S. development and use of launch capabilities, and competitiveness 
vis-a-vis launch markets across the world. The entrance of new players 
into launch markets has had disruptive effects in both the positive and 
negative sense. On the positive side, innovation appears to be driving 
down cost, which will in turn make U.S. markets more competitive, 
assuming that performance follows. On the negative side, uncertainty 
regarding outcomes poses challenges for the government, industry, 
customers, and investors who have been and may continue seek entree to 
what they see as a growing space sector. It is imperative that we 
leverage new opportunities to the benefit of U.S. taxpayers and the 
economy without compromising core capabilities and missions that are 
essential to national security and civil missions, including NASA's 
exploration program.
    Assuming that current trends continue in a positive direction, 
KSC's work--including spacecraft prep and payload integration, 
development of ground systems, and the actual launch operations 
themselves--are an integral part of both government and non-government 
(private) programs. As the Nation's most active spaceport, KSC (and 
Cape Canaveral Air Force Station/CCAFS) are crucial enablers of the 
economic development of low-Earth orbit, and for launching the new 
generation of exploration-class super-heavy launch vehicle--the Space 
Launch System--carrying the Orion crew vehicle farther into space than 
ever before. The state of Florida should continue to benefit as it 
recovers from earlier reductions in force at the Space Coast following 
the end of the shuttle program and will attract more aerospace workers 
who are contributors to the local economy. Thus KSC is a `launch pad' 
in more than one way, returning benefits locally and regionally as well 
as supporting U.S. leadership in the peaceful exploration of deep 
space.

    Question 2. During the birth of the Apollo program, the United 
States, under the leadership from President John F. Kennedy, was 
determined to beat the Soviets to the moon. Is the United States still 
in a position to remain competitive and challenge the likes of other 
global powers?
    Answer. The United States is still in a position to remain 
competitive. However, our ability to maintain our global leadership is 
dependent upon political will and sufficient funding for what are long-
lead-time programs, with horizons that stretch across multiple 
Congresses and Administrations. It is said that Rome wasn't built in a 
day--indeed it wasn't; it was built over hundreds of years. The same 
goes for the pyramids of Egypt. Those governments operated on a very 
different set of values and principles from those of the U.S. in the 
21st century. However, successive leaders in those days were able to 
grasp the vision and importance for their nations (or nation-states) to 
build such monuments, establishing them as centers of their regions 
and--in the case of Rome, for a time--the world. Surely we are capable 
of the same vision, and understand the value of global leadership. The 
architecture we are building--in low Earth orbit, and in deep space--
these are our pyramids.
    History teaches us that great nations explore, and that those that 
turn away from exploring, flounder. The case of China burning its 
massive exploration fleet and falling back, away from the burgeoning 
global trade routes and eventually turning inward into feudal states 
may be instructive. It is critical that the U.S. Administration(s) and 
Congress(es) work together to build upon the extraordinary achievements 
of NASA and her industry partners over the past 50 years. Together we 
have taken men to the Moon, furthered detente and the peaceful use of 
outer space with Apollo-Soyuz, built and flown the space shuttle--
establishing knowledge and experience that continues to inform 
innovators struggling to address reusability today--assembled and 
operated the International Space Station that has now involved over 90 
countries in the peaceful pursuit of knowledge and the establishment of 
nascent economic development in low Earth orbit.
    We are now at the cusp of a new era of exploration, one that will 
take humans farther, faster than ever before, and will open the door to 
new scientific missions using the Space Launch System and the Orion 
crew vehicle--leveraging the expertise and leadership that only the 
American space program can provide the world. These systems are pushing 
the limits of technology, employing new manufacturing methods to 
extraordinary tolerances, inventing solutions to the challenges of deep 
space. Just as Apollo did 50 years ago, the knowledge gained by NASA's 
``pushing the envelope'' will be returned to all American citizens, 
eventually spurring even more innovation and advancing U.S. 
competitiveness. It is imperative that the U.S. not turn back. We must 
look ahead and beckon the future with the type of vision and commitment 
we as a nation have demonstrated so many times before. Our 
international partners will follow us, and support our exploration 
goals, if we continue to demonstrate continuity of purpose and 
opportunity for them to join America on its journey in space.

    Question 3. As the Senate looks to reauthorize NASA in the coming 
year, what reforms do you suggest?
    Answer. The 2010 NASA Authorization Act (PL 111-267) defines the 
primary goal of NASA's human space exploration program as ``to expand 
permanent human presence beyond low earth orbit and to do so, where 
practical, in a manner involving international partners.''
    To this I would add ``. . . in a manner involving international and 
industry partners.'' (To be clear, all industry partners are 
``commercial'' by their very nature, returning profit to shareholders 
or investors.) The key thought here is that this vision--wherein the 
United States leads humanity into the solar system on a permanent 
basis--will require collaboration, technology, innovation, industry, 
other nations, new technology development, and the ability to manage 
technology acquisition and programs with a degree of complexity the 
agency has never before attempted (although the International Space 
Station program is an excellent precursor and teacher). A new 
Authorization Act should reaffirm this as a goal, and state explicitly 
that continuing to expand our scientific technical, human exploration 
and habitation, and economic spheres beyond low Earth orbit is 
imperative if the U.S. wishes to control its own destiny. Human space 
exploration has for 50 years been an indicator of global leadership; we 
dare not cede that leadership and our ability to guide the rules of 
engagement in space. Particularly at transitions in Administration--
such as the one upcoming--Congress should reaffirm these goals and our 
national commitment to them.
    In addition, I would offer the following recommendations:

  1.  Continuity of purpose for NASA's strategic direction, and its 
        core exploration programs, including the Space Launch System, 
        Orion and Exploration Ground Systems, to restore our ability to 
        send humans to deep space in 2021, following an un-crewed 
        ``shakedown cruise'' in 2018.

  2.  Support the development of key exploration capabilities, such as 
        deep space habitats and in-space propulsion, to enable robust 
        Exploration Missions on SLS and Orion during the 2020s.

  3.  Reaffirmation of the current path for human space exploration, 
        with the horizon destination of Mars as the eventual goal, but 
        with emphasis upon a ``learn as you go'', discovery-based 
        approach that emplaces the next capability (for example, a deep 
        space habitat), and then the next, as we learn to operate, 
        explore, and conduct science capitalizing on the unique 
        capabilities of human beings. A ``race to Mars'' that may ensue 
        should the focus shift solely to boots on that surface is not 
        consistent with the goal to ``expand human presence'' on a 
        permanent basis. Rather than a race--which we had with Apollo, 
        and for good reason--we are embarked upon an American epoch in 
        deep space, more akin to the opening of the West in our 
        Nation's history. This approach should be to emphasize 
        meaningful progress with milestones that are demonstrable to 
        Congress, the Administration, and in particular the American 
        people.

  4.  Focused investment in key technologies that will be necessary to 
        undertake opening a new epoch. These have been identified in 
        many studies; most recently in the National Research Council's 
        Pathways to Exploration report (2014) and include (a) radiation 
        mitigation, (b) advanced in-space propulsion, and (c) the 
        capabilities an technologies required for entry, descent, 
        landing, and ascent through the Martian atmosphere of hundreds 
        of tons of equipment, consumables, and habitats enabling human 
        presence.

  5.  Sufficient resources and direction to share the journey with the 
        American people to the fullest extent possible--through video, 
        documentaries, digital publishing, social media, remote 
        viewing, and virtual reality participation in missions, real-
        time mission information and updates, opportunities to 
        capitalize on the increasing availability of technology and 
        decreasing transaction costs for such interaction and 
        participation. NASA leads all other agencies in its use of 
        social media, but if this is our ``pioneering'' into space, as 
        many of our citizens who can participate, should participate. 
        As a side benefit, this approach will create missions that are 
        more interactive and open up opportunities for science, 
        education, and inspiration of the next generation of explorers.

  6.  Create an organization with a free hand to further develop and 
        hone NASA's capabilities in technology scanning, selection, 
        harvesting, acquisition, development, and rapid fail 
        approaches. The world has changed, and is continually changing. 
        NASA does not and cannot lead the world in the development of 
        all technologies beneficial to and needed by science, 
        aeronautics, and exploration; instead it must develop methods 
        to identify and select technologies with clear potential to 
        advance its missions, and to rapidly partner to bring these in 
        house or establish reciprocal relationship with the owner or 
        developer of that technology. This is all much easier said than 
        done as it requires changes to procurement, contracting, 
        technology requirements assessment, technology identification, 
        and (probably) further evolution and refinement of the NASA 
        ``Technology Readiness Level'' (TRL) successful pioneered by 
        the agency many years ago and widely adopted since.

  7.  Authorize funding for NASA's exploration programs at the level 
        required to avoid drawing out development beyond the point 
        where costs necessarily rise as a result. In addition, 
        authorize full funding for continued development and operation 
        of the International Space Station, including acquisition of 
        new equipment and capabilities as may be useful to private 
        interests intent upon developing successful space-based 
        businesses in low-Earth orbit. Similarly, continue full funding 
        for NASA's ``Commercial Crew'' and ``Commercial Resupply 
        Services'' that enable provisioning of the ISS and that will 
        return American astronauts to flight to low-Earth orbit even as 
        the Space Launch System will return American astronauts to deep 
        space.

  8.  Fully fund and streamline the accounts associated with the 
        Exploration Systems portfolio. Multiple accounts associated 
        with Orion, SLS and Ground Systems reduce the flexibility of 
        program managers to allocate funding as needed to buy down risk 
        or, alternately, to speed development of elements or sub-
        elements in order to maintain an integrated program schedule, 
        cost, and risk management approach. In addition, multiple 
        accounts encourages additional overhead both within the agency 
        and within extra-agency overseers, inevitably resulting in 
        increased costs.

  9.  Reduce the number of duplicative studies demanded of NASA each 
        year to the minimum required to provide sufficient oversight of 
        NASA activities and expenditures.

    Question 4. What programs within the agency pull its focus away 
from its intended main goal of placing humans on the surface of Mars?
    Answer. With respect, this question is driven not by content of 
NASA's portfolio, but by competition within the portfolio engendered by 
NASA's funding profile, which numerous reviews, studies, assessments, 
reports, and evaluations have determined to be insufficient relative to 
its mission(s). In a budget-and-budget-process-constrained environment, 
it is difficult to argue for additional funding for the agency, yet 
additional funding is precisely what is needed. On the whole NASA 
manages its broad portfolio of science, human exploration, aeronautics 
and technology development/management well, arguably achieving more 
``bang for the buck'' than any other agency.
    The National Research Council's Pathways report recommended an 
increase of double the rate of inflation + another small percentage 
increase in NASA's exploration budget in order to achieve the goal of 
reaching Mars by the 2030s. This recommendation should be extended to 
the agency as a whole. At minimum NASA's funding should track 
inflation. NASA's funding is now less than \1/2\ of 1 percent of GDP, 
yet NASA is the only agency in the government that is tasked 
specifically to create and bring about the vision of an optimistic 
future. As a nation we rely on all of NASA's portfolio to advance 
scientific knowledge, streamline and advance mass transportation 
technology, teach us about our own planet, find and fund promising 
technology, and push human presence into the solar system.
    At the same time, NASA can and should continue to look for 
duplication, obsolescence, and for opportunities to streamline 
bureaucracy and acquisition approaches, as recommended by the 
``Pathways to Exploration'' report.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                         Dr. Mary Lynne Dittmar
    Question 1. We are going to need a ``Mars Ascent Vehicle''--a 
rocket that can lift astronauts off the Martian surface back into space 
for the journey home. Additionally, the National Academies identified 
the need to return a sample from Mars as a top priority for NASA's 
planetary science program. This would also require a Mars Ascent 
Vehicle of sorts. Dr. Dittmar, what opportunities do you see for 
synergy between NASA's science and human exploration programs, be it 
for Mars Sample Return or elsewhere?
    Answer. There is tremendous opportunity for synergy between NASA's 
science and human exploration programs.
    In Congressional testimony in both 2009 and 2013, Dr. Steve 
Squyres, the Principal Investigator for Mars Exploration Rovers, stated 
that human beings are far superior to robots for identifying novel 
features, processing complex information, and exploring new 
environments and can conduct science at a far faster rate with much 
great efficiency than robots. Further, when one accounts for the cost 
associated with maintaining an operations center, developing, testing 
and uploading software upgrades, and the elapsed time associated with 
piecing together scientific returns that come in bits rather than in 
whole, the ``higher costs'' of human-aided scientific research in space 
are not as sharply delineated from robotic missions as is commonly 
believed.\1\ There is no doubt but that human exploration and 
scientific investigation of Mars will yield scientific returns beyond 
that of robotic missions, which is why so many scientists with interest 
in Mars are eager for humans to go.
---------------------------------------------------------------------------
    \1\ Crawford, I.A. (2012). Dispelling the myth of robotic 
efficiency: Why human space exploration will tell us more about the 
Solar System than will robotic exploration alone. Astronomy and 
Geophysics, 53, 2.22-226.
---------------------------------------------------------------------------
    With regard to science enabling exploration, this has already 
happened, notably in the years leading up to Apollo. The U.S. first 
sent probes to the moon in the early 1960s beginning with the Ranger 
series, which finally succeeded in sending back detailed photographs 
and television. The Russian Luna 9 probe soft-landed--the first human-
made object to do so--and demonstrated that the soft regolith would not 
act as a lunar ``sand trap'' into which a lander might sink. The U.S. 
Surveyor series of missions began in 1966, and sent television pictures 
back to Earth that showed the Moon's surface and its physical 
properties in detail. Importantly, Surveyor also collected data on soil 
properties, including chemical features.
    The Surveyor data led directly several discoveries about the Moon's 
composition. Once astronauts were on the surface collecting samples and 
returning them to Earth, the Surveyor data joined the sample data to 
inform new theories about its origins and the origins of the Earth Moon 
system. In addition, the robotic missions provided information that was 
fed directly into the design of missions--including the design of 
crewed lunar landers and ascent vehicles that served the crews of 
Apollo 11, 12, 14, 15, 16, and 17- as well as to help define the 
parameters of surface operations and sojourns.
    With regard to Mars, early work on soil characterization has 
revealed chemical compounds (perchlorates) that will need to be 
addressed via system or procedure designs supporting human exploration. 
The Mars 2020 rover, currently in development, will carry instruments 
that will conduct research and acquire information about Martian 
geology, atmosphere, environmental conditions, and potential 
biosignatures. In addition to the science returns, these studies will 
provide critical information to help determine habitability of Mars for 
human beings.
    With regard to sample return from Mars--as on the Moon, human 
sample return will speed scientific discovery. Sample return can be to 
Earth, or to an orbiting laboratory near Mars or one of its moons. 
There, samples can be researched and guidance provided to humans on the 
surface for additional fieldwork.
    These and other synergies are pervasive throughout the history of 
exploration, and will continue to develop. Together, human exploration 
and science each enable the other.

    Question 2. Mr. Gold's testimony discusses using the International 
Space Station and eventually a future commercial LEO outpost as an 
assembly facility for commercial satellites. Of course, from a NASA 
perspective, we wouldn't have the world changing science of the Hubble 
Space Telescope without human servicing nor would the Space Station 
have been possible. Dr. Dittmar, could you discuss the potential for on 
orbit assembly and servicing techniques in conjunction with the game 
changing lift capabilities of SLS to enable paradigm shifting 
scientific missions, such giant space telescopes that could possibly 
detect life on planets outside our solar system?
    Answer. On orbit assembly has been performed with great success by 
NASA, most notably with the International Space Station. Techniques and 
technology were developed to enable astronauts working in space suits 
to assemble the largest structure ever put in space. The success of the 
system design and production, and the development of procedures for 
assembly, activation, and checkout of the ISS in many phases of 
development, can best be measured by the on-orbit performance of the 
ISS over the past 16 years of human habitation. It has performed in an 
exemplary manner.
    Servicing the ISS--and the Hubble telescope--has been done on 
several occasions by astronauts engaged in ExtraVehicular Activity 
(EVA). In each case, these servicing missions were conducted in a 
relatively benign environment--Low Earth Orbit--shielded from much of 
the radiation found in deep space. Nonetheless the techniques learned 
during assembly and servicing missions will have direct applicability 
to future missions where human beings must manipulate objects both 
large and small for different purposes in locations much more remote 
than LEO.
    Use of the Space Launch System to emplace large aperture telescopes 
in deep space is a very real possibility. The National Research Council 
has identified several flagship missions with large telescopes that 
would be enabled for the very first time by a super-heavy lift vehicle 
such as SLS. These telescopes require massive shrouds and cannot be 
lifted by existing launch vehicles. Depending upon the complexity of 
the assembly task, SLS could carry a crewed Orion spacecraft and a 
telescope for assembly. (The engineering strengths and weaknesses of 
this approach would need to be `traded' against risks to humans v. the 
risk of loss of mission should an unattended telescope run into 
problems.) The speed of the SLS enables rapid transit through the solar 
system, which reduces risk to crewmembers and brings great distances 
within closer ``reach''. Crewmembers could then assemble such 
instruments. In the case of human-aided deployment, servicing could 
also be ``built in'' to the design (see above comment re: trades.) Once 
in place, such instruments would enable us to peer into the origins of 
not only our galaxy, but other galaxies, to investigate dark matter, 
and to provide information about the origins and working of the 
universe--and therefore, our own origins. In the case where human 
servicing was possible, the ability of crew members to address 
disruptions or malfunctions could save the viability of the instrument 
(as was done with Hubble), resulting in loss avoidance of unique and 
powerful scientific observations, and maximizing the benefits of 
national investment in both science and exploration programs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                              Michael Gold
    Question 1. Kennedy Space Center and the state of Florida is the 
world's space capital with the largest concentration of aerospace 
launch providers and suppliers. We've already seen Apollo, Shuttle, and 
ISS cargo launches from there and soon both Commercial Crew and SLS/
Orion will be launching. Could you discuss what this means for the 
future of Florida's Space Coast, and what you foresee happening in the 
State in the next few years?
    Answer. I believe that the future is extraordinarily bright for 
Florida's Space Coast. Due in no small part to the vision and 
leadership demonstrated by NASA Kennedy Space Center leadership and 
personnel such as Robert Cabana, Amy Houts-Gilfriche, and Doug 
Gruendel, as well as the tireless efforts of Frank DiBello and his 
staff at Space Florida, the sunshine state has become a hub for 
commercial space activity. SpaceX's operations and footprint continues 
to grow on Florida's Space Coast and new additions such as Blue Origin 
and Moon Express have added even greater vitality and potential to a 
region that is already synonymous with space exploration.
    However, the renaissance that Florida's Space Coast is experiencing 
could be ephemeral if the United States Government (``USG'') does not 
take decisive action to ensure that the fundamental underpinnings of 
public and private sector launch activities remain strong. 
Specifically, the United States must not abandon human spaceflight in 
low Earth orbit (``LEO''). Although NASA and the private sector should 
continue to leverage the benefits of the International Space Station 
(``ISS'') for as long as possible, the ISS era will soon come to an 
end. Even with an additional extension for the ISS beyond 2024, work 
must begin immediately to develop a commercial replacement. America is 
currently dependent on Russia for launching astronauts, and if NASA and 
the private sector don't address this issue with alacrity, soon after 
the U.S. regains its ability to send its own astronauts to orbit, the 
only destination for those astronauts to travel to could be a Chinese 
space station. Although international cooperation is commendable, 
international dependence is deplorable, and policymakers must take 
action to avoid repeating the same mistakes that were made with crew 
transportation.
    Without an American destination in LEO for astronauts, the growing 
demand for crew and cargo launches from Florida's Space Coast could 
quickly atrophy. Moreover, as demonstrated by SpaceX, there is a 
synergistic relationship between the development of human spaceflight 
transportation systems and the ability of domestic companies to 
successfully compete for global commercial space launch opportunities.
    Beyond the need to continue to support human spaceflight, the USG 
must take expeditious action to bolster domestic satellite 
manufacturers. If the U.S. falls behind other nations, particularly 
China, in next-generation satellite technologies such as satellite 
servicing, optical communications, and high throughput satellites, a 
great deal of launch activity could shift back overseas.
    Moreover, Congress must continue to aggressively support the 
development and launch of the SLS. The heavy-lift capacity provided by 
the SLS is critical to implementing robust beyond LEO human spaceflight 
exploration missions. Other nations are striving to develop heavy-lift 
capabilities and the U.S. cannot fall behind its global competitors in 
this critical arena.
    If these public and private sector activities receive sufficient 
support from NASA and the USG generally, the future of Florida's Space 
Coast will remain bright. However, international competition remains 
fierce and neither Florida nor the country as a whole can afford to 
rest on its laurels.

    Question 2. During the birth of the Apollo program, the United 
States, under the leadership from President John F. Kennedy, was 
determined to beat the Soviets to the moon. Is the United States still 
in a position to remain competitive and challenge the likes of other 
global powers?
    Answer. The U.S. is still in a position to challenge other global 
powers but the Nation's ability to be successful remains in question. 
As described previously, the competition in the commercial satellite 
marketplace is fierce. Rival satellite manufacturing companies in 
Europe and China receive direct funding and subsidies from their 
national governments not just to conduct scientific or military 
missions, but also to support commercial activities. If the U.S. is 
going to continue to be able to compete and challenge other global 
powers much more must be done to bolster domestic private sector 
capabilities. Specific concepts and strategies are described in 
response to the following question.

    Question 3. As the Senate looks to reauthorize NASA in the coming 
year, what reforms do you suggest?
    Answer. Per my testimony, NASA should leverage its influence as a 
customer to encourage the private sector to invest in, develop, and 
operate commercial satellite servicing systems. Specifically, the 
upcoming NASA Reauthorization bill should instruct the Agency to 
identify when and which satellites will require servicing and release 
contingent contracts for domestic companies that can execute the 
requisite missions. As described previously, this will drive private 
sector investment into satellite servicing systems obviating the need 
for further substantial government investments and leveraging private 
sector efficiencies. America will become a global leader in a vital new 
technological and economic arena while simultaneously saving NASA money 
by avoiding the need for the purchase and replacement of existing 
satellite systems. Several domestic companies are already developing 
such capabilities in response to DARPA's Robotic Servicing of 
Geosynchronous Satellites (``RSGS'') program and NASA's Restore-L 
mission. If the NASA Reauthorization bill leverages this progress with 
the introduction of contingent contracts to service NASA satellites, 
America could quickly develop a vital new capability that would enhance 
scientific, commercial, and military operations.
    Moreover, NASA must do more to bolster American technological 
innovation and even the playing field with subsidized foreign 
competition. DARPA has already demonstrated how a government agency can 
play an important role in supporting domestic innovation. DARPA uses 
standing Broad Agency Announcements (``BAAs'') to ensure that any 
company or entrepreneur with a good idea can quickly bring it forward 
without having to wait a year or more for a relevant NASA Request for 
Proposal to be developed, approved, and released. The NASA 
Reauthorization bill should direct the Agency's Space Technology 
Mission Directorate (``STMD'') to adopt this approach and establish a 
series of standing BAAs to support domestic technological innovation. 
Congress should also encourage STMD to mimic DARPA's process which 
begins with the submission of a one-page executive summary. Requiring 
only a single page executive summary substantially reduces the barrier 
to entry that other NASA programs suffer from and will ensure that 
small businesses can participate in the program without immediately 
dedicating substantial resources to proposal development.
    In regard to human spaceflight, again, NASA cannot abandon LEO. In 
order to avoid becoming dependent on a foreign space station the Agency 
must act now to bolster the development of crewed, private sector LEO 
platforms. The first and best way to do this, is to direct the Agency 
to develop a node that can be attached to the ISS that will accommodate 
several commercial habitats while also providing additional docking 
opportunities for crew and cargo delivery systems. This node would 
support the demonstration of multiple habitat technologies and 
commercial operations, preventing the need for NASA to select winners 
and losers and instead properly leaving such decisions to market 
forces.
    The NASA Reauthorization bill should also direct the Agency to, in 
conjunction with a private sector partner, support the demonstration of 
orbital satellite assembly as an ISS pilot program. Like satellite 
servicing, this is another critical capability for domestic companies 
to develop for the U.S. to remain competitive in the global 
marketplace. If NASA can demonstrate the value of orbital satellite 
assembly it will quickly lead to substantial private sector investment 
in such capabilities. Orbital satellite assembly would not only lower 
costs and increase the capabilities of future NASA satellites, but such 
operations could provide substantial commercial and national security 
benefits as well.
    Finally, the Reauthorization bill should provide strong support for 
robotic exploration missions. Robotic missions will play a vital role 
in exploring the Moons of Mars, Europa, and destinations throughout the 
solar system. Robotic exploration can gather critical data to support 
human exploration missions to Mars and other destinations in an 
affordable and effective fashion. Moreover, the technologies developed 
for robotic space exploration also have commercial applications and can 
help bolster the ability of the American aerospace sector to compete in 
an increasingly challenging global marketplace.

    Question 4. What programs within the agency pull its focus away 
from its intended main goal of placing humans on the surface of Mars?
    Answer. Most if not all of NASA's activities can play some role in 
contributing toward the goal of placing humans on the surface of Mars. 
However, some programs certainly have greater relevance than others. 
For example, a Mars mission will require robust propulsion capabilities 
in general and the further development of solar electric propulsion in 
particular. Similarly, developing affordable habitat systems will also 
be necessary to execute a crewed mission to Mars of any kind. NASA 
should focus on low-cost options such as repurposing upper rocket 
stages to serve as habitats. Robotics also have a vital role to play in 
supporting a Mars mission. The technologies being developed for 
satellite servicing via Restore-L and DARPA's RSGS program will make 
strong contributions to a future Mars mission.
    Beyond technological developments, NASA should also focus its 
global outreach efforts on assembling an international coalition to 
support a human mission to Mars. This coalition should not only involve 
all of the traditional ISS partners, but should also focus on 
developing strong relationships with emerging space powers such as the 
United Arab Emirates which is already planning a historic robotic Mars 
exploration mission.
    It's also worth considering the role the Moon has to play as a 
stepping stone toward the ultimate goal of a human mission to Mars. 
Almost the entire international space community supports a return to 
the Moon and such a mission could also create some excellent 
opportunities for robust commercial participation. Additionally, the 
technologies and lessons learned from establishing a permanent human 
presence on the Moon would have both direct and indirect relevance to 
supporting missions to Mars. Mars remains an important horizon goal for 
NASA and the entire world's human space exploration efforts. However, 
the Moon may represent a critical stepping stone to develop the 
technologies, knowledge base, and global partnership necessary to 
execute a successful human landing on the surface of Mars.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                              Michael Gold
    Question. Mr. Gold and Mr. Sirangelo, what are the biggest 
impediments that stand in the way of a robust commercial human 
spaceflight environment?
    Answer. The greatest single impediment to a robust commercial human 
spaceflight environment is insufficient emphasis, funding, and progress 
on revenue generating private sector LEO activities. There has been a 
substantial focus by NASA and the private sector to develop 
transportation systems. Transporting crew and cargo to LEO, 
particularly in an affordable fashion, is of course critical for 
commercial human spaceflight to succeed. However, even affordable crew 
and cargo transportation will not result in a robust commercial human 
spaceflight environment if there isn't a substantial increase in demand 
for space-based activities.
    Although NASA and the domestic space industry have struggled to 
identify revenue generating activities in LEO, hundreds of billions of 
dollars are pouring into GEO annually to manufacture and launch 
satellites, construct ground stations and related hardware, and pay for 
satellite services. Per my written and oral testimony, a combination of 
human and robotic support could be used to manufacture and/or assemble 
satellites in orbit. Orbital satellite manufacturing and assembly has 
the potential to revolutionize the industry, enhancing the ability of 
domestic companies to compete in an increasingly challenging global 
marketplace while simultaneously bolstering NASA's scientific 
capabilities.
    A first step toward creating a robust commercial human spaceflight 
environment via orbital satellite manufacturing and assembly would be 
for Congress to include language in the upcoming NASA Reauthorization 
bill encouraging the Agency, in collaboration with a private sector 
partner, to conduct a demonstration of robotic orbital assembly 
techniques via the ISS. The ISS is a tremendous resource for 
demonstrating innovative new commercial strategies and NASA should be 
directed to fully utilize the value the Station provides.
    Moreover, regulatory barriers hinder the development of a robust 
commercial human spaceflight environment. The U.S. Government's failure 
to craft a predictable, efficient, and transparent process to implement 
its obligation under the Outer Space Treaty to provide ``continuing 
supervision'' for private sector activities hangs over the industry 
like the proverbial Sword of Damocles. Congress, in consultation with 
relevant leadership within the FAA's Office of Commercial Space 
Transportation (``FAA AST''), the Department of State, and the 
Department of Defense, must address this issue with alacrity. 
Congressman Jim Bridenstine has already introduced an attractive 
strategy to resolve the matter by establishing an `enhanced payload 
review' process within the FAA AST. Again, within the upcoming NASA 
Reauthorization bill, this issue could be quickly addressed by 
including language providing the FAA AST with enhanced payload review 
authority.
    Finally, while substantial progress has been made over the last 
several years, obsolete export control policies continue to burden the 
private sector while also harming American national security interests 
by reducing the domestic defense industrial base. Congress should 
applaud and support the work being done within the Department of 
State's Directorate of Defense Trade Controls to review and update 
Category XV, ensuring that benign, commercial technologies that are 
available in the international marketplace are removed from the United 
States Munitions List (``USML''). Additionally, since technology is 
constantly evolving, a regular and mandatory process should be 
established to continuously review and revise the USML to ensure its 
ongoing relevance and efficacy
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                              Michael Gold
    Question. Russian-made rocket engines, specifically the RD-180, are 
commonly used to bring commercial payloads to space. Are American 
satellite manufacturers and commercial space firms committed to 
supporting the expeditious development of safe, reliable and cost-
effective American-made rocket engines? As additional American-made 
rocket engines are developed, are your firms committed to contracting 
with launch firms that only use domestically produced rocket engines?
    Answer. SSL strongly supports the development of safe, reliable, 
and cost-effective American-made rocket engines. SSL is constantly 
attempting to innovate new domestic capabilities both unilaterally and 
via partnerships with other domestic entities as well as the U.S. 
Government. However, the selection of launch providers are made by 
satellite owners and operators, not by satellite manufacturers such as 
SSL, and therefore I cannot address the question directly.
    However, it's worth noting that whether it's rocket engines or 
satellite manufacturing, foreign firms often receive direct subsidies 
from their governments making it difficult for U.S. companies to 
compete in an increasingly challenging global marketplace. The U.S. 
needs to do much more to support its domestic aerospace capabilities as 
outlined in my written testimony and responses to Senator Rubio's 
questions for the record.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                           Mark N. Sirangelo
    Question 1. Kennedy Space Center and the state of Florida is the 
world's space capital with the largest concentration of aerospace 
launch providers and suppliers. We've already seen Apollo, Shuttle, and 
ISS cargo launches from there and soon both Commercial Crew and SLS/
Orion will be launching. Could you discuss what this means for the 
future of Florida's Space Coast, and what you foresee happening in the 
State in the next few years?
    Answer. SNC will continue the long pedigree of launches from and 
landings on Florida's Space Coast with both its Dream Chaser reusable 
lifting body spacecraft, the launch of its small satellites and space 
technology products, and as part of the propulsion systems for new 
launch vehicles. SNC's Dream Chaser activities expects to leverage 
Florida's capabilities throughout the lifecycle starting with: final 
integration and test at Kennedy Space Center; payload processing; 
launch from Cape Canaveral; landing at the former Shuttle Landing 
Facility; payload, experiment, and cargo processing in the Space 
Exploration Park and nearby areas; refurbishment and reprocessing in 
NASA and Air Force facilities; and finally re-launch activities again 
from Florida's Space Coast. With preparation ongoing now, a first 
launch being planned, and multiple subsequent flights each year, SNC 
will be a regular and frequent customer, user, provider, and employer 
in the state of Florida.

    Question 2. During the birth of the Apollo program, the United 
States, under the leadership from President John F. Kennedy, was 
determined to beat the Soviets to the moon. Is the United States still 
in a position to remain competitive and challenge the likes of other 
global powers?
    Answer. Absolutely yes--if we remain bold and committed. The Dream 
Chaser is the only commercial, reusable lifting body in the world. It 
embodies the 21st Century capabilities of the United States in space by 
leveraging over 40 years of NASA and U.S. X-plane experience and 
operations, while harnessing the significant advancements in materials, 
systems, propulsion, and other technologies. Safe, affordable, 
flexible, evolvable, and reliable Dream Chaser space services and 
commercial transportation operations will create, enable, and sustain 
new missions and markets that generate significant value for the Nation 
while advancing U.S. leadership in this vitally important sector to our 
global economic and national security.

    Question 3. As the Senate looks to reauthorize NASA in the coming 
year, what reforms do you suggest?
    Answer. SNC supports a strong level of bipartisan and bicameral 
support for a NASA reauthorization that provides stability, balance, 
continuity, and enabling policy leadership for the United States in the 
globally competitive space arena. Specifically, SNC recommends the 
following reforms in order to more efficiently and effectively enable 
U.S. leadership through NASA in aerospace: (1) Grant NASA the ability 
to do multi-year program planning and funding to provide stability for 
its strategic programs, (2) Apply International Traffic in Arms 
Regulations (ITAR) reform for human spaceflight such that commercial 
human spacecraft are governed by the Export Administration Regulations 
and the Commerce Control List rather than the ITAR control regime, thus 
enabling broader use of the Dream Chaser being developed under NASA 
contract, (3) Ensure the long-term continuity of the Commercial Cargo 
and Crew programs supporting the International Space Station in 
addition to a balanced portfolio of deep space exploration directives, 
(4) Stimulate the development of multiple commercial space platforms 
and capabilities in low Earth orbit in order to firmly establish and 
sustain U.S. leadership and jobs in these areas and to enable a later 
budgetary focus on inherently government missions, (5) Emphasize 
hypersonics as a national priority and provide the DoD and NASA a 
mandate for hypersonics research and development and leverage use of 
the Dream Chaser as a hypersonics testbed.

    Question 4. What programs within the agency pull its focus away 
from its intended main goal of placing humans on the surface of Mars?
    Answer. We have no direct view on the question. Placing humans on 
the surface of Mars is a compelling and challenging main goal for NASA 
that will require steady advancements, stability of purpose and 
programs, along with effective leadership and management of the 
programs necessary to develop the requisite capabilities and competency 
necessary to achieve this worthy goal. NASA must focus on cost and 
schedule execution consistent with the priorities provided to them as 
part of a balanced portfolio. It must also have the ability to plan and 
budget for the long-term so that enabling programs such as NEXTStep-2 
are able to funded concurrently along with the Orion and SLS programs.

    Question 5. It has come to my attention that basic infrastructure 
challenges are impacting the growth of the commercial space marketplace 
at Cape Canaveral. These infrastructure challenges range from gaseous 
Nitrogen and Helium pipelines to support launch operations, to 
deteriorating bridges and roads. Has Sierra Nevada encountered any 
infrastructure challenges in the development of your new role in the 
Commercial Cargo contract?
    Answer. SNC agrees that a national investment in the Nation's vital 
launch and range infrastructure on the Space Coast, and particularly at 
Kennedy Space Center and Cape Canaveral is essential to mission success 
and global leadership in this area. SNC seeks to avoid costly delays 
and high infrastructure costs for both basic and specialized 
capabilities by supporting early and sustained operations and 
maintenance activities that enable safe, timely, and affordable 
execution of commercial launch and landing operations on Florida's 
Space Coast. Specifically, transportation, bridge fortification, 
facilities, and range capabilities have been identified as early 
elements requiring attention.

    Question 6. Would you be supportive of more innovative solutions to 
meeting those basic infrastructure needs, such as better partnerships 
with the state?
    Answer. Yes--SNC is always open to creative and innovative 
partnerships that serve as win-win relationships for all parties. As a 
firm fixed price commercial services contract provider, we are strongly 
motivated to control costs while maintaining an extremely high level of 
safety and mission assurance. The hallmarks that SNC seeks for any 
relationships, including the State of Florida or any other entity, are 
responsiveness, flexibility, agility, excellent communication, robust 
resourcing, simplicity, and timely decision-making. SNC is open to 
expanding existing partnerships or forging new ones.

    Question 7. Can you speak to how policies need to be reformed in 
order to accommodate a robust and competitive U.S. commercial space 
sector, especially in low Earth orbit (LEO)?
    Answer. Creating a robust and competitive U.S. Commercial space 
sector, especially in low Earth orbit (LEO) is fundamentally important 
to the United States. The U.S. must preserve and extend its lead in 
this area through smart incentives (space investment tax credits, 
access to national facilities and capabilities on a use basis instead 
of full cost basis, third party liability insurance), aggressive 
national policy making (elements of the House-proposed Space 
Renaissance Act) to create the ``Most Conducive National Business 
Climate'', and assertive and forward-leaning leadership in the 
international law arena (Property rights, space salvage law, orbital 
debris mitigation). International Traffic in Arms Reduction (ITAR) 
reform should continue to specifically include human spaceflight. 
Specifically, the Senate should eliminate ITAR barriers to our ability 
to sell Dream Chaser missions commercially to those interested in 
buying into a launching and landing both uncrewed and crewed vehicles 
throughout the world. The Dream Chaser and similar commercial vehicles 
should be placed on the Commerce Control List under EAR control, rather 
than ITAR control.
    The government's stimulation of a competitive U.S. commercial space 
industrial base and NASA's use of public-private partnerships (PPPs) 
has been very successful by reducing the cost of NASA programs such as 
crew and cargo transfer to ISS by hundreds of millions of dollars and 
also in stimulating a growing commercial space industry sector that is 
creating jobs and economic benefits in many states. Continue the 
emphasis on, and use of, PPPs, Firm Fixed Priced contracts, streamlined 
acquisition activities, and Enhanced Use Lease (EUL), allowing U.S. 
industry to apply innovation and lower government costs.
    Additive Manufacturing, both terrestrially, and in-space, should be 
a key focus area for investment and broad application to enhance U.S. 
domestic manufacturing capabilities and associated business benefit. 
Investment tax credits, shared use of government facilities and 
equipment, plus national research and development grants and funding 
should be focused in this area. Similarly, advanced materials, 
nanomaterials, biomaterials, and advanced coatings/films should also be 
the focus of strategic investment and PPPs. Investments and PPPs 
focused on autonomy, Artificial Intelligence, and human-machine teaming 
should be an important focus area for research and development, 
investment, incentives, and collaborative government-industry focus. 
Finally, creation of a supportive policy, liability, international law/
treaty, and economic environment for the control, mitigation, and 
active removal of orbital debris in LEO and GEO is critical for use of 
space in and around the Earth.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                           Mark N. Sirangelo
    Question. Mr. Gold and Mr. Sirangelo, what are the biggest 
impediments that stand in the way of a robust commercial human 
spaceflight environment?
    Answer. A robust commercial human spaceflight environment must be 
founded on a sustainable mission and market demand that is met by 
competitive and capable market capabilities and offerings. To address 
the biggest impediments that stand in the way of this, one must first 
address the underlying commercial market it LEO as the fundamental or 
driving foundation. The U.S. Government has long been a global leader 
in enabling the commercialization of space industries. From earth 
observation, to satellite communications as well as to launch vehicles 
today, NASA and the Government have set the gold standard in pioneering 
new fields; developing technologies, demonstrating their feasibility 
and eventually transitioning from Government to commercial hands. This 
is reflected in the U.S. National Space Policy which calls for a 
``robust and competitive U.S. commercial space industry'' and directs 
various U.S. departments and agencies to utilize and advance the U.S. 
commercial space sector.
    The benefits for pursuing a commercial Low Earth Orbit (LEO) market 
are clear. Increased utilization of space creates new markets and 
stimulates economic growth and demand for high paying science, 
technology, engineering, and mathematics jobs with broad benefits for 
the U.S. through advances in science and technology. The transition to 
commercializing LEO could free up NASA's resources to move on to their 
broader objectives of deep space exploration and the Journey to Mars. 
As an important part of a robust LEO ecosystem, commercial human 
spaceflight capabilities will emerge to fill real and compelling 
mission and market demands.
    In 2005, NASA Administrator Mike Griffin challenged U.S. private 
industry to develop cargo and crew space transportation capabilities 
that could meet the needs of the International Space Station (ISS). 
Since then, NASA, under Administrator Charlie Bolden, has supported the 
commercial space sector through its COTS, CCtDev, CCtCap, and CRS1 
programs. This approach has resulted in three commercial companies 
contracted to provide cargo services to the ISS; the SpaceX Dragon 
which also provides crew services, Orbital ATK's Cygnus, and most 
recently the Sierra Nevada Corporation's Dream Chaser and an additional 
one Boeing providing crew services.
    In 2005, Congress advanced public use of LEO through its 
designation of the U.S. portion of the ISS as a National Laboratory 
(NatLab), followed by the 2010 NASA Authorization bill that articulated 
the establishment of an independent non-profit group to manage this lab 
for public use. The hope was that the ISS NatLab would leverage the 
significant investments in the ISS program to become an anchor platform 
for attracting, encouraging, and enabling commercial uses of LEO. 
Together all of these activities have stimulated market demand driven 
by the U.S. Government in order to develop this emerging sector. At 
present, a focus on LEO commercialization is most prudent, given the 
greater market and mission challenges and complexities associated with 
beyond LEO commercial activities, including human spaceflight.
    There is no question that a robust U.S.-led commercial LEO market 
is budding, but still in its development stage. The stage is set, but 
there is not a clear substantive national strategy among all of the 
stakeholders for harnessing the collective public and private assets of 
the country with a clear objective and national rationale. There is an 
opportunity between to create a continued fertile environment for 
success. Although there are government initiatives to address some of 
these concerns, government lacks the capability to truly solve the 
problem alone and must look to industry for leadership in a shared 
solution. However, the private sector must have a clear understanding 
of what it needs to be successful and provide clear guidance so the 
government can develop policy and incentives that help enable the 
market, including addressing: barriers, liability, export control, tax, 
and the financial incentives to make strategic use of resources.
    We believe the time has come to consider a new approach to 
leveraging the investments made by both the U.S. Government and the 
private sector bringing the opportunities identified in these studies 
to life. SNC alone has invested many millions of dollars into Dream 
Chaser alongside of NASA. Although government stimulus funding may be 
required, it must be led by the private sector with the goal of 
creating a robust demand for an ecosystem of space assets that include 
ISS and other LEO destinations.
    The SNC Dream Chaser is the only reusable commercial lifting body 
spacecraft in the world capable of a responsive runway landing, the 
first spacecraft in history to use all non-toxic consumables and 
propellants, and a true multi-mission Space Utility Vehicle platform 
that can safely, affordably, and flexibly execute new and expanded 
missions. NASA's strategic investments in this American-built 21st 
Century spaceplane (through the CRS2 program) has formed a key multi-
mission platform element of a broader constellation of space 
capabilities that will achieve our national goals, foster an ecosystem 
of ideas and innovation, and serve as an instrument of global 
diplomacy. SNC's strategy is to fully harness the Dream Chaser's 
multimission capability. In assembling our strategic partner network, 
now over 50 entities in over 20 states, we have found the need for an 
enabling capability that harnesses this constellation of providers, 
suppliers, users and governments.
    Exploiting nascent LEO markets requires innovative approaches to 
structuring and coordinating public and private space related 
capabilities. In the near term, there are several actions the Congress 
and the White House can take to contribute to this effort:
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                           Mark N. Sirangelo
    Question. Russian-made rocket engines, specifically the RD-180, are 
commonly used to bring commercial payloads to space. Are American 
satellite manufacturers and commercial space firms committed to 
supporting the expeditious development of safe, reliable and cost-
effective American-made rocket engines? As additional American-made 
rocket engines are developed, are your firms committed to contracting 
with launch firms that only use domestically produced rocket engines?
    Answer. SNC cannot speak to the activities of the industry at large 
but as a company and buyer of launch we support and benefit from a 
vibrant and competitive U.S. launch industry. SNC buys complete turn-
key launch systems and not individual subsystems such as motors so the 
decision to which motors are used is an internal one of the launch 
providers. Often it is our ultimate client who direct rocket purchase 
however when we are the prime our general practice is to issue request 
for proposals (RFPs) for our launch that require many factors to be 
provided by the bidder. Some of these factors are which are evaluated 
and scored are suitability to the mission, complete launch price and 
pricing terms, ability to meet schedule, launch success history, 
production schedule, need for customization, insurability and cost of 
insurance, special requirements of our clients as well as many other 
factors. For example, SNC has opened up our launch procurement 
informational process for our Dream Chaser missions to all current or 
future U.S. launch providers. We support and encourage all viable U.S. 
launch companies to advance their technology and hope that they will 
respond to our future launch needs. We certainly agree that the U.S. 
needs to be developing new and innovative rocket engines for the 
future. Our company is focused on building new American-made rocket 
engines that may be used in such systems. They incorporate next 
generation technology to improve performance and reduce cost and are 
competitive with engines built anywhere in the world.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Daniel L. Dumbacher
    Question 1. Kennedy Space Center and the state of Florida is the 
world's space capital with the largest concentration of aerospace 
launch providers and suppliers. We've already seen Apollo, Shuttle, and 
ISS cargo launches from there and soon both Commercial Crew and SLS/
Orion will be launching. Could you discuss what this means for the 
future of Florida's Space Coast, and what you foresee happening in the 
State in the next few years?
    Answer. Kennedy Space Center (KSC) and the state of Florida is, and 
will continue to be, the primary space launch ``hub'' for United States 
space endeavors as the Nation's Spaceport. The work of preparing 
spacecraft, preparing launch vehicles, and launching vehicles to orbit 
is on the critical path to establishing a permanent human presence in 
space and expanding our economic sphere. KSC and the state of Florida 
are ``launching'' the majority of exploration and commercial activities 
needed to continue development of space for the future. Providing 
launch infrastructure for emerging space utilization activities and 
exploration beyond low Earth orbit will expand United States 
leadership, and the peaceful uses of space for global society.

    Question 2. During the birth of the Apollo program, the United 
States, under the leadership from President John F. Kennedy, was 
determined to beat the Soviets to the moon. Is the United States still 
in a position to remain competitive and challenge the likes of other 
global powers?
    Answer. The United States is definitely in a position to remain 
competitive based on its current and long-time leadership of human 
space exploration. The principle threat to not being competitive is the 
United States abdicating this leadership through lack of commitment, 
inattention, or naivete. Therefore, the United States, must continue to 
act, develop the commercial cargo and crew opportunities for 
transportation to and from low Earth orbit, maintain productive use and 
permanent presence at the International Space Station, lead development 
of capabilities for astronauts to explore, and extend permanent human 
presence beyond low Earth orbit.
    The United States won the race to the moon (Mercury, Gemini, 
Apollo), initiated routine access to space (Space Shuttle), learned how 
to live and work in space (Skylab, Spacelab, ISS), developed 
International Partnerships (Apollo-Soyuz, Spacelab, Shuttle-Mir, ISS), 
and is now building the strategic relationship between government 
exploration and enabling the commercial development of space 
(Commercial Cargo, Commercial Crew, NextSTEP). Each of these steps 
builds upon the previous phase, was difficult to accomplish, and was a 
vital step. The United States and NASA were successful in each and will 
be successful in the future. United States leadership continues to 
build the narrative to establish permanent human presence in space.
    With this hard earned experience, the United States, with continued 
Administration and Congressional leadership, can remain the global 
space exploration leader. This leadership needs to be demonstrated with 
clear political communication on the value and ``why'' we explore 
space, and building the narrative for permanent human presence in 
space.
    History clearly shows that the nations continuing to explore new 
horizons, solving new challenges, and leading other nations to settle 
new lands, maintain their leadership and prestige in the world. The 
United States is at a key crossroads, one that will determine whether 
we continue to take on new challenges, enhancing our global leadership, 
or whether we will build walls and focus internally. It is essential 
that the United States political leadership recognize and clearly 
communicate the goals and objectives, and shape the clear narrative for 
long term sustainability and investment in space exploration. In 
today's environment, the narrative must be built upon the value of a 
nation continuing to search beyond the next horizon. In doing so, our 
Nation can garner the enormous political, national defense, scientific, 
technological, and economic value from space exploration.
    There is also an urgency in maintaining and building the United 
States leadership in space. We are the global leader in the space 
economy and thus in a position to establish the precedents that others 
will follow. With the number of international and commercial actors and 
activities rapidly increasing in numbers and scope, the United States 
must actively engage and stay in the lead to establish the space 
frontier ``rules of the road'' based on American values. Permanent 
human presence in space is required to do this.
    For the benefit of the generations that follow us, the continued 
excellence of the United States, we MUST push ourselves to explore and 
utilize space, grow our industrial and technological base and skills, 
lead and work with other countries, continue to take on the hard 
challenges, and expand the human neighborhood in and beyond low Earth 
orbit.

    Question 3. As the Senate looks to reauthorize NASA in the coming 
year, what reforms do you suggest?
    Answer. The next NASA Authorization bill is extremely important for 
the future of space exploration to build on current programs and 
achievements. A clear reaffirmation of the goals and objectives from 
the 2010 NASA Authorization Act (Public Law 111-267), particularly ``to 
expand human presence beyond low Earth orbit, and to do so, where 
practical, in a manner involving international partnerships.'' 
Reaffirmation and building on this long-term goal will drive space 
exploration enterprise stability, sustainability, and prepare for the 
next steps, thereby minimizing the ``stop/start'' churn NASA has 
experienced in the past.
    Congress at every opportunity, particularly following a national 
election, needs to clearly state and reaffirm the guiding goals and 
objectives for the use and exploration of space and avoid a major 
``reset'' that can lead to policy confusion, programmatic uncertainty, 
and accompanying wasteful and inefficient use of valuable human and 
financial resources. The goal should not be just for NASA to place 
humans on the surface of Mars or, like Apollo, it will be perceived 
that boot prints mean exploring is done. The next NASA Authorization 
Act must clearly delineate the goal of humans permanently in space and 
beyond low Earth orbit.
    It is also essential to continue the 2010 Authorization Act 
mandates on Key Objectives to deliver value to the Nation in key areas 
such as building the foundation for sustainable economic activities in 
space, supporting U.S. security and global competitive posture, 
advancing knowledge of the universe, and inspiring young people. United 
States permanent human presence in space, with the rapidly growing 
international and commercial activity, is required for the United 
States to lead the establishment of the space frontier ``rules of the 
road'' in a manner consistent with American values. This is the source 
of the urgency, as other actors take on greater activity in space, the 
window for U.S. leadership in establishing the ``rules of the road'' is 
closing.
    Specific suggested NASA Authorization Act reforms include:

  1.  Build on and refine the 2010 NASA Authorization Act's long term 
        goal to be:

                The long term goal of the human spaceflight and 
                exploration program of the United States is to expand 
                permanent human presence beyond low-Earth orbit in a 
                way that will enable human settlement and a thriving 
                space economy.

                This will be best achieved through public-private 
                partnerships and international collaboration.

    This goal was a consensus statement of a diverse group of over 100 
space leaders from academia, government and industry at the 2015 
Pioneering Space National Summit. All of the participants agreed that 
this statement is consistent with, and builds upon, the 2010 NASA 
Authorization Act. This national journey will serve many national 
interests and benefit the American people.

  2.  Mandate that NASA specifically address this goal in its strategic 
        planning;

  3.  Mandate that NASA on a yearly basis report to Congress its 
        progress in pursuing this goal, and report on policy or other 
        impediments that stand in its way of doing so;

  4.  Mandate that NASA on a yearly basis report to Congress its 
        progress in implementing recommendations of the 2014 National 
        Academy's Pathways to Exploration Report, and report on policy 
        impediments that stand in its way of doing so, or provide sound 
        rationales for different direction than that recommended by the 
        report;

  5.  Based on the selected goals and objectives for NASA, Congress 
        needs to clearly define the resources to be made available for 
        space exploration. The resources must grow consistent with the 
        expected work to be accomplished on a reasonable schedule and 
        account for inflation to avoid loss of buying power.

  6.  Provide NASA the ability, within its Budget Authority, to have a 
        single appropriations line for Exploration Systems to permit 
        the efficient use of resources for attaining the necessary 
        technical and schedule objectives. Multiple appropriations 
        lines greatly complicate the program management of the SLS, 
        Orion, and Ground Systems development. Further fragmentation of 
        funding into smaller and smaller accounts effectively inhibits 
        sound program management and inevitably drives up the cost of 
        programs while introducing greater risk. As additional elements 
        such as habitats are added to the exploration portfolio, the 
        ability to efficiently address programmatic issues is essential 
        for efficient use of valuable taxpayer resources;

  7.  Provide NASA the programmatic and technical discretion to 
        implement the plans necessary to meet the goals and objectives 
        consistent with available resources, and appropriate 
        Congressional oversight;

  8.  Require NASA to evaluate and use programmatic and technical best 
        practices from other industries and government agencies. 
        Consideration should be given to a NASA version of DARPA to 
        allow new methodologies to be tried unencumbered by the 
        traditional and bureaucratic approaches. It is imperative that 
        NASA remain at the forefront of technology and program 
        management. NASA developed the systems engineering and program 
        management tools necessary for Apollo. These tools have served 
        this Nation well as programs have increased in complexity. The 
        landscape is evolving with emerging space companies and the 
        government role of tackling the technical challenges, and NASA 
        must be flexible while assuring the safety and appropriate use 
        of taxpayer resources. This necessitates a continual learning 
        organization, willing to experiment and test new technical and 
        program management methods.

    Question 4. What programs within the agency pull its focus away 
from its intended main goal of placing humans on the surface of Mars?
    Answer. The 2010 NASA Authorization Act clearly states the goals 
and objectives for NASA and its respective mission directorates. These 
goals and objectives are defined for human space exploration, Earth 
Science, Space Science, Aeronautics, and Education. Relative priority 
is established by the Administration and Congress based on the 
respective value provided to the Nation.
    Consistent with the long-term goals and objectives to expand human 
presence beyond low Earth orbit to enable human settlement and a 
thriving space economy via public-private partnerships and 
international collaboration, Congress should consider increasing the 
investment in NASA to at least double the expected inflation rate. This 
would be a rational investment for the future within the constraints of 
the current and expected fiscal environment, provide an improved 
foundation for our Country's future, and assure U.S. leadership in 
space.
    Even in the difficult current fiscal environment, with many needs 
and demands placed on the Federal Government, a steadily increasing 
investment for our future is appropriate. Not only do such investments 
help grow the economy through advancements in competitiveness and 
innovation, and thus pay for themselves in the long run, they ensure 
the realization of future economic opportunities for our citizens and 
our children, which are essential. As all U.S. citizens see more 
opportunities for themselves, their families, and their communities, 
hope for the future is increased, and provides the foundation for an 
optimistic and engaging vision of the future for all our citizens. 
Space exploration, is and will continue to be an important pathway 
towards new economic opportunities, and the development of new 
technologies, all leading to a better future for all.
    It is imperative that Congress and the Administration demonstrate 
the leadership required to build a better future with the benefits of 
space exploration. NASA's accomplishments and lessons learned through 
the decades have provided inspiration, new economic opportunities and 
new technologies that are an important part of our international 
leadership, national defense, and emerging commercial opportunities.
    Would we be satisfied if we turned off GPS for a day, did without 
weather satellites or space based communications, did not have 
astronauts running experiments for new medicines, new materials, and 
learning how to live and work in space with direct application to the 
human ageing process, understanding our solar system through our rovers 
and planetary probes, obtaining a better understanding of the cosmos 
through our telescopes, and providing more efficient means for 
commercial air travel? I think not.
    I believe a modest increase in NASA's funding at double the 
expected rate of inflation is the appropriate funding level to be 
included in the next NASA Authorization Act.

                                  [all]

                  This page intentionally left blank.

      
</pre></body></html>
